<html>
<title> - STRENGTHENING THE ECONOMY AND IMPROVING THE LIVES OF AMERICAN WORKERS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
                     STRENGTHENING THE ECONOMY AND
                IMPROVING THE LIVES OF AMERICAN WORKERS

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                          EDUCATION AND LABOR

                     U.S. House of Representatives

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

            HEARING HELD IN WASHINGTON, DC, FEBRUARY 3, 2010

                               __________

                           Serial No. 111-44

                               __________

      Printed for the use of the Committee on Education and Labor


                       Available on the Internet:
      http://www.gpoaccess.gov/congress/house/education/index.html



                  U.S. GOVERNMENT PRINTING OFFICE
54-646                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6304130c23001610170b060f134d000c0e4d">[email&#160;protected]</a>  

                    COMMITTEE ON EDUCATION AND LABOR

                  GEORGE MILLER, California, Chairman

Dale E. Kildee, Michigan, Vice       John Kline, Minnesota,
    Chairman                           Senior Republican Member
Donald M. Payne, New Jersey          Thomas E. Petri, Wisconsin
Robert E. Andrews, New Jersey        Howard P. ``Buck'' McKeon, 
Robert C. ``Bobby'' Scott, Virginia      California
Lynn C. Woolsey, California          Peter Hoekstra, Michigan
Ruben Hinojosa, Texas                Michael N. Castle, Delaware
Carolyn McCarthy, New York           Mark E. Souder, Indiana
John F. Tierney, Massachusetts       Vernon J. Ehlers, Michigan
Dennis J. Kucinich, Ohio             Judy Biggert, Illinois
David Wu, Oregon                     Todd Russell Platts, Pennsylvania
Rush D. Holt, New Jersey             Joe Wilson, South Carolina
Susan A. Davis, California           Cathy McMorris Rodgers, Washington
Raul M. Grijalva, Arizona            Tom Price, Georgia
Timothy H. Bishop, New York          Rob Bishop, Utah
Joe Sestak, Pennsylvania             Brett Guthrie, Kentucky
David Loebsack, Iowa                 Bill Cassidy, Louisiana
Mazie Hirono, Hawaii                 Tom McClintock, California
Jason Altmire, Pennsylvania          Duncan Hunter, California
Phil Hare, Illinois                  David P. Roe, Tennessee
Yvette D. Clarke, New York           Glenn Thompson, Pennsylvania
Joe Courtney, Connecticut
Carol Shea-Porter, New Hampshire
Marcia L. Fudge, Ohio
Jared Polis, Colorado
Paul Tonko, New York
Pedro R. Pierluisi, Puerto Rico
Gregorio Kilili Camacho Sablan,
    Northern Mariana Islands
Dina Titus, Nevada
Judy Chu, California

                     Mark Zuckerman, Staff Director
                 Barrett Karr, Minority Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on February 3, 2010.................................     1

Statement of Members:
    Hinojosa, Hon. Reuben, a Representative in Congress from the 
      State of Texas, tri-caucus letter dated January 27, 2010...    40
    Kline, Hon. John, Senior Republican Member, Committee on 
      Education and Labor........................................     4
        Prepared statement of....................................     6
        Statement of the Associated Builders and Contractors.....    44
    Miller, Hon. George, Chairman, Committee on Education and 
      Labor......................................................     2
        Prepared statement of....................................     3

Statement of Witnesses:
    Solis, Hon. Hilda L., Secretary, U.S. Department of Labor....     8
        Prepared statement of....................................    13
        Responses to questions submitted.........................    48


                       STRENGTHENING THE ECONOMY
                        AND IMPROVING THE LIVES
                          OF AMERICAN WORKERS

                              ----------                              


                      Wednesday, February 3, 2010

                     U.S. House of Representatives

                    Committee on Education and Labor

                             Washington, DC

                              ----------                              

    The committee met, pursuant to call, at 10:06 a.m., in room 
2175, Rayburn House Office Building, Hon. George Miller 
[chairman of the committee] presiding.
    Present: Representatives Miller, Kildee, Payne, Scott, 
Woolsey, Hinojosa, McCarthy, Tierney, Kucinich, Wu, Grijalva, 
Sestak, Hirono, Altmire, Hare, Clarke, Shea-Porter, Fudge, 
Polis, Tonko, Pierluisi, Sablan, Titus, Chu, Kline, Petri, 
Castle, Ehlers, Biggert, Wilson, McMorris Rodgers, Price, 
Guthrie, Cassidy, McClintock, Roe, and Thompson.
    Staff present: Aaron Albright, Press Secretary; Tylease 
Alli, Hearing Clerk; Andra Belknap, Press Assistant; Jody 
Calemine, General Counsel; Lynn Dondis, Labor Counsel, 
Subcommittee on Workforce Protections; Carlos Fenwick, Policy 
Advisor, Subcommittee on Health, Employment, Labor and 
Pensions; Patrick Findlay, Investigative Counsel; Denise Forte, 
Director of Education Policy; David Hartzler, Systems 
Administrator; Ryan Holden, Senior Investigator; Broderick 
Johnson, Staff Assistant; Gordon Lafer, Senior Labor Policy 
Advisor; Therese Leung, Labor Policy Advisor; Sadie Marshall, 
Chief Clerk; Ricardo Martinez, Policy Advisor, Subcommittee on 
Higher Education, Lifelong Learning and Competitiveness; Celine 
McNicholas, Associate Labor Counsel; Richard Miller, Senior 
Labor Policy Advisor; Alex Nock, Deputy Staff Director; Megan 
O'Reilly, Labor Counsel; Rachel Racusen, Communications 
Director; Meredith Regine, Junior Legislative Associate, Labor; 
James Schroll, Junior Legislative Associate, Labor; Michele 
Varnhagen, Labor Policy Director; Michael Zola, Chief 
Investigative Counsel; Mark Zuckerman, Staff Director; Kirk 
Boyle, Minority General Counsel; Casey Buboltz, Minority 
Coalitions and Member Services Coordinator; Allison Dembeck, 
Minority Professional Staff Member; Ed Gilroy, Minority 
Director of Workforce Policy; Rob Gregg, Minority Senior 
Legislative Assistant; Richard Hoar, Minority Professional 
Staff Member; Barrett Karr, Minority Staff Director; Alexa 
Marrero, Minority Communications Director; Ryan Murphy, 
Minority Press Secretary; Jim Paretti, Minority Workforce 
Policy Counsel; Molly McLaughlin Salmi, Minority Deputy 
Director of Workforce Policy; Linda Stevens, Minority Chief 
Clerk/Assistant to the General Counsel; and Loren Sweatt, 
Minority Professional Staff Member.
    Chairman Miller [presiding]. A quorum being present, the 
committee will come to order for the purposes of conducting the 
hearing with the Secretary of Labor.
    I am honored today to welcome our former colleague and 
current Secretary of Labor, Hilda Solis, before our committee 
to share the administration's priorities for the upcoming year.
    Secretary Solis joins us at a very trying time for 
America's workers and families. Our most important job is to 
get Americans back to work and to rebuild our economy. And 
Secretary Solis has been in the forefront of this effort not 
only to put people back to work, but to help train and retrain 
and develop new career paths for our workers and their 
families.
    The financial scandals have put more than seven million 
people out of work and left millions more wondering whether 
they will be next. In just 1 month, the same month that 
President Obama was inaugurated, 741,000 workers were laid off. 
This Congress worked immediately with President Obama to create 
a recovery plan to save our economy from total devastation and 
reduced the numbers laid off by the end of the year by almost 
90 percent.
    The impact of the Recovery Act has been undeniable. Without 
decisive action, we would have been dealing with greater 
deficits, at least one million more jobs lost, and an economy 
on the brink. Economists from left and right agree on this.
    Since the Recovery Act, we have stemmed the tide of deep 
layoffs and even posted the first positive month of job growth 
in more than 2 years. And on Friday we got the news that the 
economy grew by its fastest rate in more than 6 years.
    While this is encouraging, much more work needs to be done. 
We will not rest until millions of Americans still out of work 
find a job. And in an especially difficult economy, a 
responsive Department of Labor is essential to assisting and 
standing up for workers.
    Long before this crisis, America's middle class was already 
feeling squeezed by a decade-long wage stagnation and benefit 
cuts. The sad fact is that the average worker makes less today 
than they did in the 1970s. At the same time, Americans saw the 
cost of housing, education, health care and energy skyrocket. 
This path is unsustainable for our middle class.
    A vibrant and growing middle-class is crucial to our future 
competitiveness. Thanks to Secretary Solis, the Department of 
Labor is playing a central role in our nation's economic 
recovery and laying the groundwork for a stronger middle class. 
The Obama administration has laid out an ambitious agenda to 
rebuild the middle class, to help create good jobs, to train 
our workers for careers in the future, to protect those workers 
while on the job, and to improve our nation's retirement 
security.
    Madam Secretary, thank you for your leadership in moving 
the president's agenda.
    This agenda must be ambitious for two simple reasons. First 
is the need for a sustainable recovery. The early evidence is 
that it is becoming apparent that we are moving toward better 
economic news and a growing economy.
    The second reason is to revamp the Department of Labor 
after years of neglect. One critical mission of the department 
is to protect the health and safety of our nation's workers. 
For too long OSHA failed to respond to the real dangers that 
have put American workers in needless peril. Recent enforcement 
actions by the new administration have been a breath of fresh 
air. Instead of looking the other way, this administration is 
holding reckless employers accountable for putting their 
workers in danger.
    The new department also has made strides to protect 
families' paychecks from unscrupulous employers. The Recovery 
Act helped to fund an additional 250 investigators to ensure 
compliance with our nation's wage laws and our child labor 
laws.
    The GAO identified several issues that resulted in the Wage 
and Hour Division in failing to address the serious allegations 
of wage theft that left thousands of victims of wage theft from 
nowhere to turn. In fact, what we saw were employees at the 
department lying to the American public about their ability to 
recover their wages and whether or not employers were still 
available for that recovery.
    Especially in this economy, every dollar that an employer 
steals from a worker is a dollar a family loses to pay for 
basic necessities. I am eager to hear from Secretary Solis 
about how she is reinvigorating the wage and hour enforcement.
    The Department of Labor also has been working to unwind a 
number of past initiatives that have diminished workers' 
retirement security. The department took its first steps by 
beginning to scrap the special-interest rule that threw the 
door wide open for financial service companies to provide 
investment advice to employees where they had a financial 
interest. The department is tasked to safeguard workers' 
retirement, not to push policies that pad Wall Street's bottom 
line.
    By statute the Department of Labor is tasked to foster, 
promote, and to develop the welfare of wage earners of the 
United States, to improve their working conditions, and to 
advance their opportunities for profitable employment. I see 
real progress in restoring this mission. This is partially the 
result of having a secretary who understands what it means to 
work for a living.
    Madam Secretary, your department has been very busy this 
year, and the new budget signals more hard work to come. From 
implementing the Recovery Act to creating good jobs for workers 
to enhancing the department's enforcement efforts to improving 
transparency, you certainly have your work cut out for you, and 
we look forward to hearing your remarks.
    At this point I would like to recognize the senior 
Republican on our committee, Mr. Kline.
    [The statement of Mr. Miller follows:]

          Prepared Statement of Hon. George Miller, Chairman,
                    Committee on Education and Labor

    I am honored to welcome a former colleague and current Secretary of 
Labor Hilda Solis today to share the administration's priorities for 
the upcoming year.
    Secretary Solis joins us at a very trying time for America's 
workers and families.
    Our most important job is to get Americans back to work and rebuild 
our economy.
    And Secretary Solis has been at the forefront in this effort.
    The financial collapse has put more than seven million Americans 
out of work and left millions more wondering if they will be next.
    In just one month, the same month that President Obama was 
inaugurated, 741,000 workers were laid off.
    That was one heck of a welcome gift.
    This Congress worked immediately with President Obama to create a 
recovery plan to save our economy from total devastation.
    The impact of the Recovery Act has been undeniable: without 
decisive action, we would be dealing with greater deficits, at least 
one million more jobs lost and an economy on the brink.
    Economists from left to right agree on this.
    Since the Recovery Act, we have stemmed the tide of deep layoffs 
and even posted the first positive month of job growth in more than two 
years.
    And on Friday, we got news that the economy grew by its fastest 
rate in more than six years.
    While this is encouraging, much more work remains. We will not rest 
until the millions of Americans still out of work find a job. In an 
especially difficult economy, a responsive Department of Labor is 
essential in assisting and standing up for workers.
    Long before this crisis, America's middle class was already feeling 
squeezed by decades-long wage stagnation and benefit cuts. The sad fact 
is that the average worker makes less today than they did in the 1970s. 
At the same time, Americans saw the cost of housing, education, health 
care and energy skyrocket. This path is unsustainable. A vibrant and 
growing middle class is crucial for our future competitiveness. Thanks 
to Secretary Solis, the Department of Labor is playing a central role 
in our nation's economic recovery and laying the groundwork for a 
stronger middle class. The Obama administration has laid out an 
ambitious agenda to rebuild the middle class--to help create good jobs, 
train our workers for the careers of the future, protect those workers 
while on the job, and improve our nation's retirement security. Their 
agenda must be this ambitious for two simple reasons. First is the need 
for a sustainable recovery. And second is the necessity to revamp the 
department after years of neglect. For instance, one critical mission 
of the Department is to protect the health and safety of our nation's 
workers.
    For too long, OSHA failed to respond to real dangers and put 
American workers in needless peril. Recent enforcement actions by the 
new administration have been a breath of fresh air. Instead of looking 
the other way, this administration is holding reckless employers 
accountable for putting their workers in danger. The new department has 
also made strides to protect families' paychecks from unscrupulous 
employers.
    The Recovery Act helped to fund an additional 250 investigators to 
ensure compliance with our nation's wage and child labor laws.
    The GAO identified several issues that resulted in the Wage and 
Hour Division in failing to address serious allegations of wage theft 
that left thousands of victims of wage theft with nowhere to turn.
    Especially in this economy, every dollar an employer steals from a 
worker is a dollar a family loses to pay for basic necessities.
    I am eager to hear from Secretary Solis about how she is 
reinvigorating wage and hour enforcement.
    The Department of Labor also has been working to unwind a number of 
past initiatives that diminished workers' retirement security.
    The department took a first step by beginning to scrap a special-
interest rule threw the door wide open for financial services companies 
to provide investment advice to employees where they had a financial 
interest.
    The Department is tasked to safeguard workers' retirement, not to 
push policies that pad Wall Street's bottom line.
    By statute, the Department of Labor is tasked to ``foster, promote, 
and develop the welfare of the wage earners of the United States, to 
improve their working conditions, and to advance their opportunities 
for profitable employment.''
    I see real progress in restoring this mission. This is partially 
the result of having a secretary who understands what it means to work 
for a living.
    Madame Secretary, your department has had a very busy year and the 
new budget signals more hard work to come.
    From implementing the Recovery Act and creating good jobs for 
workers, to enhancing the department's enforcement efforts and 
improving transparency, you certainly have your work cut out for you.
    The committee looks forward to your testimony.
                                 ______
                                 
    Mr. Kline. Thank you, Mr. Chairman, and good morning.
    I want to welcome Secretary Solis to the committee for her 
first appearance since being sworn in as the United States 
Secretary of Labor a little less than a year ago.
    With our nation facing ongoing job losses and widespread 
workplace uncertainty, your presence is certainly welcome here 
today, Madam Secretary.
    Last week President Obama was quite clear in declaring his 
administration's commitment to American workers and policies 
that will address their economic concerns. I applaud him for 
this focus on jobs and economic security. As policymakers, 
these other priorities to which we should all be dedicated. 
Yet, while I appreciate the president's recognition of the 
economic peril space in our nation, I cannot help but question 
many of his proposed policies that seem to run contrary to the 
goal of job creation and economic security.
    This morning I look forward to an honest assessment of the 
Obama administration's labor agenda. The American people want 
to know who are these policies designed to benefit? Who are 
these policies designed to harm? And above all else, how will 
these policies create and sustain jobs?
    For example, Secretary Solis recently reaffirmed her 
support for the misnamed Employee Free Choice Act. We know this 
policy is designed to benefit labor unions, and we know it will 
harm small family businesses, employers struggling to stay 
afloat in a weak economy. But the question remains how will 
Card Check create and sustain jobs?
    Likewise, the administration recently struck a deal with 
organized labor to exempt union health care plans from a new 
excise tax to pay for the government takeover of health care. 
We know this policy is designed to benefit labor unions, and we 
know a majority of American workers, those who are not members 
of organized labor, will be harmed by the disproportionate 
treatment.
    But again, we are left to ask how will special benefits for 
unions create and sustain jobs?
    This culture of union favoritism is not limited to 
legislation. Within the last year the Labor Department has 
undertaken a series of regulatory changes that include rolling 
back certain worker protections while setting the stage for 
broad new regulatory schemes.
    For example, shortly after President Obama took office, the 
Labor Department rescinded new guidelines designed to increase 
transparency in union finances. In other words, they made it 
more difficult for rank-and-file union workers to see how their 
dues are being spent.
    Not long after, the department withdrew a plan to give 
workers access to high-quality investment advice for their 
401(k) plans, making it more difficult for workers to navigate 
these tumultuous financial waters.
    How will leaving workers in the dark create and sustain 
jobs?
    The administration has bogged down federal projects with 
union favoring project labor agreements, driving up costs for 
taxpayers and shutting out small construction firms. At the 
same time, major initiatives in the so-called stimulus package, 
including the weatherization program, have been delayed because 
of flawed Davis-Bacon wage requirements.
    How will limiting opportunities for small employers while 
driving up costs for taxpayers create and sustain jobs?
    The Labor Department is revisiting the regulatory path that 
led to scientifically dubious ergonomics regulations in the 
previous decade. At the same time, the administration continues 
to call for massive investment in, ``green jobs'' while 
limiting participation in these programs to union affiliates 
and shutting out the vast majority of the construction 
industry.
    How will cumbersome and confusing new federal mandates and 
exclusionary policies create and sustain jobs?
    Mr. Chairman, the issues I outlined here are just the tip 
of the iceberg when it comes to the job-killing policies 
embraced by this administration and, frankly, the majority 
party in Congress.
    One week ago today President Obama told the American 
people, ``Jobs must be our number one focus in 2010.'' He is 
right. And that is why Republicans will not allow a single 
workplace policy to escape our scrutiny. We will put these 
policies to the test, because any proposal that does not 
contribute to an environment for creating and sustaining jobs 
ought to be abandoned.
    Thank you, Mr. Chairman.
    And thank you once again, Madam Secretary, for being here 
at this critical time. Although my colleagues and I had hoped 
to hear from you much sooner, we are nevertheless glad to have 
you here today.
    I yield back.
    [The statement of Mr. Kline follows:]

   Prepared Statement of Hon. John Kline, Senior Republican Member, 
                    Committee on Education and Labor

    Thank you Chairman Miller, and good morning. I want to welcome 
Secretary Solis to the committee for her first appearance since being 
sworn in as the U.S. Secretary of Labor a little less than a year ago. 
With our nation facing ongoing job losses and widespread workplace 
uncertainty, your presence is certainly timely, Madam Secretary.
    Last week, President Obama was quite clear in declaring his 
Administration's commitment to American workers and policies that will 
address their economic concerns. I applaud him for this focus on jobs 
and economic security; as policymakers, these are the priorities to 
which we should all be dedicated. Yet while I appreciate the 
President's recognition--belated though it may be--of the economic 
perils facing our nation, I cannot help but question many of his 
proposed policies that seem to run contrary to the goal of job creation 
and economic certainty.
    This morning I look forward to an honest assessment of the Obama 
Administration's labor agenda. The American people want to know: Who 
are these policies designed to benefit? Who are these policies designed 
to harm? And above all else, how will these policies create and sustain 
jobs?
    For example, Secretary Solis recently reaffirmed her support for 
the misnamed Employee Free Choice Act. We know this policy is designed 
to benefit labor unions, and we know it will harm small family 
businesses and employers struggling to stay afloat in a weak economy. 
But the question remains: how will ``card check'' create and sustain 
jobs?
    Likewise, the Administration recently struck a deal with organized 
labor to exempt union health care plans from a new excise tax to pay 
for the government takeover of health care. We know this policy is 
designed to benefit labor unions, and we know a majority of American 
workers--those who are not members of organized labor--will be harmed 
by the disproportionate treatment. But again, we're left to ask: how 
will special benefits for unions create and sustain jobs?
    This culture of union favoritism is not limited to legislation. 
Within the last year, the Labor Department has undertaken a series of 
regulatory changes that include rolling back certain worker protections 
while setting the stage for broad new regulatory schemes.
    For example, shortly after President Obama took office the Labor 
Department rescinded new guidelines designed to increase transparency 
in union finances--in other words, they made it more difficult for 
rank-and-file workers to see how their dues are being spent. Not long 
after, the Department withdrew a plan to give workers access to high-
quality investment advice for their 401(k) plans, making it more 
difficult for workers to navigate these tumultuous financial waters.
    How will leaving workers in the dark create and sustain jobs?
    The Administration has bogged down federal projects with union-
favoring Project Labor Agreements, driving up costs for taxpayers and 
shutting out small construction firms. At the same time, major 
initiatives in the so-called stimulus package--including the 
weatherization program--have been delayed because of flawed Davis-Bacon 
wage requirements.
    How will limiting opportunities for small employers while driving 
up costs for taxpayers create and sustain jobs?
    The Labor Department is revisiting the regulatory path that led to 
scientifically dubious ergonomics regulations in the previous decade. 
At the same time, the Administration continues to call for massive 
investments in ``green jobs'' while limiting participation in these 
programs to union affiliates and shutting out the vast majority of the 
construction industry.
    How will cumbersome and confusing new federal mandates and 
exclusionary policies create and sustain jobs?
    Mr. Chairman, the issues I outlined are just the tip of the iceberg 
when it comes to the job-killing policies embraced by the Obama 
Administration and the majority party in Congress.
    One week ago today, President Obama told the American people ``jobs 
must be our number one focus in 2010.'' He's right, and that's why 
Republicans will not allow a single workplace policy to escape our 
scrutiny. We will put these policies to the test, because any proposal 
that does not contribute to an environment for creating and sustaining 
jobs ought to be abandoned.
    Thank you Chairman Miller, and thank you once again Madam Secretary 
for being here at this critical time. Although my colleagues and I had 
hoped to hear from you much sooner, we are hopeful today's hearing will 
be the first of many. Thank you, and I yield back.
                                 ______
                                 
    Chairman Miller. The gentleman yields back his time.
    Madam Secretary, welcome to the committee. It is an honor 
for us to have you before the committee. In my opening 
statement I cited all of the various ventures that you are 
engaged in and working with the Recovery Act, with the 
administration, with our economy to improve that economy and to 
improve the opportunities for workers either to stay on the job 
they now have by improving the economy or training and 
retraining them for a different job or an improvement in their 
situation and also to expanding the opportunities for jobs for 
the future.
    It is something that you were interested in when you were 
here in the Congress and that, of course, is green jobs, where 
we now see thousands of skilled workers learning new skills for 
the opportunities that are available around renewable and 
alternative energy sources. So thank you for all that work.
    I would say to the members who are not familiar with 
Secretary Solis that she was first elected to public office in 
1985 as a member of the Rio Honda Community College board of 
trustees, and served both the California State Assembly and the 
Senate, and made history as the first Latina elected to the 
California State Senate.
    Secretary Solis worked in the Carter White House Office of 
Hispanic Affairs and was later appointed to the Civil Rights 
Division in the Office of Management and Budget. And she was a 
member of this committee, our colleague in the Congress.
    And you make us very proud. As you know the rules here--you 
have sat in on many of these hearings--Madam Secretary, proceed 
in the manner in which you are most comfortable. We will give 
you a little bit of extended time here, but at some point we 
will put on the orange light, and you can think about wrapping 
up your testimony. But we want you to be able to present your 
full testimony as you see fit. Thank you. Welcome.

           STATEMENT OF HON. HILDA SOLIS, SECRETARY,
                    U.S. DEPARTMENT OF LABOR

    Secretary Solis. Thank you so much, Mr. Chairman Miller and 
Ranking Member Kline. It is a real privilege and honor for me 
to be here before this committee. It wasn't that long ago that 
I sat here also with many of you that are still currently 
serving on this committee.
    At that time we were in the minority, but we continue to 
see the success and progress of what this particular committee 
has been able to accomplish. So I am very proud this day to be 
here representing the Obama administration as the Cabinet 
member representing the Labor Department.
    It is wonderful to see so many good friends that are here, 
and I know that we have had time to share with some of you that 
have come by or called our offices for assistance. We want to 
continue to let you know that our open door policy is made 
available to everyone. And I truly mean that.
    We are about trying to provide the best assistance that we 
can to restore faith and respect and dignity in the Department 
of Labor. And it is a pleasure to be able to talk to you about 
some of the things that we have been doing.
    And yes, Ranking Member Kline, I agree with you 
wholeheartedly, as our president has said in his State of the 
Union message and even long before I was on board as a Cabinet 
member, jobs, Recovery Act of funding to help restore jobs and 
try to provide a stimulus for our economy to spur growth for 
our economy is something that is very, very keenfully a part of 
our everyday agenda. That is something that I think about every 
single day.
    And while the president and the Congress answered that 
urgent call last year, beginning in February with the passage 
of the American Reinvestment Recovery Act, I do have to say 
that it has made a difference. And I can tell you that, because 
personally in my travels across this country, I have been able 
to see how that money has been implemented, where it has hit, 
and where we continue to see some positive outcomes.
    While we know that this recovery is one that has hit so 
many people, it is something that I think many of us have not 
seen in our lifetime. We know that we will not lose our focus 
on making sure that our first priority is getting people back 
to work.
    In my community where I was a recent member in the House 3 
years before the official recovery, we saw downsizing of jobs. 
We saw tremendous unemployment increases in community of color, 
and we could tell that there was something amiss in our 
communities. And I knew that that was something that had to be 
addressed at that time. However, it took a while for us to get 
here now.
    And I just want to tell you that when we look at what has 
happened over the course of this last year, when the president 
took office in January, we were losing well over 700,000 jobs, 
700,000 to 600,000 every month thereafter.
    But I can tell you now each and every month part of my 
responsibility is to report on those unemployment figures. 
While I am not happy and satisfied that we continue to see job 
loss, I will tell you that I, quite frankly, am pleased to see 
that we have been able at least to stabilize that job loss. So 
last month in December our report was a job loss of 85,000 
jobs.
    That is still not good enough. The president and I strongly 
believe that we have to continue to put forward every single 
effort that we can to make sure that we work diligently to 
provide a safety net for those people who continue to lose 
their jobs and those people that are running out of their 
current benefits, unemployment insurance benefits, COBRA 
benefits, that we continue to provide that extension.
    First and foremost, the Recovery Act was to provide a 
safety, security for those people who lost their jobs, so that 
immediately had to take place with the Recovery Act. And I want 
to thank all of the members that supported an affirmation of 
that plan that the president had to provide that funding.
    The bulk of that money went through the Department of 
Labor, and perhaps your communities may not have taken as much 
note, because people were applying for their unemployment 
insurance benefits. In fact, they even got an additional $25 in 
that plan as well. And you may ask yourself, $25 may not sound 
like a lot, but to people in areas where that means a 
difference between paying for electricity bill and rent and 
food on the table in these days, that says a whole lot.
    That money stays in the community, and it does have an 
impact after it is released back into the neighborhood. I would 
say that it was a very good decision on the part of the 
Congress to be able to move that agenda forward to make sure 
that we had those security systems in place.
    The president went a little bit further, though. He also 
provided assistance for those people who lost their jobs and 
lost their health benefits. So COBRA--an extension was put into 
place. So 65 percent of the cost of health care was also 
provided for those people that lost their health care. That in 
many ways has come to, I think, be very significant for people 
who have lost their jobs. And we know that that is something 
that continues to be a strong priority for this administration.
    Talking about green jobs, yes, that is something that I 
worked on as a House member here and something that the 
president and many members of the House and the Senate strongly 
believe in, that job creation and growth really means a 
reinvestment and retooling of our manufacturing and industrial 
base.
    And it really means looking at new opportunities, 
retraining those workers who lost their jobs in the automobile 
industry, electrical workers, plumbers, pipefitters that may 
now need to take a different approach in terms of what other 
job careers are available.
    And potentially, my understanding through the reports and 
facts that I have seen, these jobs will provide anywhere from 
10 to 20 percent more in terms of wages. And, of course, we 
want good paying jobs. We want secure jobs that are also going 
to provide safety and protection in the workplace.
    So along with our whole effort to try to create new job 
opportunities and to build up our workforce, I think that we 
are going a step further in our enforcement practices to make 
sure that the department actually focuses in on the safety and 
protection of workers.
    And, Chairman Miller, you said very pointedly that in 
previous years the Department of Labor would not take serious 
many of the calls that came into our department regarding wage 
and hour theft. That is a big priority for this administration.
    The president and I strongly believe that one way of 
combating that is by making sure that we have more troops on 
the ground, that we have investigators that are going to comply 
and know what those rules are and answer those questions and 
reply and do the best preparation we can to service the public. 
That is what our job should be.
    I want to also touch on something else that we are focusing 
in on. We talk about job creation. I don't want to just focus 
in on green jobs, because that is where, yes, a bulk of the 
funds have gone for job creation and in different pathways. One 
is targeting partnerships with apprenticeship programs, with 
community colleges, and with small businesses. And, of course, 
every opportunity that is made available to provide grants will 
always be to include small businesses.
    We can't create jobs without the input at the local ground 
level in terms of what the local businesses aspire for us to 
focus in on, so we basically look from the bottom up in terms 
of what those locales and regions are looking for. That is what 
I have asked my new administration, my leadership in the 
employment training program to do, to focus in on making sure 
that we are really addressing the needs of the local people 
that really have a better sense of how these programs should be 
funded.
    I also want to mention that in the coming weeks we will 
also be awarding $220 million of grants in health care careers 
and also in IT and broadband expansion. And what I would like 
to say there is we know from evidence in the last year that one 
job creator that we know is sure to continue is going to be in 
the health care arena.
    That number of jobs that has grown over the past year is 
well above 600,000. And it is going to continue to grow. And as 
the president moves forward in his efforts to reform health 
care, there is going to be more capacity to grow in these 
different job areas. So I see the demand continuing to grow.
    As we move into IT, that is another big issue where I think 
that all of us can share in, that we need to make sure that we 
have a very competitive workforce, that we are training for the 
right skills, and that we make the most opportunities available 
for everyone.
    What I am really happy to report is that for so many 
people, dislocated workers, for also unemployed youth, for high 
school dropouts, for individuals of different communities and 
areas suffering from high unemployment, and autoworkers have 
been the target of much of the grants that we have been 
awarding in the past 3 and 4 weeks.
    And I have to tell you that the kinds of coalitions that I 
see occurring, and one example I want to share with you is in 
Florida. Broward County Minority Builders Coalition partnered 
with the International Brotherhood of Electrical Workers, Local 
729, to extend green job training opportunities.
    And I can go on and on and on about what I have seen in 
terms of people on the ground actually getting enrolled in 
these programs, changing careers, even, because they felt the 
career that they had was at a dead end. And now they see a 
potential of getting into a whole new, perhaps a green job or 
even one in the health care arena that provides them with a 
career path, not just a job that is short-term, but a potential 
to actually move up the ladder.
    So we are really looking here at investments that are not 
just about getting out of the recovery, but making a systemic 
change in our entire infrastructure. And it is about creating 
good paying jobs, middle-class jobs that will put people back 
in that position that we have lost over the last decade.
    I also want to mention that we have also provided grants in 
Minnesota. Honeywell and two Chamber of Commerces joined with 
the United Steelworkers to train workers there.
    We also provided assistance for women, women in 
nontraditional roles in Long Beach, California. Through the 
Women's Bureau, we provided a grant for women in nontraditional 
roles, in green curriculum and also in pre-apprenticeship 
program. This is an area that we have to continually focus in 
on.
    While we believe that more women are participating in the 
workforce, their earning capacity has not kept at the same rate 
or equivalent to their male counterparts. And that is something 
that we have to address. We can do it by working together by 
providing women with those tools that are necessary.
    Also, I would like to say that we can't lose sight of the 
enormous contributions that our veterans have made, in 
particular those that are coming home from Iraq and 
Afghanistan, many young men and women, who perhaps their first 
job was signing up for the military and may not have the 
appropriate skill and training sets that might make them 
marketable right away.
    We are doing everything we can through our vets department 
to help provide assistance, to make sure that we can give them 
counseling, identifying any job opportunities and assistance 
for those that may need it, and their families. We are also 
talking about homeless veterans and women homeless veterans. 
That is one area that I know in the past has not been addressed 
adequately, and we are looking to see a more proactive agency 
now.
    And I am very delighted that all of my assistant 
secretaries in these different divisions that are now taking up 
the mantle to see that we really dig deep into our programs, 
cut out inefficiencies and fat, and make sure that we make 
these dollars extend in every way that we possibly can.
    And I want to just turn very quickly to something that the 
president said and he made clear in his State of the Union 
address. And again, he did underscore job creation--jobs, jobs, 
jobs. And when he talks about jobs, I talk about good jobs, 
secure jobs, jobs that put people back in the middle-class.
    He is talking about asking the Congress to pass a jobs bill 
that will include investments in small businesses, that include 
tax credits to hire new workers and raise their wages, 
investments in our infrastructure, in road, bridge, rail and 
port projects.
    I just happened to be last week in Ohio, where we issued a 
$400 million grant for high-speed rail that will create a 
tremendous number of jobs for the next couple of years. And you 
can see where other states are joining in efforts collectively 
to see how there can be a seamless system of transportation for 
different regions in our country. So I was delighted to be a 
part of that, even though that funding doesn't come directly 
out of my budget.
    But again, we are concerned about the workforce and who is 
adequately trained for those jobs, that they have the best 
qualified employees and that we have every opportunity to make 
sure that businesses are partners in that job creation.
    The last thing I would like to say to you is one of the 
most important things that we can do is focus in on our 
enforcement of our laws, our current laws that are on the books 
and, as was said by our chairman here, having someone who takes 
serious the enforcement of our laws in Wage and Hour and OSHA, 
providing for assistance for those individuals that are robbed 
because of their wages or not paid overtime or not given 
appropriate attention.
    Everyone deserves to have someone fighting for them. If 
they have put in a hard day's work, if they go into work, they 
should be able to come home safe at night. I am very troubled 
with many of the things that I have seen occur in the past few 
years with respect to miners, the fact that we do have some 
issue areas that we have to address. And that is the problem 
that I want to work with you.
    If any of you here have proposed legislation and have 
interest there because of the districts that you represent, it 
is something that I take very seriously. Job safety and 
protection for those workers and their families is equally 
important to me.
    I want to tell you that in OSHA so far we have been able to 
conduct 2,000 inspections in the workplace when we received our 
Recovery Act money. That allowed me to build up our staff to 
provide more investigators in the field, and I can tell you 
that we are turning things around the Department of Labor.
    Things are slow, as the president has said before to me and 
many members of his cabinet. It is like moving a giant--how 
could I say--Navy fleet. To get them to turn a corner takes a 
tremendous amount of energy and focus. And I can tell you that 
we are moving every single day. Our rudders are on, and we 
would like to see progress as badly as we know that the public 
wants to see more job creation and recovery of our economy. I 
feel very confident that we are going to be able to see this 
through.
    One last item. I know that many of you here are very 
focused on the WIA, the reauthorization of the WIA Act. That is 
something that from day one when I got to the Department of 
Labor, I made it a point to underscore with my staff that we 
would be engaged in every way we can.
    So far we have made ourselves available to the Senate 
committees that have jurisdiction. We are there to provide 
technical assistance. We want to do that with members that are 
here in the House that are also going to be engaging in the 
reauthorization.
    The president wants to let you know that what we are 
looking for in the reauthorization of the Workforce Investment 
Act will include streamlining of service delivery, one-stop 
shopping for high-quality services, engaging employers on a 
regional and sectoral basis, improving accountability, and 
promoting innovation. These are all the major goals that we 
will strive to include as we go through the reauthorization of 
WIA.
    With that, Mr. Chairman and Ranking Member, I am happy to 
answer any questions. Thank you.
    [The statement of Secretary Solis follows:]

         Prepared Statement of Hon. Hilda L. Solis, Secretary,
                        U.S. Department of Labor

    Chairman Miller, Ranking Member Kline, and Members of the 
Committee, thank you for inviting me to testify today. I would also 
like to thank my good friend George Miller and many other friends on 
this Committee for all of your support over the years. As a former 
member of this Committee, I know very well all the hard work you and 
your colleagues do to assist working families across America.
    I am pleased to be the 25th Secretary of Labor because I believe in 
the Department of Labor's mission--to foster and promote the welfare of 
job seekers, wage earners, and retirees through a variety of means. I 
came to lead the Department at a time when working families were 
struggling, and I came to make a difference. Workers were struggling to 
feed their families, pay bills, and plan for retirement as unemployment 
levels were reaching highs that we had not seen in decades.
    Working people across America desperately needed help, and I knew 
the Department would be instrumental in advocating for their needs. I 
am proud that the Department of Labor quickly acted to implement the 
American Recovery and Reinvestment Act of 2009 (Recovery Act). While 
working families continue to struggle in these tough economic times, 
the Department of Labor is working incredibly hard to help. We are 
assisting individuals who need unemployment insurance benefits, workers 
who lost their jobs but need continuing health coverage for themselves 
and for their families, young adults who need help getting a summer 
job, and people who want job training for a new career or other 
employment-related services. In a labor market where jobs are difficult 
to find and workers are glad to have the jobs they hold, it is too easy 
for workers to be exploited. We are strengthening our efforts to be 
vigilant in protecting the rights and safety of workers by hiring 
additional enforcement personnel and reviewing and improving our 
regulatory efforts.
    While we have accomplished a great deal, I know that we can and 
must do more. My vision for the Department is ``Good Jobs for 
Everyone,'' and that means that we as a country need to work together 
to create new and better jobs for the 21st Century economy.
The Economy in Early 2009 and the Need for Action by the Department of 
        Labor
    When I walked into the Department of Labor for the first time, I 
knew that I had to act quickly to assist workers and their families who 
were trying to make ends meet in light of devastating job losses.
    As of January 2009, an astounding 3.8 million jobs had been lost 
since the start of the recession. Job losses were large and widespread 
across nearly all major industry sectors. Just in the fourth quarter of 
2008 alone, almost 1.7 million jobs were lost. To put this number in 
perspective, this is about 100,000 more than the number of jobs lost 
between March and November 2001, the official time period of the 
previous recession.
    People in the manufacturing sector faced especially difficult 
times. By January 2009, 1.1 million manufacturing jobs had been lost 
since the beginning of the recession. These losses represented almost 
30 percent of total payroll jobs lost and made up the largest share of 
job losses among the major industry sectors. To make matters worse, the 
manufacturing sector was already struggling. Manufacturing employment 
was at a 63-year low. From January 2001 to January 2009, 4.5 million 
manufacturing jobs had been lost.\1\ Over the previous 20 years, 
manufacturing employment had steadily declined. This decline greatly 
accelerated between January 2001 to January 2009, to a rate of negative 
3.7 percent per year.
---------------------------------------------------------------------------
    \1\ OASP calculations of CES establishment survey data.
---------------------------------------------------------------------------
    These numbers are large, and they represent real people. Our 
brothers, sisters, friends, and neighbors are represented in these 
numbers. By the end of my first quarter as Secretary of Labor in 2009, 
the national unemployment rated climbed to 8.6 percent.\2\ Communities 
of color experienced even higher rates of unemployment. In early 2009, 
Latinos were unemployed at a rate of 10.8 percent and African Americans 
were unemployed at a rate of 13.3 percent. Young people also faced high 
rates of unemployment; 21.6 percent of teenagers were jobless.\3\ The 
number of unemployed persons continued to reach record levels month 
after month.
---------------------------------------------------------------------------
    \2\ Quarterly CPS household survey data for the national 
unemployment, available at http://www.bls.gov/web/cpseed8.pdf.
    \3\ Quarterly CPS household survey data, available at http://
www.bls.gov/cps/tables.htm#quarterly.
---------------------------------------------------------------------------
    The difficulties in the labor market are exacerbated by other 
problems. The depth and severity of the recession worsened states' 
fiscal problems, especially since increasing unemployment levels 
reduced states' income taxes and increased demand for services. States' 
budget woes then challenged their abilities to serve the public. While 
the numbers of individuals filing for unemployment insurance were 
rapidly increasing, state unemployment insurance trust fund balances 
were deteriorating. Trust fund balances fell from $38.2 billion in 2007 
to $20.6 billion in the first quarter of 2009--a 46 percent decline. In 
January 2009, initial UI claims (not seasonally adjusted) reached 
nearly 957,000, a level not seen in a generation. In March 2009, the 
number of people requesting regular UI benefits (continued claims, not 
seasonally adjusted) reached a series high of 6.5 million. The huge 
volume of demand in 2009, coupled with aging technology, resulted in 
three states experiencing crashes to their mainframe system for UI.
    People who expected to be in their peak earning years were 
struggling to find employment and maintain retirement savings. 
Individual households faced mounting financial threats due to the 
instability of their retirement accounts. Despite workers' needs for 
retirement security, according to the Federal Reserve Board, in March 
2009 assets in retirement accounts were $4.3 trillion, down 33% from a 
peak of $6.4 trillion at the end of 2007. According to data from the 
Federal Reserve, pension fund reserves held by households and non-
profit organizations fell 26 percent from $13.4 trillion at the end of 
2007 to $9.9 trillion in the first quarter of 2009.\4\
---------------------------------------------------------------------------
    \4\ http://www.federalreserve.gov/releases/z1/Current/z1r-4.pdf, p. 
64.
---------------------------------------------------------------------------
    In light of these overwhelming challenges, I am proud that the 
Department quickly came to the aid of workers, and I describe some of 
our actions below.
DOL's Achievements in 2009 and Under the Recovery Act
    After working closely with Congress, President Obama signed the 
Recovery Act into law to rescue and rebuild the American economy. I 
know that the Recovery Act has put people back to work and has saved 
jobs. I have visited numerous Recovery Act-funded projects in 
communities across the country. As of December 31, 2009, the Department 
has spent $59.7 billion for Recovery Act programs. Over $55 billion has 
been provided to states to support and expand Unemployment Insurance, 
and more than $3 billion has been issued in grants to states to provide 
training and employment services to adults, dislocated workers and 
youth. We acted quickly to protect workers who lost their jobs and 
provide new training opportunities for them and for people looking to 
upgrade their skills or change careers.
    We worked with states to make changes to eligibility requirements 
for UI benefits, giving more jobless workers access to benefits, and 
extended the period of eligibility for workers who lost their jobs. We 
also quickly increased the amount of unemployment benefits that people 
received by $25 a week. An extra $100 a month can go a long way towards 
paying for groceries or helping with rent, and I am proud that DOL's 
Employment and Training Administration (ETA) was able to quickly assist 
the American public.
    As I mentioned earlier, States' budgets were, and still are 
hurting, and this has impacted their ability to get UI benefits into 
the hands of workers. The Department rapidly made $7 billion available 
for states that chose to modernize their UI system. So far, the 
Department has distributed $2.8 billion to 32 states for modernization 
incentive payments, which together with the extended and emergency 
benefits programs, has resulted in increasing the share of unemployed 
workers receiving benefits to its highest level in over 30 years.
    ETA also quickly distributed funds to states to serve more than 2.3 
million workers through state employment-related services. An estimated 
170,000 workers who were adversely affected by foreign trade have 
received Trade Adjustment Assistance benefits and assistance. We have 
also released over $60 million in Recovery Act-funded National 
Emergency Grants (NEGs) to help an estimated 29,500 dislocated workers. 
In Calendar Year 2009, we released more than $82 million in NEGs funded 
by our appropriations, and this funding is expected to help more than 
17,000 dislocated workers. Our efforts have helped Americans get back 
to work. For example, a North Carolina worker, who was laid off in 
March 2009 after working three years as a rigger/welder earning $15.00 
per hour, began training in May in the construction pre-pipe and pipe 
welding field with funds provided by the Workforce Investment Act (WIA) 
Dislocated Worker program. He was quickly hired before his training was 
completed by a construction company as a pipe welder. Today, he is 
working at a site in Savannah, Georgia earning $17.00 per hour plus a 
daily stipend of $55.00. We know that there are and will continue to be 
many more success stories like this one across the country.
    The Employee Benefits Security Administration (EBSA) also quickly 
assisted workers who lost their jobs but needed continued health 
coverage. Under the Recovery Act, individuals may apply for premium 
reductions for continuation of health benefits provided under the 
Consolidated Omnibus Budget Reconciliation Act (COBRA). Eligible 
individuals pay only 35% of the cost of their COBRA premium, enabling 
many American workers and their families to maintain health coverage 
they otherwise could not afford. In the weeks after the Recovery Act 
became law, EBSA published model notices and created an appeals process 
for individuals whose subsidy applications were denied. The Department 
worked to provide fact sheets, FAQs, posters, and additional 
information to help educate workers about their rights, conducted 
numerous outreach activities, and launched a dedicated website that has 
hosted over 2.3 million visitors. I am proud to say that EBSA has 
responded to over 170,000 COBRA inquiries and handled more than 14,000 
appeals since the inception of the subsidy. In fact, more than 99 
percent of the appeals received were decided within the 15 day 
statutory deadline provided by Congress. When the COBRA premium subsidy 
was extended as part of the 2010 Department of Defense Appropriations 
Act, EBSA again acted quickly to update existing guidance and issue new 
materials to make sure this critical program continues without 
disruption in FY 2010. For many of these individuals, access to 
affordable health coverage is a matter of life or death.
    The Recovery Act also bolstered one of the Department's Fiscal Year 
(FY) 2010 budget priorities--to begin to restore the capacity of our 
programs that protect workers' safety and health, pay, and benefits. 
The Department worked to enforce worker protection laws under Recovery 
Act-funded projects. For instance, the Occupational Safety and Health 
Administration (OSHA) conducted over 1,900 inspections of workplaces 
receiving Recovery Act funding to assure that workers involved in these 
projects were adequately protected from safety and health hazards. The 
Wage and Hour Division (WHD) issued prevailing wage determinations and 
guidance for Recovery Act-funded weatherization projects and is 
actively engaged in ensuring that workers on those projects receive the 
wages to which they are legally entitled. The Office of Federal 
Contract Compliance Programs (OFCCP) completed 59 compliance 
evaluations. One case of compensation discrimination against an 
African-American male resulted in $24,894 in back pay being awarded.
    In order to restore our economy, we must create jobs and make sure 
that workers benefit from the protections to which they are entitled. 
We have made significant progress in restoring worker protection 
programs to their FY 2001 staffing levels. Approximately 710 
enforcement personnel have been hired in the Wage and Hour Division, 
the Occupational Safety and Health Administration, the Office of 
Federal Contract Compliance Programs, the Mine Safety and Health 
Administration (MSHA), and the Employee Benefits Security 
Administration. We have seen significant results from our hiring 
efforts. Our work helped return money to workers who rightfully earned 
it. OFCCP entered into more than 96 Conciliation Agreements on behalf 
of more than 21,000 affected workers in calendar year 2009. Their work 
resulted in back pay awards of more than $9 million and more than 2,000 
potential job offers to provide relief for affected American workers 
who were discriminated against under laws enforced by OFCCP. WHD has 
recovered more than $172.6 million in back wages for approximately 
220,000 workers. In FY 2009, EBSA's work on retirement and welfare 
benefit plan security achieved $1.3 billion in total monetary results. 
Our worker protection efforts touch the lives of nearly every worker, 
and we will continue to ensure that workers are protected by the law.
    DOL is also looking for innovative ways to promote economic 
recovery. For example, employment training services are divided by 
geographic boundaries even though regional economies cross city and 
state lines. That is why we created a new type of NEG, called Regional 
Economic Impact NEGs. These new NEGs allow for a regional approach to 
workforce services in response to layoffs and economic events across a 
region. We have seen several states impacted by automotive layoffs, 
such as Michigan, apply for and receive funding through this mechanism. 
In late September 2009, the Department provided a NEG of $18.6 million 
to assist over 1,000 workers affected by layoffs in Southeast Michigan, 
which includes several counties and the Detroit Metropolitan Area. This 
grant will also allow the state to serve workers within this regional 
economy affected by layoffs occurring over the next year. By Michigan's 
estimates, this could total approximately 7,200 workers.
How the Department of Labor is Making a Difference for Workers
    In the December 2009 Employment Situation report, the Department's 
BLS reported that the economy lost 85,000 jobs and that the 
unemployment rate remained unchanged at 10.0 percent. We received 
encouraging news of very modest gains in payroll employment in November 
2009, which was the first month showing an increase in jobs since 
December 2007. While any job lost is one job too many, our economy was 
losing close to 700,000 jobs a month one year ago.
    Although the rate of job loss has slowed dramatically in recent 
months, hiring has not increased broadly. As a result, the ranks of the 
long-term unemployed have grown. About 40 percent of the jobless have 
been looking for work for over six months. Studies have pointed to the 
challenges that arise for people who have been out of the labor market 
for substantial periods of time. That's why we need reemployment and 
training programs that will get them back to work.
    The Administration has worked aggressively to minimize job losses, 
stimulate the economy and address the special needs of persons who have 
been out of work for extended periods of time. I will continue to do my 
best to see that America's workers have the tools they need to succeed.
    The Department is looking to train the workers of the future. 
During my travels throughout the country, I have met people who have 
gone back to school and changed careers to prepare themselves for 21st 
Century jobs. Jobs continue to grow in the clean energy and health care 
sectors. Green jobs play an important role in our economic recovery, 
and like so many other jobs in the construction trades, they tend to 
pay above average wages. I believe that they are also the jobs of the 
future. The Recovery Act provided the Department with $750 million for 
worker training and placement grants to prepare workers for careers in 
high growth and emerging industries, including $500 million for 
research, labor exchange, and job training projects in the energy 
efficiency and renewable energy industries. Four of the grant 
competitions are designed to serve workers in need of training through 
various national, state and community outlets: Energy Training 
Partnership Grants; Pathways Out of Poverty Grants; State Energy Sector 
Partnership and Training Grants; and Green Capacity Building Grants. 
The fifth competition, for State Labor Market Improvement Grants, will 
providing funding for state workforce agencies to collect, analyze and 
disseminate labor market information and develop labor exchange 
infrastructure to direct individuals to careers in green industries.
    Much of this funding has already been awarded. I am proud to report 
that the Department made it a priority to award grants to applicants 
who serve low-income workers, unemployed youth and adults, high school 
dropouts, communities of color, areas of high poverty, and other 
underserved sectors and vulnerable members of the workforce. We also 
set aside funding to serve workers who were hardest hit by 
restructuring of the automotive industry.
    We received a record number of grant applications for these green 
jobs training grants. For example, the Pathways out of Poverty 
competition brought in over 450 applications for $150 million in 
grants, and we could fund only 38 grants. For the Energy Training 
Partnership competition, we received over 180 applications, but were 
only able to fund 25 grants. We believe that this level of interest 
represents the need for resources that focus on training, particularly 
in green jobs, which complements job creation efforts. We also believe 
this interest represents the need for assisting people who are already 
working, but who may be underemployed, to gain skills that will help 
them move into better, higher-paying jobs in emerging sectors.
    The spectrum of activities supported by these grants is exciting. 
In Ohio, the non-profit organization Improved Solutions for Urban 
Systems, Inc., working with its partners, is developing a competency-
based curriculum for green job training in energy efficiency and 
renewable energy careers. The project will train YouthBuild 
participants and Construction and Manufacturing Institute students in 
one or more green industry areas leading to industry-recognized 
certifications and credentials. The project will also assist students 
in attaining high school diplomas and place high school graduates in 
employment and continuing education.
    Another grant will have useful applications in both residential and 
commercial buildings right here in Washington, D.C. ARCH Training, Inc. 
(ARCH) will develop and adapt curricula focusing on the energy 
conservation and solar industries to prepare trainees for national and 
industry-recognized certification exams. A `Green Jobs' job preparation 
guide will be prepared for graduates entering the workforce, and an 
employer guide will be developed to help businesses determine the skill 
sets of applicants. It is projected that the number of individuals 
trained will increase by 35 percent as a result of this grant. In 
addition, the Women's Bureau is doing its part by holding Green Jobs 
Roundtables throughout the country and by preparing a Green Jobs Guide.
    As you know, with the aging of our population and other factors, 
the demand for health care workers continues to grow rapidly. The 
health care sector has continued to grow throughout the recession 
despite steep job losses in nearly all other major industries. For 
example, hospitals and other ambulatory care settings, such as long-
term care facilities, added approximately 25,000 new jobs in February 
2009 even though 681,000 jobs across the nation were eliminated that 
month. BLS projects that health care and social assistance employers 
will generate four million new jobs between 2008 and 2018. To help meet 
this demand, the Department competed $220 million in Recovery Act 
grants to assist workers pursue careers in health care and other high 
growth and emerging industry sectors. High growth and emerging 
industries often differ in specific regions. Fields like information 
technology, advanced manufacturing, wireless and broadband deployment, 
transportation and warehousing, and biotechnology may be high growth 
and emerging industries in specific regional economies. In our grant 
solicitation, we asked applicants to define local high growth or 
emerging industries based on specific criteria, such as expected job 
growth. We expect to award these grants soon.
    In preparing workers for jobs of the future, the Department 
realizes that multiple stakeholders will need to work together to 
achieve the desired outcomes. In creating the criteria for many of the 
grants discussed above, we required applicants to include partners made 
up of a diverse set of stakeholders, including labor organizations, 
public or private employers, and the local workforce system. We also 
gave special consideration for partnerships that included community-
based organizations. In bringing together the expertise of these 
diverse stakeholders, I hope that grantees will develop effective 
programs that are responsive to the needs of both workers and 
employers. For example, in Minnesota, Honeywell and two chambers of 
commerce have joined the United Steelworkers (USW) to train workers. 
Also in Florida, the Broward County Minority Builders Coalition 
partnered with the International Brotherhood of Electrical Workers 
(IBEW) Local 729 to extend green jobs training opportunities.
    The workers of the future are a diverse group. This is why we 
encouraged applicants who serve communities of color, women, veterans, 
and people with disabilities. Many Recovery Act grantees will train 
workers from these communities. In our efforts to train workers, we 
have created new partnerships with other departments, such as the U.S. 
Department of Housing and Urban Development, so that we connect 
residents in public housing with green jobs. In a joint letter, 
Secretary Donovan and I encouraged local Workforce Investment Boards 
and Public Housing Agencies to work together to bolster pathways to 
training and employment for residents of HUD housing.
    We know returning veterans can contribute greatly to our economy. 
The Veterans' Employment and Training Service (VETS) is actively 
working to provide services to homeless veterans, with an increased 
emphasis on assisting homeless women veterans, whose numbers have 
increased. VETS also is vigilant in assuring veterans' rights to 
reemployment after returning from a deployment to fight for our country 
are protected. VETS will continue to provide veterans and transitioning 
service members with the resources and services to succeed.
    We are also making real investments in the lives of our future 
generations and seniors. Using Recovery Act dollars, we have been able 
to expand programs that serve disadvantaged youth. For example, the 
Department funded an additional 75 YouthBuild projects in 2009, which 
is a 69 percent increase compared to the previous year. YouthBuild 
projects can make a real difference in young people's lives by 
providing job training and educational opportunities for low-income or 
at-risk, out-of-school youth ages 16 to 24. We also invested over $200 
million in more than 600 construction projects to improve Job Corps 
facilities. Job Corps is the nation's oldest and largest federally-
funded job training and education program for economically 
disadvantaged youth ages 16 through 24. Students receive hands-on 
training in more than 100 occupational areas. These areas include some 
of the fastest growing job sectors such as health care, information 
technology and renewable energy. During my visits to Job Corps centers, 
I have seen firsthand how young people are given the opportunity to 
develop the education and skills they need to succeed in the new 
economy.
    The Recovery Act also provided funding to local areas to support 
programs that employed 317,584 youth this past summer. With 
extraordinary efforts, these local areas worked hard to provide quality 
work experiences. Recovery Act funding supported real work 
opportunities for our nation's youth in a variety of industries 
including green and other high growth and emerging industries. I know 
that our young people have been hit hard by this economy, and this 
program created real employment opportunities for them. These jobs also 
provide a critical early labor market experience for youth, an 
experience which will increase their long-run labor market success.
    Our nation's seniors also benefited from an additional $118 million 
in Recovery Act dollars for the Senior Community Service Employment 
Program (SCSEP). SCSEP provides community service opportunities for 
unemployed, low-income seniors with poor employment prospects--
especially in this challenging economy. Recovery Act funding has 
expanded the number of SCSEP participants. The FY 2010 appropriation 
provided more than $825 million for this program, including a one-time 
appropriation of $225 million to be spent immediately. DOL expects to 
enroll more than 100,000 seniors in part-time, minimum wage community 
service positions.
    In addition to investments in these important programs, the 
Department will continue to protect workers in the new economy. We want 
to contribute to a sustainable economy where workers' earnings rise 
with productivity and allow employment, consumption and savings to 
rise. The Department will continue to fight to recoup those wages to 
which workers are legally entitled and improve worker safety.
    I take the failure to pay workers the wages that they have earned 
very seriously, and I am committed to enforcing all employment laws--
particularly those related to payment of the minimum wage and overtime. 
Workers deserve this money and it will bring money to low-income 
households where most of it will be spent and help invigorate local 
communities. As I noted earlier, we have already increased staffing of 
enforcement officials. The improved staffing levels have helped secure 
millions of dollars in back wages for thousands of workers. As these 
new investigators grow into their jobs, they will be an even stronger 
force for securing compliance with these basic labor standards 
protections.
    In the jobs of the future, I will work to ensure that workers' 
rights will be protected. In order to rebuild the middle class, we need 
to level the playing field and restore fair play for all working 
people. The growing inequality in wages and benefits is partially due 
to the increasing obstacles workers face in forming unions and engaging 
in collective bargaining. We need to restore their freedom to do so. 
This is why the President and I support the Employee Free Choice Act. I 
know from personal experience that union jobs are good jobs, pay higher 
wages than non-union jobs, and provide flexibility and benefits like 
paid leave, child care, education assistance, and retirement security. 
This legislation can help give workers a voice in the workplace.
    In the jobs of the future as well as in jobs of the present, 
workers should be safe at their workplaces. I am proud that OSHA is 
restoring its capacity to strongly enforce statutory protections, 
provide technical support to small businesses, promulgate safety and 
health standards, strengthen the accuracy of safety and health 
statistics, and ensure that workers know about the hazards they face 
and their rights under the law. OSHA diligently inspects workplaces 
where millions of people are employed and is constantly working to 
ensure that employers are providing safe working conditions for their 
employees. In 2009, the Department issued the largest proposed penalty 
against an employer in the history of OSHA. OSHA also issued nine 
``egregious'' workplace health and safety citations involving flagrant 
violations for employers who knowingly exposed workers to deadly 
hazards. OSHA is also focusing its efforts on ensuring that hard-to-
reach workers know about their rights and the hazards they face. For 
example, in April 2010, OSHA will hold a safety and health summit to 
ensure that Latino workers in Texas have the tools they need to ensure 
their safety. Latino workers often work in high hazard industries and 
are more likely to get injured or killed on the job. We are also making 
sure that green jobs are safe jobs. OSHA is focusing on preventing 
injuries and illnesses among workers who do renovation, weatherization, 
and work on potentially hazardous machinery.
    To improve worker safety, MSHA has announced a comprehensive 
strategy to end new cases of black lung among the nation's coal miners. 
The goal of MSHA's initiative is to curb debilitating and potentially 
fatal diseases caused by coal mine dust. MSHA is celebrating 40 years 
of legislation aimed at improving working conditions for America's 
workers, and last year, MSHA celebrated the safest year in mining in 
U.S. history. For its part, WHD is increasing its focus on those 
workers who are most vulnerable: young workers, farm workers, and those 
who toil in labor intensive industries at the lowest levels of 
compensation. In 2010, WHD will launch a multi-lingual public awareness 
campaign titled ``We Can Help'' to reach these vulnerable workers who 
are so often reluctant to report violations and fearful of exercising 
their rights to a minimum wage and overtime pay. All workers have a 
right to a safe and fair workplace, and we will work hard to achieve 
this goal.

The Department of Labor's Goals for 2010
    In the beginning of my testimony, I said that my vision for the 
Department of Labor is ``Good Jobs for Everyone.'' Everyone throughout 
the Department knows of my vision and knows that the work they do 
everyday helps make this vision a reality. And here are some of the 
ways that I define a good job.
    A good job can support a family by increasing incomes, narrowing 
the wage gap (for example, wage gaps between men and women and gaps 
experienced by communities of color), and allowing workplace 
flexibility.
    A good job is safe and secure and gives people a voice in the 
workplace.
    A good job is sustainable and innovative, for example a green job.
    A good job will help rebuild a strong middle class.
    A good job provides access to a secure retirement and to adequate 
and affordable health coverage.
    I want to emphasize that my goal is for any individual, regardless 
of race/ethnicity, religion, sex, national origin, sexual orientation, 
gender identity, disability status, age, or veteran status, to have 
access to a good job. Many of the Recovery Act grants we released 
target underserved groups such as people of color, ex-offenders, women, 
and veterans. In creating jobs of the future, I will work to ensure 
that all people from all communities are included.
    The Department has laid out 5 high-priority goals in working with 
the Office of Management and Budget to help us focus our resources and 
ensure Good Jobs for Everyone. These goals are:
    (1) Significantly reduce fatalities resulting from the most common 
causes by OSHA-covered workplaces and mining sites.
    (2) Reduce the number of repeat violators of minimum wage, 
overtime, and workplace safety laws.
    (3) Improve worker rights and livelihoods for vulnerable 
populations in developing country trading partners.
    (4) Create a program to help workers injured on the job return to 
work so that they can continue to be productive members of America's 
workforce.
    (5) Increase opportunities for America's workers to acquire the 
skills and knowledge to succeed in a knowledge-based economy.
    All of these high priority goals are outlined in greater detail in 
the Department of Labor's FY2011 budget which was released on Monday, 
February 1. The challenges facing America's workers are many. The 
Department has outlined these high-priority goals to focus our agencies 
on the most critical needs affecting the safety, health, and economic 
security of workers. They are of course guided by our broader ``Good 
Jobs for Everyone'' vision. In addition these high-priority goals, we 
have other key initiatives that I know are important to the Committee.
    The reauthorization of the Workforce Investment Act (WIA) presents 
a unique opportunity to promote innovation in the public workforce 
system, build on its strengths, and address challenges. We can help 
workers who are unemployed or in low-wage jobs find a path to middle 
class jobs, providing them with the skills and knowledge they need to 
succeed in the knowledge economy. We can also help businesses seeking 
to hire skilled workers and better position them to take advantage of a 
recovering economy. And we will work closely with our colleagues in the 
Department of Education to make sure the WIA programs work more 
seamlessly together to help participants.
    Our goals for the reauthorization of the Workforce Investment Act 
(WIA) include:
    (1) Streamlining service delivery--providing easy access and clear 
information to individuals and employers in need of service;
    (2) One-stop shopping for high quality services--one-stop centers 
should provide access to comprehensive employment and training services 
across different programs and better utilize technology to improve 
customer service;
    (3) Engaging employers on a regional and sectoral basis--Training 
programs are often most effective when they are developed on a regional 
basis reflecting the labor market or on a sectoral basis focusing on a 
particular industry of the economy;
    (4) Improving accountability--Performance measures must be designed 
to hold programs accountable for better results, without creating 
incentives to deny services to those most in need of assistance, and 
results should be made available in a transparent way to all; and
    (5) Promoting innovation--WIA should promote the funding of new and 
creative practices and support the replication of those practices that 
are successful throughout the workforce system.
    We look forward to continuing to work with Congress to reauthorize 
WIA to improve the workforce system for all.
    I have also charged the Department with making our work more 
transparent to the public. Through our innovative Open Government 
initiatives, we have made information available to everyone. For 
example, our FY 2010 proposed budget was made public using innovative 
web media tools, which allowed for live ``web chats'' and a question 
and answer session with me. We released the Semi-Annual Regulatory 
Agenda using a similar format. My Assistant Secretaries and I were able 
to engage in live ``web chats'' with the public regarding DOL's planned 
regulatory agenda. Approximately 6,000 members of the public 
participated in or watched the web chats. In addition, agencies are 
making their work and the data we collect more transparent. For the 
first time ever, OSHA is systematically publishing employer-specific 
information about occupational fatalities on its Web site and making 
these data available for easy download. It is my goal that the public 
will be able to access and understand the work we are doing to assist 
America's workers.
    In the coming year, I am also making a concentrated effort to reach 
out to diverse audiences. I have met and will continue to meet with 
leaders of labor unions. At the same time, I am also reaching out to 
employers, because I know they are the ones who will hire our future 
workers. Last year, I was the first person from the Administration to 
speak at the National Association of Manufacturers' Manufacturing 
Summit, and I also met with the Black Enterprise 100, a group of the 
largest companies in the United States owned by African Americans. I, 
along with Veterans Affairs Secretary Shinseki, addressed the National 
Chamber Foundation to discuss the employment of veterans. I will 
continue to reach out to Chambers of Commerce, community-based 
organizations, and other stakeholders. I am pleased to see that we have 
already begun to work together. I have seen partnerships among diverse 
stakeholders in some of the grants we recently released. For example, 
in Pennsylvania, UAW Local 544 is partnering with Carnegie Mellon 
University, Veterans Leadership Program of Western Pennsylvania, 
Thermal Transfer Corporation, and U.S. Steel Corporation to train 
workers. The Department will continue to support and encourage public-
private partnerships, as we all have a role to play in the future of 
our workers.

Job Creation in 2010
    The President and the Administration have renewed our focus on 
creating jobs. Late last year, I took part in a jobs forum at the White 
House that brought together small business owners, CEOs, unions, 
economists, non-profits, and state and local officials to talk about 
job creation. We are working closely with our partners in the private 
sector so that we can better generate jobs, growth, and innovation. In 
moving forward, we know that we need to help small businesses, invest 
in our country's infrastructure, and promote growth in our clean energy 
economy.
    In his State of the Union address last week, President Obama 
outlined the steps that we will be taking together to create more jobs. 
Specifically, we are calling on Congress to pass a jobs bill with:
    Investments in small businesses including a tax credit to hire new 
workers or raise wages;
    Investments in road, bridge, rail and port projects; and
    Investments in clean energy, which develop a clean energy economy 
and a skilled workforce.
    Too many Americans are ready, willing and able to work, but cannot 
find a job. These critical programs will spur private sector job 
creation. We know that small businesses are often the driver of 
economic expansion that communities across the country desperately need 
and the President's new Small Business Jobs and Wages Tax Credit will 
reward job creation and the good jobs that pay more. I especially look 
forward to working with the President and you on new green jobs and 
high growth industry job training to be sure American workers are ready 
for these new jobs.

Conclusion
    While I came to lead the Department of Labor at a tumultuous and 
challenging time, I know that we have already made a real difference in 
the lives of America's workers and their families. We successfully 
implemented the Recovery Act and have seen how these investments have 
saved and created jobs in communities across the country. I look 
forward to working with you and your colleagues to ensure that there 
are ``Good Jobs for Everyone'' and to create new and better jobs for 
the 21st Century economy. I thank you for your time and am happy to 
respond to any questions you might have.
                                 ______
                                 
    Chairman Miller. Thank you very much. That is a lot. Thank 
you. Thank you so much for your testimony. And I think we all 
recognize that with the election and with the inauguration of 
this president and your becoming Secretary of Labor, there is a 
difference in philosophy in this department, and I think it is 
important.
    I personally believe that the department over the last 
several years prior to your coming to the department was way 
off course and was failing in its duty to protect workers.
    Yes, there is a difference on this committee and in the 
Congress and probably in the country about the Employee Free 
Choice Act, but the fact is that 60 percent of the workers that 
asked if they could have a union now would take it now. But 
they know that if they ask for a union, they risk being fired, 
intimidated, followed, losing their overtime, their shift work 
and all of the rest of that. We will continue that discussion 
and that debate.
    The idea that when the unions went to discuss the impact of 
the excise tax on their members that they were only talking for 
their members, no. The fact is that this tax that weighs very 
heavily on middle-class individuals in this country--I disagree 
with it. I think the Senate went in the wrong direction.
    But the fact is they got vision care and dental care 
exempted from that for all families, as the unions always do. 
It is never bargaining about themselves. They bargain for all 
families, just like when they support the minimum wage. Most of 
their members don't work at the minimum wage. They do it for 
the rest of the economy.
    They also got the thresholds raised so fewer middle-class 
families would be impacted in that. And they asked for 
something that almost every corporation asks for any time we 
deal with the tax laws of this country. They ask for a 
transition rule. Could they just take their agreements to 2017 
and have a transition, and then have it apply to them so that 
they can honor their collective bargaining agreements?
    The idea that you would now tell those people who have a 
conflict of interest and a vested interest in investment advice 
that the idea the only good advice we can give to people is 
people who have a financial interest in the outcome of that 
advice, and what have we found in the investigations in this 
committee? What have we found in investigations on Wall Street?
    It is that very often those people with the interest in the 
advice they are giving are steering investors toward plans that 
aren't as they are labeled in case of lifecycle funds or plans 
that are the worst performing, the highest cost. But the entity 
that they represent, one of the largest mutual funds, wants to 
move those funds, because nobody else will invest in them if 
they do their own investigation.
    So I think you are quite right. Representing investors when 
they are making these decisions about their 401(k)s, the 
complaints we have come from are from the advisors to small 
businesses, who tell it they can't decipher that information. 
That legislation will hopefully move out of the Ways and Means 
Committee soon.
    And also there is disagreement here about project labor 
agreements. In my area of the country, after votes, city 
councils and others have endorsed project labor agreements for 
various projects. The refineries in my district have project 
labor agreements, and most of those agreements, those projects 
are on time and in many instances under cost.
    And I think that they have delivered the kind of workforce 
that people need to get those jobs right. So there is that 
disagreement. That is what elections are about, and that is 
what different political ideologies are about.
    But I think the administration is on the right track in 
terms of protecting individuals in their health care, in their 
investments, and in their workplace.
    You mentioned the president's interest and your interest in 
WIA. I am excited that he has asked for competitive grants on 
innovation, because I really have believed and one of the 
reasons I haven't moved as quickly on the reauthorization is 
because I really think we need a new iteration of WIA.
    We keep talking about one-stop shopping. We have been 
talking about it for 30 years. And I think it has to be better, 
and I think we need to try to get those who are in the field to 
really think outside the box, come forward with competitive 
innovation, and see what we can learn from what is going on on 
the ground. And people who have worked with the system, engaged 
the system, may be happy or unhappy, but let us see what they 
propose for us.
    Finally, Madam Secretary, before I run out of time here, I 
want to thank you again on the OSHA work that you have done. 
This is an area that was neglected. We turned it over to 
voluntary compliance. We had the tragedy of Texas City, where 
15 workers lost their life in the explosion of the British 
Petroleum refinery, and the fact was that that was covered up.
    It went all the way to the boardroom in London, where they 
made a decision in their most profitable year that they 
couldn't make the minor adjustments to the process that were 
necessary to safeguard those workers, and that tragedy 
happened, and now they have paid $87 million in fines for that 
behavior. That will not replace those 15 workers.
    Again, mine safety--we had a series of tragedies over the 
last several years. This committee for a long time refused to 
even hold hearings on those tragedies to hear from the 
families. And now I see that we have just completed with much 
more diligence and inspection, that we have just had an all-
time low in mine fatalities in that area of occupation. And I 
certainly would hope that that that will continue.
    And again, I think the rewriting of regulations to make 
sure that guest worker programs are not taking jobs away from 
American workers, especially in this very bad economy. A lot of 
people are finding out that they may take jobs that they would 
not otherwise take, but they need them to sustain their 
families. And those jobs should not be taken away through the 
guest worker program. And I think due diligence there by your 
department will hopefully pay off for the welfare of those 
families.
    So again, thank you for your testimony. Thank you for your 
work. And thank you for the adjustment in terms of having the 
Department of Labor carry out its mandate on behalf of workers 
in this country and their families.
    And with that, I will yield back the balance of my time and 
recognize Mr. Kline.
    Mr. Kline. Thank you, Mr. Chairman.
    And again, thank you, Madam Secretary, for being here and 
for your testimony.
    It is always tempting, when the Chairman speaks, for me to 
be sucked into reopening the debate on Card Check and PLAs and 
Davis-Bacon. And I am fighting that temptation. I suspect 
perhaps other members of the committee are looking forward to 
having a discussion with the secretary about the impact of some 
of those policies.
    I, however--and by the way, I do want to thank you and the 
administration's--thank you for your interest in WIA. We have 
been looking forward to that for some time.
    Madam Secretary, I was interested to hear you say that you 
are putting more troops on the ground. And I hope that some of 
those troops on the ground go into the Office of Labor 
Management Standards. I was pleased to see--not as pleased as I 
would like to have been--but I was pleased to see that in the 
budget the president has asked to be put back four of the $6 
million that had been slashed out of that little tiny body, 
that little tiny agency in your department whose job it is to 
enforce laws.
    You said that was an important thing that we have to do. It 
was an important part of the department's business was 
enforcement of laws. And that little office, the Office of 
Labor Management Standards, is the office whose job it is to 
make sure that rank-and-file union workers are protected from 
abuses by union bosses.
    And we know there are cases across the country of 
embezzlement. Money has literally been stolen from the 
accounts, and certainly there have been some cases of abuse in 
internal union elections. And that office is very important in 
enforcing the laws.
    I have been very upset that the majority party here in 
Congress slashed money out of the last administration's budget 
for that, and I am pleased to see that you have put some of 
that money back in. I hope we are going to put troops on the 
ground there and take care of that business of enforcing, as 
well as the others that you mentioned.
    Madam Secretary, the president has made it a point on a 
number of occasions to talk about this administration wanting 
to be the most transparent and open administration in our 
nation's history. I am glad to hear that sort of approach. I 
have some concerns about it, however.
    I want to specifically talk about an issue of transparency 
on union finances. Last year the department--your department--
rescinded the final regulations concerning union financial 
reporting on Form LM-2. As I understand it, the rescinded rule 
would have increased the information provided by large unions 
on the Form LM-2 that they are required to file about parties 
buying or selling union assets and the compensation of union 
officers and employees and would have required more detail and 
itemization in these categories than under the old 2003 rule.
    I don't see how that adds to transparency. And clearly, 
there is less information available now to rank-and-file union 
members about what their leaders are doing and how their dues 
are being spent. Can you tell me why the department took that 
step and explain to me how that has made this more transparent?
    Secretary Solis. Right. You have some very good questions 
there, Congressman Kline. I do want to mention to you, too, 
that with respect to WIA we do want to work on a bipartisan 
basis, as we have already started on the Senate side.
    With respect to disclosure and transparency, I will say 
that, yes, we have taken a look at the LM-30 provisions there, 
and we know that that has been in effect since 1963. We believe 
that what we are looking for is to make sure that we are not 
overburdening a system where information that was previously 
asked for may not be of that much importance or significance.
    So what we are trying to do, I would say to you, is to 
provide transparency, but also if there is a need to provide 
any information, that we will be happy to disclose that 
information.
    I agree with you that we have to strongly enforce our laws, 
that nobody should be allowed to get away with taking 
advantage, for example, of their union membership. In fact, I 
am very happy and delighted that we have been able to see 
actually an increase in our investigations.
    While you report that we have seen a decrease overall in 
this particular agency, OLMF, we have also seen, I think, more 
forthrightness on the part of our staff. So we are working 
leaner, maybe a little bit more efficient and actually 
investigating more cases that may not have been looked at as 
seriously.
    And I would say to you that what we will try to do in every 
way we can is to make sure that we follow the rules of law and 
that we also make sure that we treat these two entities 
equally, so that we aren't just going after business, but that 
we are also looking at those unions that are bad actors.
    We want to root wherever there is fraud and embezzlement 
going on out system. And I think that that is what you are 
going to see coming forward in our new revision of this 
particular program. So I am very happy about that.
    With respect to see T-1 form, I would say that what we are 
doing there is looking at obtaining that information, but 
placing it in a form that we already require people to fill 
out. So it is not as though we are abrogating or trying to 
decrease or de-emphasize information. I think what we are doing 
is making it easier for people to report this information.
    Mr. Kline. Well, I certainly hope that we are going to 
exercise that part of the responsibility out of OLMS, and I 
would argue that the change rescinding the LM-2 rules has 
deprived us of information and the rank-and-file union workers 
of information they really ought to have access to.
    Thank you. I yield back.
    Chairman Miller [continuing]. Stay within their time 
limits----
    [Laughter.]
    Mr. Kline. I am with you.
    Chairman Miller [continuing]. Because we have the secretary 
until right around 11:30. So I don't know if there is going to 
be votes or not, but if we can do that, we will alternate back 
and forth.
    Mr. Kildee?
    Mr. Kildee. Thank you, Mr. Chairman.
    Madam Secretary, you know, when you were sworn in, you 
inherited a 14-month recession. You were having 690,000 jobs 
being lost per month. And I am glad it was someone with your 
intelligence and compassion that has taken over a very, very 
important Cabinet post in our country.
    My city of Flint, Michigan, used to have 80,000 General 
Motors employees. My dad worked there beginning in 1916. Now it 
has 8,000--from 80,000 to 8,000. The one good thing that has 
happened in the auto industry is the Auto Task Force, the so-
called auto bailout.
    Right now, they are building a new engine plant in Flint. 
That is great news. They are adding a new truck line. We are 
still down, way down from where we were. My point is it is very 
important that the various agencies of government interface 
with one another. The Department of Labor, I am sure--and maybe 
as I finish here, you can answer that--how close a relationship 
do you have with the Auto Task Force, which came up with this?
    We could not have built that engine plant. We could not 
have added a truck line in Flint, Michigan, and add some new 
jobs without that. So I encourage that the various Cabinet 
officials, the various department heads and officials, deal 
with one another.
    You know, what we have in Flint right now are people who 
are unemployed. They lack health insurance. They are defaulting 
on their mortgages. This is the same person beset with all 
these problems. They find it difficult to get further 
education. They are really economic basket cases, and they 
need, really, almost a package of help from the federal 
government to get this economy going, not only for them 
individually, but for the entire economy of the country.
    So I am happy that you work closely with the Auto Task 
Force, because that has created jobs in a city that has close 
to 20 percent unemployment, with more houses being torn down 
each year than are being built. So I encourage you, and maybe 
you can tell us how you interface with the agency like the Auto 
Task Force, which has saved General Motors, probably Chrysler--
and by the way the accelerators work well on those cars. 
[Laughter.]
    Secretary Solis. Thank you, Mr. Kildee. It is good to see 
you. And having served with you on this committee, I know how 
deeply concerned you are about trying to provide assistance for 
those in your district, but in your state and the entire 
automobile industry that has just gone through a devastating 
process.
    And I am delighted that the president stepped forward to 
create this automobile industry task force that really takes a 
different approach, and one a model that has been used very 
effectively when I know we looked at the Defense Department 
closures of bases. We are using that--what they call a BRAC 
approach, so to speak--where we involve other agencies like the 
Environmental Protection Agency, the Department of Energy, 
Commerce, SBA, Treasury, and other entities that are now 
meeting on a regular basis through the auspices of Dr. Ed 
Montgomery, who is leading that particular task force.
    He is housed in the Department of Labor, and we have 
assigned staff to work with him. He has spent, I would say, I 
want to say anywhere from 15 to 20, maybe more meetings on a 
regular basis where he is out in the field in Ohio, in 
Michigan, in Indiana and other places that have been hard-hit 
by the devastating job loss.
    One of the----
    Mr. Kildee. Give him my personal thanks, because he has 
done a wondrous job in Flint, and I really appreciate----
    Secretary Solis. And I want to tell you that in the 
Recovery Act funding through our competitive grant process, of 
the $500 million that we were able to obtain through your good 
work and your assistance, $50 million have been set aside for 
the automobile industry regions that are hardest hit. So we 
have been rolling some of that out.
    But more importantly, we are really trying to connect the 
dots here. So if Department of Energy has a grant that 
potentially can provide for investments in, say, lithium, the 
creation of lithium batteries, which was just released, then we 
want to see that we are making those connections in the right 
region, so that those displaced autoworkers might be able to 
then be drawn back, immediately identified, skilled up to be 
ready for these orders that are going to be coming in.
    I was happy to be with you and other members of the 
Michigan delegation at the auto convention that went on just a 
few weeks ago, and I was delighted to see how many of our 
American automakers are now looking at long-term investments 
and very pleased that the Recovery Act moneys have been made 
available so that more infusion of dollars can go in so that 
they can start beginning to identify where those high 
technological areas are and make sure on our part that the 
Department of Labor is following suit, that we have the right 
training workforce there.
    The biggest threat I think we have is if we do not do 
something now. And we will lose that very core group of very 
well trained individuals, who are highly skilled, that can be 
trained, and those skills can be transferred into new 
technologies, into hybrid vehicles, into hydrogen vehicles, 
into different types of sources that will help reduce our 
dependency on foreign oil, make us more competitive, and have 
those cars built, sold and designed here by our American work 
force.
    So that is something that is of great concern on the part 
of our department, as well as this administration.
    Mr. Kildee. Thank you, Madam Secretary.
    Mr. Castle. Thank you, Mr. Chairman.
    Madam Secretary, referring back to the stimulus bill or the 
Recovery Act, we know that there are a lot of questions about 
the counting of jobs. And both the CBO and the General 
Accounting Office have raised some issues about that. But I 
have another question about the accounting for the jobs.
    As I understand what has happened with the money from that 
bill so far, a lot of it has gone to the various states to help 
with programs all the way from Medicaid to other programs. And 
a lot of that has gone for various projects, almost a capital 
bond to build type thing, roads and things of that nature.
    Regardless of the count, whether it is accurate or not, is 
anyone looking at how many of these jobs are permanent?
    My impression from talking to people is that when the 
funding for the states or local jurisdictions is over for the 
particular time period, which is about expiring in the case of 
most governments at this time, there will not be money to keep 
those employees on, and a lot of the work that was created, let 
us say putting in an extra lane on a highway or something of 
that nature, was something that was done for 3 months, and then 
there is no record of whether those employees stayed on at that 
point, and they go back into the unemployment.
    My point is I don't know if this has really created many 
permanent jobs. And I was wondering if anyone is tracking those 
jobs. After the reporting is done and that there are so many 
jobs created, is anyone tracking to see if those same jobs 
exist a month, 2 months, 3 months, 6 months later?
    Secretary Solis. Congressman Castle, that is a very good 
question, and I think that it is almost twofold, because I have 
seen where there have been projects that have a certain time 
completion date, so if you build a bridge or road, there will 
be a certain length of time for that project to be completed.
    Thereafter, if there are other projects or incentives, I 
would say that that certainly would be something that we would 
want to consider. But in some cases, you are right. There may 
be short-term employment.
    But at the same time, the project that I visited, for 
example, last week in Ohio, the $400 million to go into a high-
speed rail is going to be something that is going to be 
extended over the course of, obviously, a longer time than the 
ARRA funds are made available. So I know that, for example, the 
planning that is going into that rail system will go on for 
years.
    And then when you think about the other investments that 
the locales, the local cities, are making to help provide for 
that extension of the rail passenger system as well as freight, 
that means more opportunities for businesses to be attracted in 
these hub areas.
    They are trying to look at designing, for example, building 
up smart growth areas so that you have a combination of metro 
centers where people can easily get around to colleges, 
universities, convention centers, and then all of the 
subsidiary businesses that will offshoot because of the clients 
and people that will be attracted to those places.
    So in a way I understand what your point is, but I think 
this is something that I will certainly bring back to the 
Middle Class Task Force that is now headed by the vice 
president, because it is a valid point. But I also know that 
there are some very positive outcomes that are coming from 
these investments that we are making right now in 
infrastructure in particular. There is probably a little bit 
more apparent than some of these other areas that you might 
have mentioned.
    Mr. Castle. I wish you hadn't mentioned the high-speed 
rail, since I am very concerned about the Northeast corridor, 
which is virtually ignored by the high-speed rail funding. It 
is something that I still haven't figured out why, since it is 
the most populous part of the country. But that is another 
discussion for another day, and I won't ask you questions about 
that.
    I do want to ask a question, though, about--and there may 
not be exact correlation on these dates--but I know that at the 
end of last year, there were economic gains, apparently, in our 
country. I think it was around 5 percent. I don't know if it 
was quarterly or just December. And I also know that we have 
continued to lose jobs, but at a lesser rate than we did 
before.
    That is sort of a surprise to me. It would seem to me if we 
have economic gains, you would start to see a greater 
turnaround in terms of jobs being created. Is anyone looking at 
the connection of those two economic reporting aspects to see 
why, when there is economic gain, the jobs aren't necessarily 
coming back? And what should we be doing as the Congress or as 
executive branch or government to try to make sure that the 
jobs are being supplied as well?
    Secretary Solis. Good question, Congressman. I also think 
that a part of the recovery effort was to look at helping to 
stabilize that job loss and making some very, very strategic 
decisions on where we need to go in terms of helping to 
restructure our manufacturing base.
    We have really lost hold in the manufacturing arena. That 
has been happening for the last decade. And I think making 
investments in new technologies, in green energy, biofuels, 
creation of better and more high-speed systems of 
transportation is going to help us in the long run. But we have 
to be competitive and make sure that we have an appropriate 
workforce to deal with that.
    What I see happening every month--and I have to report on 
the unemployment figures--is that we have seen a drop-off in 
construction and manufacturing. There is no doubt about that. 
Those have been the hardest hit areas.
    But I do continue to see because of the stimulus program 
and the incentives that are being made available, that some 
businesses now are going back and looking and reassessing their 
inventory and actually restocking. So that is where you saw the 
growth this last month, the 5.7 percent in GDP.
    So there still is somewhat a reluctance on some businesses 
to move ahead and hire, to go the full step in hiring more 
people. But I will tell you that the figures I have to report 
on, there is a higher number of temporary workers that have 
come back into the system. But it is no longer the temporary 
worker that most people would think about. It is a consultant. 
It is an architect. It is someone who is dealing in IT and 
someone who has a much vaster range of experiences that are 
being brought back on board.
    I think once confidences is regained and the business 
community feels that there is going to be more credit available 
and more of these investments being made in the energy 
technology and the whole proposal about renewable energy, that 
they start to see these practical efforts on our part, then 
businesses will make those investments.
    And every time I travel, I see that people are asking when 
is the federal government going to move on cap and trade, and 
moving so that we have the right signals to make those 
investments for 5 and 10 years down the line. No businessperson 
is going to want to make an investment for 2 years based on 
just a Recovery Act program. They are going to want to see what 
their return is going to be in the next 10 and 20 years.
    Mr. Castle. Thank you, Madam Secretary.
    I yield back.
    Chairman Miller. Mr. Payne?
    Mr. Payne. Thank you very much.
    It is really great to see you again. And let me thank you 
for inviting members of this committee over to your office 
several months ago. I think it was the first time that I have 
ever had that extended to me. And secondly, I think it was so 
important that you had Job Corps young folks there who prepared 
the food. I think that you have done an outstanding job with 
opening your office, and it is great to have you here.
    I would like also to thank the Department of Labor. In my 
congressional district, we received a $5 million grant for 
Union County College in my district that created--it is for the 
creation of green jobs. And it has made a great big difference 
there for young people who are seeking alternative jobs. And I 
would like to thank you for that.
    And also the Summer Youth Employment--we had over 4,000 
young people from New Jersey worked this summer, and I just 
wondered quickly do you expect to have Summer Youth Employment 
this year in your budget so that we could at least duplicate 
last year or even expand it? Will there be Summer Youth 
Employment in your budget?
    Secretary Solis. Thank you, Congressman Payne. Yes, we are 
looking at proposing an increase in the Summer Youth Employment 
program. We actually, through the ARRA funds, projected that we 
would see about 150,000 youngsters in that program actually 
receive this benefit and this training experience. We were very 
surprised that we had well over 317,000 participants.
    The need is so great, I have to tell you. Governors and 
mayors have done an outstanding job in their own way to help 
expand these programs. And certainly, that has been one of the 
more successful parts of the ARRA funding that I can be able to 
say proudly that has really worked on the ground.
    I visited Puerto Rico recently a couple of months ago and 
actually saw young people, 14, 16 years of age, that were hired 
to do conservation along the coast of Puerto Rico in some very 
nice areas,--pristine, but students were getting information on 
biology, looking at other dynamics in terms of how to keep that 
ecosystem alive.
    And, of course, it is a big tourist industry there, so 
making sure that preserving and conserving property and the 
value that that means I think helps to instill in many of these 
young people, who may not even have an opportunity to get a 
job--the unemployment rate in Puerto Rico is well up above 40 
and 50 percent, and even higher for young people--but just as 
an aside, the summer youth program itself has really helped, I 
think, to not just help that student continue to feel a sense 
of discipline and respect because they earn a paycheck, but 
many in this hard economic time have shared with us that that 
check goes straight to their parents to pay for that utility 
bill, to pay for additional rent, or for maybe a little bit 
more clothing to go to school.
    Mr. Payne. Thank you. I couldn't agree with you more, and I 
think the ARRA program has, you know, created or saved over two 
million jobs. The House just passed, you know, the second jobs 
bill that would certainly help teachers and firefighters and 
policemen and create health jobs, and so I would like to really 
also commend the president, who has laid out, you know, an 
aggressive job creating agenda.
    I would hope that we could finally get support, you know, 
from some of the members on the other side, you know, as we 
move forward. We recall there was attempt to even years ago 
block the minimum wage increase, which hadn't been increased in 
10 years, and, of course, the opposition to the free union 
organizing bills and, of course, the exodus of jobs overseas. 
We have not seen anything in those years to try to prevent that 
from happening. But hopefully, those days are over.
    I do have a question about the wage theft. There is a 
Sodexo company I am not sure if you are familiar with, but 
there have been some serious allegations about their practices 
that have disallowed a number of issues. And I would just like 
to bring that to your attention, and hopefully your office can 
look into that. I will give you some very specifics, but I 
would be happy to share that with some of the information I 
received from SEIU. It is a food service company, and there are 
some very bad allegations.
    Let me ask the last question about--before my time 
expires--the Job Corps program. Is there a way to go out to 
recruit more at Job Corps people? I know you are going to help, 
you know, to deal with the facilities, but I understand the Job 
Corps is not totally up to the number of slots that are 
available. Are you doing anything aggressively to try to 
increase the number of recruits?
    Chairman Miller. Answer this quickly.
    Secretary Solis. That is a lot of good questions, but I 
will be happy to work with you personally and your staff.
    With respect to Job Corps, yes, there was a reduction, but 
what I think I am being tested to do now is to evaluate, to 
really look at those programs that are effective, come up with 
some innovation there as well.
    And we are looking now to identify our director for Job 
Corps. We put it back in the secretary's level in our ETA 
administration, so it no longer stands out by itself, so we can 
integrate the other services, the core services that we offer 
through our other agencies. And that is really important, 
because we can draw on more expertise and more resources to 
help Job Corps.
    It is a very important program, one that the president 
feels very strongly about, and I do. And we want to work with 
this committee and, of course, our appropriators on seeing how 
we can fix any problems.
    Chairman Miller. Mrs. Biggert?
    Mrs. Biggert. Thank you, Mr. Chairman.
    Madam Secretary, it is great to see you here in your new 
role. You know, many of my constituents have lost their jobs 
during this recession, and they found new positions that don't 
really fit their skill set or pay significantly less than their 
previous job. And I think this is happening all over the 
country. In fact, the national underemployment rate is 17.3 
percent, nearly a fifth of the adult population.
    So what is the president and what are you doing to help the 
underemployed find secure, good paying jobs? And some of them 
just have never found a job at all, and they are kind of off 
the record.
    Secretary Solis. Congresswoman, as I have traveled 
throughout the country, I have heard from many individuals who 
have advanced degrees, people who worked in the financial 
industry who lost their jobs, people who are very high skilled. 
And because our market has shrunk, because there has been a 
restructuring in that particular area, we know that we are 
going to be tested to see about coming up with more creative 
opportunities in partnership with our community colleges, with 
our 4-year universities, and again, looking at where we could 
see potential growth.
    So, for example, health careers--I mentioned that earlier 
as a potential area for people to kind of--I don't want to say 
reinvent themselves, but as a potential area of job growth and 
something that actually can help provide them with better pay 
and more stability.
    That is something that is going to keep growing out, as 
well as in the medical field in terms of IT and other things 
that have been brought forward by the Congress that will 
actually provide more opportunities.
    But you are right. We have to do a better job in WIA. We 
have to have more focus on diagnosing what the job skills of 
that particular individual is.
    Mrs. Biggert. Do expect that the president is committed to 
pass the WIA bill this year?
    Secretary Solis. Absolutely. And as I outlined, we want to 
do this on a bipartisan level. Our staff has already begun work 
with the Senate committee on a bipartisan level, and we also 
want to--when asked appropriately by this committee, to also do 
likewise.
    Mrs. Biggert. You know, one of my community--or 
universities, I should say, just has a new proposal to have a 
woman empowerment and training for them so that they can, you 
know, be at the top of their skill set. The problem, though, 
is, you know, it costs money, and somebody that is really out 
of a job doesn't have the wherewithal to, you know, to pay for 
the education. And if they have a job with a lower skill level, 
they are working all the time and don't have the opportunity to 
do that. It just seems like it is a catch-22.
    And one of the things that is another thing that has 
happened in my community--I went to visit a business. And they 
just received as a subcontractor a wonderful, you know, 
proposal or purchase order, if they can fulfill it. And this 
company has, you know, gone through what most of the companies 
are doing. They laid off 60 of their employees, who they could 
bring back on this.
    The problem is that they need to upgrade a couple of their 
machines at a high cost. And because of the economic downturn, 
they, you know, they don't have the funds to do that right now, 
but they could bring the people back. If they could just get 
these machines, it is all ready for them. And they go to the 
bank, you know, the credit is not there.
    And what are we going to do when they--you know, the 
corporate taxes that they pay, and they can't get the bank 
loans, and it is really it is the businesses that create the 
jobs. And so many of them don't have the ability to do that. 
And what we should be doing is providing tools, but what can we 
do in that kind of a situation?
    Secretary Solis. I think you describe something that I have 
confronted out in the field as well, the fact that people that 
are unemployed are challenged, because they are looking for a 
job, or if they have a job that underpays them, they can't 
really take time off to go fit into a job training program.
    But for those people that are unemployed, I would encourage 
them to contact our one-stop centers and find out what job 
training opportunities are available, most of which are free.
    This new incentive to provide Pell grants for people that 
have lost their jobs while they are collecting unemployment 
insurance is also another extension, a kind of another lift-up 
to get more of the more advanced training that they may need 
short-term. And those are transferable, obviously, for a 4-year 
and a 2-year community college.
    Mrs. Biggert. Well, what can employers do? Are you thinking 
of the corporate tax structure? Is that going to change, help 
with making sure that they can get credit?
    Secretary Solis. I think that the president looking, and I 
know the House has some proposals, and the Senate is now going 
through theirs, to see how we could readily make available more 
tax credits and to incentivize small businesses in particular 
to go that extra step to keep someone on longer hours, given 
that tax break, but also to bring more people on.
    So that is a big priority--and using also some sources of 
funding to get through our commercial banks, who tend to have, 
I think, a better record of providing those loans to 
businesses. So I think opening up different opportunities in 
that way can certainly help. But we have a long ways to go, and 
look forward to working with yourself and others who have ideas 
to do that.
    Mrs. Biggert. Thank you.
    Yield back.
    Chairman Miller. Just reiterate what Mrs. Biggert said. I 
think all of us in our communities find the access to credit. I 
hope this new proposal by the president to put $30 billion in 
front of the banks will help the banks loan, but it has been a 
dry season on lending for small businesses.
    Mr. Scott?
    Mr. Scott. Thank you, Mr. Chairman.
    Madam Secretary, historically it has been the case that 
whatever we do, good or bad, eventually we are going to recover 
from the recession. So our challenge is to try to put people to 
work as soon as possible so that the recession will be as short 
as possible and as painless as possible.
    One of the challenges we have as we go through this is--as 
quick as we can stimulate the economy on one side. State 
budgets have been cut, I understand, about $300 billion after 
we invested about $140 billion in state governments. So the 
first $450 billion worth of recovery just went to offset what 
the states were cutting off.
    My question is in just whatever kind of jobs, temporary or 
otherwise, and all construction jobs are temporary--I mean, if 
you build a bridge, you complete the bridge; it is over. Build 
a school. When the school is complete, the job is over. You go 
on to the next job.
    Do you have any idea how much it would just cost to hire 
back many of the people that have been laid off? I understand 
it is up to about seven million have lost their jobs so far. 
How much would it cost to get three million of them back to 
work short-term?
    Secretary Solis. Well, I don't have an accurate figure, but 
I know that our council is in the White House, and our task 
force that is looking at jobs is looking at different 
proposals.
    And the president did outline that he knows that there is a 
great need to have a jobs bill package put on his desk as soon 
as possible, because we are seeing a continuing number of 
people that are now exhausting their unemployment benefits, but 
also more importantly, making sure that we can keep either 
people on the job, and part of it is through tax credits for 
small businesses to extend that time that they can stay on, and 
hopefully increase their wages. This is going to take a 
bipartisan effort and approach to get through.
    Mr. Scott. But just in terms of the cost, we understand 
from what our friends on the Transportation Infrastructure 
Committee have said, if we spend $40 billion in infrastructure, 
we can get a million people working. Is that accurate?
    Secretary Solis. You know, I would have to get back to you 
on the actual amount.
    Mr. Scott. And we have had a lot of other jobs that people 
are waiting for. I mean, in my district you have got 
infrastructure, you have got military ship repairs that are 
being deferred, research grants, summer jobs, youth programs--I 
mean, a lot of things that you can get somebody to work for a 
relatively small cost. Has your office gone through a list of 
opportunities where for the lowest cost we can get the most 
jobs?
    Secretary Solis. We are working, as I said, with the 
president's Cabinet, those that are more involved directly with 
coming up with the job package proposal. And those discussions 
are ongoing now.
    That also is taking place while we see the Congress--you 
have already moved to put forward a jobs package, and we see 
the Senate also working to come up with something. And it is 
going to be a challenge to try to get all these forces working 
together to make these jobs more available and immediate, so--
--
    Mr. Scott. Do you have an idea of what size in terms of 
money--what size package we need to get people back to work?
    Secretary Solis. Well, the president says that in his 
proposal he is looking at $100 billion to start with, and I am 
sure that as we work this through with your leadership and the 
Congress and in the Senate, that there will be other 
opportunities to hear new ideas and other programs that might 
work better.
    I know that there are several proposals that are being 
talked about. But I am probably not the only or the best person 
to respond to all of that, because much of it is happening 
internally with White House staff.
    Mr. Scott. One of the long-term challenges we have is in 
health care to make sure that there is sufficient personnel in 
the health care industry, if we can ever get a health care bill 
passed so that everybody has access to the system. What is the 
Department of Labor doing to ensure that there will be 
sufficient personnel in the future to meet the health care 
needs of our nation?
    Secretary Solis. Well, this has been something of great 
concern to me in the last few years just overall, but our 
department is going to be issuing $220 million for job training 
in health careers. So that will be going out in a matter of 
weeks. And that is just, I think, a start, beginning of where 
we need to go. And I know that there is much, much concern.
    There has actually been an over subscription. We received 
hundreds--hundreds--of applications so that people could obtain 
these particular grants, partnerships that work with hospital 
associations, with clinics, with the community colleges and 4-
year institutions. They are oversubscribed. We don't have 
nearly enough money to make those all complete. I would hope 
that that is something that Congress and the Senate might 
entertain.
    Mr. Scott. Thank you, Mr. Chairman.
    Mr. Price. Thank you, Mr. Chairman.
    Madam Secretary, welcome.
    Secretary Solis. How are you?
    Mr. Price. We know that you have a difficult job and 
remarkable challenges, and we look forward to working together 
positively to get to the root cause of the decrease in jobs and 
move forward.
    Our chairman talks about a celebration of a change in 
philosophy once this new administration came in. Many of us 
have concern, because we believe that that change in philosophy 
is to punish the job creators across this nation. And that 
gives us a great pause.
    The chairman also stated that the non-stimulus bill that 
passed, the success of it was ``undeniable. Most Americans, I 
think, would would dispute that. And the question that they are 
asking is, ``Where are the jobs?'' Where are the jobs?
    Before the $787 billion non-stimulus bill, the president 
said that if it wasn't passed, then unemployment would go to 8 
percent. And in fact, the 787 boondoggle was indeed passed, and 
now unemployment sits at 10 percent or more. And again, the 
American people want to know where are the jobs? Where are the 
jobs?
    If you look at the jobs that have been ``created''--these 
are from the Bureau of Labor Statistics itself--since January 
of 2009 through December of 2009, total private employment, 
private-sector employment, down 3 percent, loss of 3.3 million 
jobs. Total federal government employment up 1.3 percent.
    I think it gets to one of the concerns that the gentleman 
from Delaware asked about whether or not these were permanent 
jobs at all and whether in fact they were jobs in the private 
sector.
    As you have stated, as the president has stated, as 
everybody knows, the small businesses of this land are the job 
engine, the job creation engine of our nation. So I would ask 
what do you believe--what does the department believe to be the 
single biggest important factor in allowing small businesses to 
create jobs?
    Secretary Solis. First of all, I do want to say that this 
last quarter there was a report that mentions that there were 
over 640,000 jobs that were either saved or were created 
through the Recovery Act. And we also know that we were able to 
preserve jobs for teachers and for law enforcement officers. 
Many states benefited from--both Republican and Democrat--well 
over 200,000 jobs in construction and clean energy, 300,000 
jobs----
    Mr. Price. Madam Secretary, if I may, and my time is very 
limited and the chairman won't allow me to go over the red 
light, so the question is what do you believe is the most 
important factor in the creation of jobs in the small business 
arena?
    Secretary Solis. I think that the president's proposal to 
provide I believe it is $30 billion for the small business 
lending fund to targeted communities and smaller banks will 
help provide what we have heard here discussed today, the fact 
that there isn't enough credit made available for small 
businesses----
    Mr. Price. So capital is the most----
    Secretary Solis. That is part of it, but I also think that 
investments that we have already started through the Department 
of Energy, transportation infrastructure, new innovative 
technologies that will create better hybrid vehicles, for 
example, lithium batteries, solar panel industry--we can see 
that there has been an increase in job growth there.
    Mr. Price. Madam Secretary?
    Secretary Solis. I think that will help us put people back 
to work.
    Mr. Price. Many of us believe that the engine for job 
creation is on the private side, not on the public side, so 
that the answers that I continually hear, that we continually 
hear coming out of the administration and out of your 
department, it requires bigger and greater and stronger and 
more intervention of government to create jobs.
    And many of us just simply don't believe that--in fact, 
believe that our nation's history is, and the vibrancy of our 
history demonstrates, that it is indeed the private sector.
    When I talk to folks back home about what it is that 
creates jobs and why they aren't being able to hire right now, 
one of the big concerns that I hear from them is the 
uncertainty because of the intervention or threat of 
intervention of the federal government.
    So in the area of health care, the reports that are out 
that dictate--and I know that you scoff at this--they have 
health care. If the health care bill were passed, 5.7 million 
jobs would be lost. If the cap and trade bill were passed, 
millions of American jobs would be lost. If the Card Check bill 
were passed, millions of jobs would be lost.
    And those are high-quality individuals, who look at our 
economy and try to determine what it would take to get the 
economy rolling again and get jobs created again.
    So I would hope that at a time when we we are currying 
favor with the union community and currying favor with those 
who believe that larger government, bigger government, greater 
intervention of government is the secret to job creation, that 
we also look at the true job creators across this land, which 
are the small businesses, and try to decrease the burden on 
them, whether it is through decreasing taxes--we have the 
second highest taxation in the world, industrialized world, for 
businesses--decreasing regulation that oppress the job 
creators, and making litigation an environment that is much 
more comfortable for folks to be able to start businesses. I 
thank you.
    Secretary Solis. I think the irony there, Congressman 
Price, is that many of the proposals that you talk about have 
not even been voted upon yet. So we don't have a complete 
picture of what those proposals will be.
    But I do believe in the health care reform proposal that we 
do see, that there will be a reduction in costs. And that is 
really where I think the president has tried to move us along 
to realize that we need to drive down those costs. People are 
going bankrupt, businesses are going bankrupt, because they 
can't keep up with those payments that continue to go up at a 
very higher rate than employment and wages.
    So I think that we have to tackle this problem in different 
ways. But certainly I know we want to work very closely with 
businesses. We don't create jobs. Businesses create jobs.
    Mr. Price. Thank you.
    Secretary Solis. So we need to work in a very whole school 
environment that respects both the worker and the employer.
    Mr. Price. Thank you.
    Ms. Woolsey. Thank you.
    Thank you for being here, Secretary Solis. It is wonderful 
to know how much you know. What a complement you are to your 
position.
    Wherever I go in my district, really, or around the 
country, and anybody is talking about jobs and about wages and 
anything that has to do with the workforce, which is what 
everybody is talking about--it is the most important thing in 
our country--I always hear something like, ``Well, lucky us, we 
have a change in the Department of Labor, and they are doing a 
lot for us.''
    And I think that that feels really good, because people 
know the difference. They actually recognize that when Barack 
Obama was sworn in in January, the job losses per month were 
741,000, and then in November of this year--too many, of 
course, and you said so--85,000. But what a difference. And 
people recognize that.
    But one more thing they recognize, and this is just I want 
you to know that. They always use your name when they say, ``We 
have a different Department of Labor, and Hilda Solis is going 
to take care of us.'' The workers in this country know you. 
They trust you. They respect you. And it is making a big 
difference in how they feel about what we--all of us--can do 
for them.
    So now I want to change the subject. I know I had to 
compliment you, because you are doing such a good job.
    In your testimony about reviewing the department's 
commitments to workplace safety, I wanted to follow up on that, 
because the first priority of the Workforce Protection 
Subcommittee is securing passage of H.R. 2067, the Protecting 
America's Worker Act, because we want to make the needed 
improvements in the Occupational Safety and Health to actually 
bring it into the 21st century. And we want to know how we can 
help you to do that.
    But in the meantime we want to let you know--I want you to 
know how impressed we are that you have done so much with the 
October issuing of a fine of over $87 million to BP for the--
that is the largest fine in the history of OSHA. It is about 
time.
    You have hired more than a hundred inspectors, as well as 
25 new investigators for the Department of Labor's 
whistleblower program. And you have improved oversight over the 
26 states that operate their own OSHA plans, which is very 
necessary.
    I would like you to, if you can, to tell us where the 
department is going to go from here. Highlight some of what the 
plans are for 2010, 2011. And I would like to know whether that 
2011 budget, the president's budget, actually supports this 
positive momentum.
    Secretary Solis. Thank you, Congresswoman Woolsey, for your 
words of encouragement. And I also want to commend you for your 
hard work on this issue on protecting workers and creating a 
safer environment overall. I know you have been a great 
advocate, and I know that you have. Your priority is to 
continue to work with, I believe, us, with this administration, 
to see how we can really make these programs more effective--
and to be honest, programs that are going to be more 
transparent.
    And I can tell you that back in 2009 when OSHA issued one 
of the largest fines in history, a penalty of more than $87 
million that was discussed earlier by our chairman, I think, 
really helps to provide that kind of confidence and support 
that people out in the field need to know that we are taking 
our job very seriously.
    In the past I would say that OSHA probably was not as due 
diligent in terms of going out and really seeking and 
investigating and following suit. Thanks to your help and folks 
on this committee and other committees that help us increase 
the penalties to send a message.
    Of course, this is a small drop in the bucket for someone 
like BP, but it does send, I think, a message to the industry 
overall that we want to provide assistance. We also want to let 
them know that we are available to give them technical help so 
that we can prevent injuries and loss of life. Nobody should 
have to go into a workplace knowing that they may not be able 
to come home at night because of an injury or fatality. And it 
is something that our new OSHA brand is trying to bring to the 
table.
    And, of course, we want to work with all local groups on 
the ground. We also want to work with small businesses and 
provide continued support and assistance. I want to tell you 
this budget 2011, we are not in my opinion going to see a 
dramatic decrease in our enforcement, because we are barely 
coming up to par where we should have been at 2001 levels. So 
we are trying to go back to where it should have been.
    But it is still not nearly enough. But I will say that it 
is enough at least to begin to at least look at those more 
egregious cases and hopefully work with industry so that we can 
prevent any of these injuries, because any injury is a cost for 
everyone, and unfortunately for families that lose loved ones, 
I think it is even more painful.
    And we have to do a better job of prevention and 
information. So we are doing outreach campaigns. We are going 
to be presenting a program in Houston, Texas, to look at 
injuries in the construction industry and service sector and 
really targeting these--for example, immigrant populations have 
the highest incidence of fatalities on construction jobs--to 
help provide the tools with industry, working in partnership 
with other offices and local government to see how we can 
better prepare those businesses, industries, but also the 
employees so that they know what training has to take place to 
prevent any of these illnesses and injuries on the job.
    Chairman Miller. You have been very generous with your 
time. If you will just bear with us a little bit longer, I 
would like to recognize two additional members on each side. 
But those members will be recognized for 3 minutes. Those 
members can decide if they want to talk for 3 minutes or ask a 
question or whatever they want to do. But that will allow at 
least four other members of the committee to have opportunity 
to put their remarks the record, if that is all right with you. 
So we will hold to the red light.
    So we are going to begin with Mr. Thompson.
    Mr. Thompson. Thank you, Mr. Chairman.
    Thank you, Madam Secretary.
    Madam Secretary, in my home state of Pennsylvania this past 
summer, there were plans for a renovation project for the 
Rockview State Correctional Institution, and Benner Township 
granted the state project. And the Pennsylvania Department of 
General Services opened the project for bids this past June, 
but it made it subject to a project labor agreement.
    It turns out this kept a few hundred firms in the region 
from bidding on the project, and the bids ended up coming in so 
high that General Services and the governor were forced to 
scrap the solicitation. This project was subsequently put on 
the back burner, because the PLA could not be carried out.
    Similarly, last September the Department of Labor issued a 
solicitation for construction of a Job Corps Center in New 
Hampshire that the department declared is urgently needed. But 
then without explanation, the department attempted to impose a 
project labor agreement on the project, which would require all 
successful bidders to force their employees to work under a 
union contract, even though more than 90 percent of the workers 
in New Hampshire are non-union. And after a small local 
business filed a protest against the PLA, the department 
canceled the solicitation--again, without sufficient 
explanation.
    My question is simple. Why did the department cancel the 
entire solicitation of an urgently needed, as determined by the 
department, project in the face of the bid protest instead of 
simply removing the PLA?
    Secretary Solis. Thank you, Congressman.
    With respect to project labor agreements, I find that in 
many instances they have actually helped to reduce costs. And 
while they require collaboration on the part of the developer 
or a private entity and a union, I think that what this has at 
least given me evidence to feel that these are appropriate 
things that we should be looking for is to keep costs down----
    Mr. Thompson. Well----
    Secretary Solis [continuing]. To keep jobs locally to make 
sure that those jobs pay well and that those jobs benefit those 
individuals from that particular area.
    Mr. Thompson. If I can reclaim my time, I appreciate that, 
but, you know, you know, I mean, it is job creation, though, 
union or not, you would agree that is really is what the goal 
is.
    Secretary Solis. I would say overall, making sure that we 
can keep costs down. The taxpayers' costs, especially if they 
are funded by the government, is first and foremost very 
important.
    I think the chairman even mentioned that there are projects 
in our state in California where these project labor agreements 
have been very successful efforts to complete before the time 
that they were supposed to be completed, but also have managed 
to keep costs down.
    There is more predictability put in place when you have 
project labor agreements, when people could come to the table 
and understand ahead of time that labor disputes can be 
minimized, that there won't be any work stoppages, and that 
people will be hired from the local area.
    Mr. Thompson. And I certainly support keeping costs down. 
The two situations--one is a state example, but the other is a 
federal issue--it seems like we have canceled those projects 
versus allowing local contractors, non through PLAs, which may 
be able to provide local jobs and keeping those costs down.
    And I am out of time, and I thank you, Mr. Chairman.
    Chairman Miller. Mr. Thompson, if you--if Mr. Thompson----
    Secretary Solis. Yes, we would be happy to respond to you.
    Mr. Thompson. Secretary, I appreciate that. Thank you.
    Secretary Solis. Thank you. Thank you.
    Chairman Miller. Mr. Hinojosa?
    Mr. Hinojosa. Chairman Miller, thank you for inviting the 
distinguished Labor Secretary, Hilda Solis, to join us today.
    Madam Secretary, welcome. It is great to see you and to 
hear your enthusiasm and passion for the Department of Labor, 
as you fight every day to strengthen our nation's economy and 
our workforce.
    In the past year you have given the Department of Labor a 
renewed vision and purpose so that American workers can acquire 
good jobs to feed and sustain their families. This is 
particularly true in the high-growth emerging sectors of our 
economy. And I commend you and President Obama for investing 
and supporting American workers and our economy.
    In Texas the Recovery Act of 2009 has created and saved 
thousands of jobs in many sectors, including teachers, 
firefighters, health care jobs, and many others, and provided 
much-needed training and employment services to adults, 
dislocated workers, and youth.
    We have very little time, so I ask that you please allow me 
to ask my two questions before you respond.
    We start--rather, we understand that your list of 
priorities for WIA includes the need to streamline our 
workforce investment boards as well as devote more of their 
resources to effect workforce training programs, particularly 
for workers who have been displaced, who are unemployed, or 
lack the basic literacy and workplace skills to access good 
jobs.
    Recently, the caucus sent you a letter, which I have in my 
hand, underscoring the need to reauthorize WIA. What are your 
thoughts on these issues?
    And my second question is at the last congressional session 
we held a series of congressional hearings in Washington, D.C., 
and Michigan and Nevada on issues related to WIA in 2009. 
During these sessions, witnesses expressed the need for greater 
coordination and collaboration between the Department of Labor 
and Department of Education.
    Do you support the development of a stronger and more 
formal relationship between the two departments to facilitate 
the implementation of policies that strengthen our adult 
education and workforce training systems?
    Secretary Solis. Thank you, Congressman Hinojosa. You have 
been a leader on this issue, and I know we have had various 
discussions about the thoroughness of your sessions that you 
have held throughout the country.
    I want to tell you that one of the first things I did as a 
new Cabinet member was to call together my own internal task 
force to make sure that we make WIA reauthorization a priority. 
And it is a priority for this administration.
    We have held over 20 listening sessions, and many of the 
sessions that I have held in the Department of Labor have been 
with community colleges, have been with manufacturers, have 
been with secondary and post-secondary institutions, as well as 
nontraditional groups that also can be involved and a part of 
these partnerships. In fact, we were able to include some of 
those new entities in the grant-making that we just provided 
over the last few months in these new partnerships.
    And I am really going to be looking very strongly at 
evaluating these programs to see what we can learn from them 
and hopefully include them as part of our process in developing 
the WIA reauthorization language. As we have started in the 
Senate, this is a bipartisan effort. We want to do the same 
thing here. You have called upon me, Mr. Chairman, for 
assistance and for technical help. We will be happy to provide 
that. My assistant secretary is here with me today for ETA, 
Jane Oates, who I believe you met. We are ready to work with 
you.
    Secretary Solis. Yes.
    Mr. Hinojosa. Thank you, Mr. Chairman.
    I ask unanimous consent that the tri-caucus letter dated 
January 27, 2010, be included in the record of today's hearing.
    Chairman Miller. Without objection. Hearing none, so 
ordered.
    [The information follows:]

                                             U.S. Congress,
                                  Washington, DC, January 27, 2010.
Hon. Hilda Solis, Secretary,
U.S. Department of Labor, 200 Constitution Ave., NW, Washington, DC.
    Secretary Hilda Solis: Thank you for your leadership in fighting 
for the needs of our nation's working men and women. As our nation 
works to rebuild our economy, create jobs, and increase global 
competitiveness, it is imperative that the Obama administration 
prioritize the reauthorization of the Workforce Investment Act (WIA) 
during this session of Congress. We want to underscore the urgency of 
debating this issue and passing legislation in both Houses early in 
this session.
    As you know, in some parts of the country, local jurisdictions are 
experiencing record unemployment levels. This is especially true in 
low-income neighborhoods. In fact, minority and low-income communities 
were confronted with economic challenges long before this current 
crisis began. A reauthorization of WIA would allow us to strengthen our 
nation's public workforce development and adult education system to 
better address the needs of workers, particularly those who have been 
displaced or lack the basic literacy or workplace skills to access jobs 
in emerging and high-growth sectors of our economy. As we look to 
prepare the workforce of the future, we rely on WIA as a framework to 
prepare these workers for living-wage jobs and career ladders to the 
middle class.
    A new vision for WIA can serve to increase collaborations among 
education, labor, business, and the nonprofit sector, improve and 
integrate education and workplace training, and ensure that our public 
workforce development and adult education system encourages career 
pathways that lead to family-sustaining wages. A new vision for WIA 
could create incentives to businesses to improve employee skills and 
stimulate economic growth.
    We look forward to working with you on this issue in the coming 
months. We cannot afford to neglect the millions of displaced, 
unemployed, or underemployed workers who are looking to the 
administration and Congress for leadership on this issue.
            Respectfully,
                                        Barbara Lee, Chair,
                                        Congressional Black Caucus.
                                    Nydia Velazquez, Chair,
                                     Congressional Hispanic Caucus.
                                         Mike Honda, Chair,
                       Congressional Asian American Pacific Caucus.
                                      Raul Grijalva, Chair,
                                          CHC Education Task Force.
                                     Dale E. Kildee, Chair,
                                            Native American Caucus.
                       Robert C. ``Bobby'' Scott, Co-Chair,
                                        CBC Education Subcommittee.
                                     Ruben Hinojosa, Chair,
           Subcommittee on Higher Education, Lifelong Learning and 
                                                   Competitiveness.
                                    Chaka Fattah, Co-Chair,
                                        CBC Education Subcommittee.
                                           David Wu, Chair,
                                        CAPAC Education Task Force.
                                  Danny K. Davis, Co-Chair,
                              CBC Community Reinvestment Task Force
                           Eddie Bernice Johnson, Co-Chair,
                             CBC Community Reinvestment Task Force.
                                           Judy Chu, Chair,
                              CAPAC Economic Development Taskforce.
                                 ______
                                 
    Chairman Miller. Mr. Roe?
    Mr. Roe. Thank you, Mr. Chairman.
    Having been a small businessperson for over 30 years, I 
bring some experience to the table, having never worked. This 
is my only government job, is the one I have now here. Between 
2000 and 2009, we had a decade of no growth for private sector 
jobs, so the same of people employed now that were in 2000 
except in the government sector, in which there are 1.7 more 
million people.
    You are hiring. You are going to hire more OSHA inspectors 
and so forth. But small businesses are not hiring. Why aren't 
they hiring? Well, I am not every weekend that I am home 
talking to small business. It is real simple. It occurs across 
the country.
    Number one, they don't know what the go forward costs are 
going to be. They don't know what Card Check is going to cost 
them. They don't know what that health care costs are going to 
be. They don't know what those costs are, and the carbon tax. 
They don't know what their costs there are going to be. So if 
they had that knowledge, they might hire someone.
    Number two, the access to capital just isn't there. I don't 
care what people are saying on Main Street--I mean, on Wall 
Street--but down on Main Street, it isn't happening. What is 
going on with the local community banks are the FDIC inspectors 
are coming in, looking at loans that are being paid right now--
I mean, no problem, they are not behind--and they are re-
evaluating that property, causing the capital requirements for 
those banks to go up, and they can't make loans.
    And so no matter what the administration says, out in the 
real world they can't borrow money. So without knowing those 
things, they are not going to hire people. I talk to business 
people every day that are struggling to keep the people working 
that they have right now.
    And I will give you an example of our bigger business. 
Eastman Chemical Company, which hires 9,500 people in my 
district, are extremely worried about their go forward costs in 
the carbon tax, so they are not hiring people. They are trying 
to keep their workers working.
    And on OSHA, I would just simply implore you to please not 
make them an organization that is going in with a boot on the 
neck. And let me give you a real quick example in my own 
office. We give our drugs the way at the end of the month to a 
clinic that is a homeless clinic. We put the drugs in a red bag 
instead of a clear bag, and that was an $1,800 fine from OSHA. 
No good deed goes unpunished.
    We didn't have a letter in our file about a protecting 
needle on a needle we do amniocentesis with, which is to draw 
fluid from around the baby. That was a $1,700 fine. I am 
asking, do you have quotas that these people have to meet when 
they come by our offices and to our businesses? That didn't 
protect anybody.
    Now, what BP did, absolutely. I think that probably did. 
But many small businesses have these onerous government 
regulations that they can't meet that add to the cost of 
business. And I don't know whether you see it where you are, 
but I see it every day. I have experienced it. So I will stop 
and let you answer.
    Secretary Solis. Thank you. You raise a very interesting 
point, because what we have seen also the Department of Labor 
is that we have not kept pace with the growth of businesses 
overall in terms of how we are supposed to be monitoring and 
helping to evaluate and provide assistance to small business.
    So in our attempt to hire up more investigators, I don't 
want it to seem or appear that it is just punitive, because 
what we are also trying to do is get at the fact that many of 
our small businesses, many new upstart businesses, many 
immigrant-owned businesses that have also helped to restore our 
economy, need the additional tools and information provided to 
them so they know how to run their business appropriately 
without creating more injuries or fines, and working with them.
    So I think you are going to see a different attempt on our 
part, whether it is Wage and Hour or OSHA, to really work with 
our small businesses, to have partnerships with them and try to 
develop more of a--how could I say--communicative atmosphere.
    That may not have been there in the past, the way that 
would include also the safety and protection of workers, 
because that is first and foremost one of our primary goals is.
    Small business, very important to anything that we do in 
terms of succeeding, providing tax credits to them to hire up 
more or to extend hours for workers, very important proposals, 
and also helping businesses keep their employees on board. When 
you lose an employee for 6 or 12 months, you lose a valuable 
training part of your potential business. It is hard to bring 
that back, so we know the importance of focusing in on efforts 
and programs that might be able to address that.
    Mr. Roe. Thank you.
    Mr. Chairman, is it possible that the secretary could come 
back because, obviously, we have a lot more to discuss? At some 
time, could she be invited back?
    Chairman Miller. We will see what we can do.
    Mr. Roe. Thank you.
    Chairman Miller. Mrs. McCarthy?
    Mrs. McCarthy. Thank you, Mr. Chairman.
    I thank you, Secretary Solis, for being here. Number one, 
let me first say that I certainly as a New York representative 
appreciate the over $700 million that has come into New York 
State. We still have a long way to go. There are no two ways 
about it.
    But I don't think anybody is talking about if we hadn't 
done anything where would the state of the economy be today? 
How many more workers would be actually out of work today? And 
I think it would be something that we would all be trying to 
dig up for a much longer period of time.
    You had mentioned a number of times on health care--I 
happen to think that is certainly an area that is going to 
expand--we see that, you know, obviously, a lot of seniors now 
are starting to age out. We are starting to see constantly that 
a lot more patients want to stay home in their home instead of 
going to a nursing home, which basically ends up certainly 
being less expensive and better for the patient, in my opinion.
    Last week, January 29th, the New York Times ran an article 
that highlighted a Supreme Court case that just came through 
that a home health care aide was denied overtime and time-and-
a-half for her work. Now, spending many years doing homecare 
also and working with nurses' aides, you know, their title by 
law is a companion. These particular nurses' aides are more 
than a companion. They are doing just about everything you 
would be doing in a hospital on the floor. And I am hoping that 
we can work together to really clear up that particular 
wording.
    As we are going to go forward and people will want to go 
into the health care, especially on entry-level, and hopefully 
they will go forward to nursing or other health care jobs, that 
we can work it out. It is just terrible that these people work 
12, sometimes 16 hours a day, and they are not even getting a 
federal wage. I think that is wrong.
    The other thing, too, that I knew--I want to bring this 
in--with the money that came into New York for the multiple 
clean energy grants, something we need to think about. The 
majority of schools in this country are old. They all have flat 
roofs. If you want to bring jobs into clean energy into all of 
our areas and save taxpayers money, we need to think about 
putting solar panels, refitting, retooling our schools. I know 
the average cost of heating a school here in the Northeast is 
anywhere from $15,000 to $20,000 a month. That is a big 
investment that we could put in. Thank you.
    Chairman Miller. Madam Secretary, thank you so much for 
your time and responding to the members of the----
    I am sorry. You have 10 seconds left. Did you want to 
respond to Mrs. McCarthy?
    Secretary Solis. Thank you, Congresswoman McCarthy. I know 
of your outstanding work in the area of the health field arena, 
and I just want to reiterate that we are now going to be 
releasing our $220 million for jobs in health careers, 
something that I know, like you, you understand this is going 
to be a growth area.
    But we need to talk about the protection and safety of the 
individuals who are now employed in this area and underemployed 
and need to make sure that we have protections in the workplace 
for them. So I would be happy to work with you, provide any 
technical assistance that my staff can provide to you on this 
matter. But it is front and center on my agenda.
    Chairman Miller. Secretary, thank you again for your time 
and for responding to the questions of our members. I am sure 
there are members who will want to submit questions to you, as 
you know. If you would respond to those, we would appreciate 
it. Mr. Thompson had a specific couple of examples that he 
would ask that you address, and we would appreciate it if you 
would do that.
    Thank you to the members. I am sorry for those who did not 
get an opportunity, but I think we timed this about right, 
because I understand we are now going to have five votes, and 
the secretary has other commitments.
    So thank you.
    Mr. Kline, did you have anything?
    Mr. Kline. Just to say thank you to the secretary for being 
here today and for addressing our concerns. And I want to add 
my voice to that of Dr. Roe. We would love to have you back, 
and I will keep appealing to the chairman to make sure that 
invitation is always extended. Thank you.
    Chairman Miller. Thank you.
    Without objection, members will have 14 days to submit 
additional materials or questions for the hearing record. And 
the hearing is adjourned. Thank you.
    [The statement of Associated Builders and Contractors, 
submitted by Mr. Kline, follows:]

    Statement for the Record of Associated Builders and Contractors

    Associated Builders and Contractors (ABC) appreciates the 
opportunity to submit the following statement for the official record.
    We would like to thank the Committee Chairman, George Miller and 
Ranking Member, John Kline, as well as the members of the House 
Committee on Education and Labor for holding today's hearing 
``Strengthening the Economy and Improving the Lives of American 
Workers.''
    ABC is a national construction industry trade association 
representing more than 25,000 merit shop contractors, subcontractors, 
materials suppliers and construction-related firms within a network of 
77 chapters throughout the United States and Guam. ABC member 
contractors employ more than 2.5 million skilled construction workers, 
whose training, skills, and experience span all of the twenty-plus 
skilled trades that comprise the construction industry. Moreover, the 
vast majority of our contractor members are classified as small 
businesses. Our diverse membership is bound by a shared commitment to 
the merit shop philosophy in the construction industry. This philosophy 
is based on the principles of full and open competition unfettered by 
the government, nondiscrimination based on labor affiliation, and the 
award of construction contracts to the lowest responsible bidder 
through open and competitive bidding. This process assures that 
taxpayers and consumers will receive the most for their construction 
dollar.
    We would like to take this opportunity to bring to the Committee's 
attention several policies currently supported by the Administration 
that are stifling job growth in the construction industry and harming 
employees of the industry.

Union-Only Project Labor Agreements
    President Obama's Executive Order 13502, signed February 6, 2009, 
encourages federal agencies and recipients of federal assistance to 
attach union-only requirements, known as project labor agreements 
(PLAs), to all construction projects exceeding $25 million. The order 
also repealed the Bush Executive Order 13202, which protected hundreds 
of billions of federal and federally funded construction projects from 
being subject to government mandated union-only PLA requirements since 
2001. This Executive Order effectively forbids the over 85 percent of 
private construction who is not affiliated with organized labor from 
working on federal projects. Projects that are funded by their own tax 
dollars!
    Equal opportunity and open competition in federal contracting is a 
critical issue to consider as the federal government explores various 
solutions, including significant infrastructure spending, to stimulate 
our ailing economy. Congress must ensure federal and federally funded 
infrastructure projects paid for by taxpayers are procured in a manner 
that is free from favoritism and discrimination while efficiently 
spending federal tax dollars. These interests would not be served if 
the Federal government were to require union-only requirements, 
commonly known as union-only PLAs, on federal construction projects.
    A union-only PLA is a contract that requires a construction project 
to be awarded to contractors and subcontractors that agree to: 
recognize unions as the representatives of their employees on that 
jobsite; use the union hiring hall to obtain workers; pay union wages 
and benefits; obtain apprentices through union apprenticeship programs; 
and obey the union's restrictive work rules, job classifications and 
arbitration procedures.
    Construction contracts subject to union-only PLAs almost always are 
awarded exclusively to unionized contractors and their all-union 
workforces. According to the most recent data from the U.S. Department 
of Labor's Bureau of Labor Statistics, only 14.5 percent of America's 
construction workforce belongs to a union. This means union-only PLAs 
would discriminate against more than eight out of 10 construction 
workers who otherwise would be eligible to work on construction 
projects if not for a union-only PLA.
    This discrimination is particularly harmful to women and minority-
owned construction businesses--whose workers traditionally have been 
under-represented in unions, mainly due to artificial and societal 
barriers in union membership and union apprenticeship and training 
programs. In fact, the National Black Chamber of Commerce, Women 
Construction Owners and Executives and National Association of Small 
Disadvantaged Businesses have all come out in opposition to mandating 
PLAs on federal projects.
    In addition, construction projects subject to union-only PLAs 
stifle competition from nonunion contractors and take away opportunity 
from their non-union employees unless they agree to the ``union 
friendly'' and inefficient terms and conditions of a typical PLA. A 
union-only PLA is a contract that requires a construction project to be 
awarded to contractors and subcontractors that agree to: recognize 
unions as the representatives of their employees on that jobsite; use 
the union hiring hall to obtain workers; obtain apprentices through 
union apprenticeship programs; and obey the union's restrictive work 
rules. While non-union contractors are permitted to bid on PLA 
projects, the reality is the contracts subject to PLAs end up being 
awarded almost exclusively to unionized contractors and their all-union 
workforces.
    Moreover, several academic studies by the Beacon Hill Institute 
indicate PLAs increase the cost of school construction between 10 
percent and 20 percent when compared to similar school construction 
projects not subject to a PLA. America can't afford to waste in excess 
of $30 billion in construction spending contained in the stimulus bill 
to reward special interests. Why should we build four schools, bridges, 
hospitals and wind farms for the price of five? That money is better 
served rebuilding America's crumbling infrastructure and putting all 
construction workers, not just union workers, back to work.
    ABC fully supports the ``Government Neutrality in Contracting 
Act,'' (H.R. 983) introduced by Congressman John Sullivan which would 
protect taxpayers and ensure fair and open competition on government 
construction contracts by prohibiting government mandated union-only 
project labor agreements on federal and federally funded construction 
projects. ABC urges members of the Committee to add their names as 
cosponsors to this important piece of legislation.
    It is the duty of those elected to Congress to ensure taxpayer 
funded projects are cost-effective and administered without favoritism 
or discrimination. These interests will not be served under President 
Obama's Executive Order 13502.

Davis-Bacon Act Expansion
    Since the beginning of the 110th Congress we have seen a dramatic 
increase in the expansion of the arcane Davis-Bacon Act into areas of 
law where it has never before been seen. The Davis-Bacon Act is a 
Depression-era wage subsidy law enacted in 1931. In the 21st Century, 
especially in the new competitive global economy, it is essential to 
allow the free market system to determine wages.
    Mandating Davis-Bacon Act prevailing wage requirements adversely 
affects small business access to construction performed under the 
program in which it is attached and inflates the costs of projects at 
the expense of the taxpayer. Moreover, reports consistently indicate 
Davis-Bacon wage rates are inaccurate and vulnerable to fraud.
    Davis-Bacon has a negative impact on equal access to work 
opportunities. It prevents many qualified small and nonunion businesses 
from even bidding on publicly funded projects, because the complexities 
and inefficiencies in the Act make it nearly impossible for them to 
compete. This has a disproportionate impact on minority-owned 
businesses, which tend to be smaller and nonunion companies. The toll 
is real: one study estimates Davis-Bacon reduces the number of minority 
workers in the construction industry by 25,000 each year. In fact, a 
recent study released by The Heritage Foundation reports that by 
suspending the Davis-Bacon Act 160,000 new jobs would be created in the 
construction industry.
    In addition, Davis-Bacon's flaws will cost taxpayers more to 
provide less. Davis-Bacon has been shown to increases public 
construction costs by anywhere from 5 to 38 percent above what the 
project would have cost in the private sector. According to the 
Congressional Budget Office (CBO), the Davis-Bacon Act already costs 
taxpayers more than $9.5 billion over the 2002 to 2011 period relative 
to the 2001 appropriations and $10.5 billion relative to 2001 
appropriations adjusted for inflation. A more recent estimate, from the 
Beacon Hill Institute at Suffolk University in January, suggests Davis-
Bacon costs taxpayers $8.6 billion per year.
    Finally, federal authorities have concluded that Davis-Bacon wage 
rates are inaccurate. A series of audits by outside agencies, as well 
as the Department of Labor's (DOL) own Office of Inspector General 
(OIG), have revealed substantial inaccuracies in Davis-Bacon Act wage 
determinations and suggested that they are vulnerable to fraud. In 
fact, DOL's OIG released three reports highly critical of the wage 
determination program, with one report from 2004 finding errors in 
nearly 100 percent of the wage surveys reviewed. Expanding a wage 
determination process that has been proven to be flawed is unfair to 
the American taxpayer and American businesses.
    Davis-Bacon's wage determination flaws harm the very employees the 
law was intended to protect. Research from The Heritage Foundation 
found that if it were not market forces, Tampa Bay area electricians 
would be ``underpaid'' by 38 percent under DavisBacon's system when 
compared to the more statistically sound wage determination method used 
by the Bureau of Labor Statistics (BLS). Recent academic research found 
that Davis-Bacon wages were substantially lower than BLS figures in 16 
urban areas across the nation.
    Moreover, the ``American Recovery and Reinvestment Act of 2009'' 
(ARRA) took the unprecedented step of requiring Davis-Bacon Act 
prevailing wages to be used on the entire project if $1 or more of ARRA 
funding is used on the project. The inclusion of this mandate has 
created serious confusion on projects funded fully or in part by 
stimulus monies. In fact, some shovel ready projects have become un-
shovel ready due to the Davis-Bacon Act being mandated on the project. 
For example, if a project is bid and the work is set to begin as soon 
as funding is procured and $2,000 or more of project funding comes from 
the ARRA the entire project would have to be re-bid taking into account 
Davis-Bacon wage rates for that project. Thus, a shovel ready project 
would automatically become un-shovel ready because the entire bidding 
process would have to begin from scratch. This flies in the face of the 
intended purpose the ``American Recovery and Reinvestment Act of 
2009'', putting workers back to work immediately. Congress acted 
without taking into account the ramifications of mandating Davis-Bacon 
Act prevailing wages on stimulus funding.
    ABC calls on Congress to reform the Davis-Bacon Act and immediately 
halt its expansion into areas of the law where it has never before been 
used.

Green Jobs Training Funds
    ABC member companies have been leaders in green construction since 
before this terminology came into fashion. In fact, ABC has been at the 
forefront of the green building movement since its inception. ABC 
member SIGAL Construction was a founding member of the U.S. Green 
Building Council (USGBC) as well as one of the authors of the 
Leadership in Energy and Environmental Design (LEED) rating system. ABC 
members continue leading the construction industry by utilizing 
sustainable construction methods and practices. According to 
Engineering News-Record in 2008, 53 of the Top 100 Green Contractors 
were ABC members generating close to $15 billion in revenue with more 
than 2,800 LEED APs on staff.
    ABC chapters and member companies are actively engaged in training 
workers in a wide variety of skilled occupations and are constantly 
striving to keep pace with technology and innovation in order to make 
certain America has the skilled workforce it deserves, and that all 
American workers, regardless of union affiliation, enjoy equal 
opportunity of access to critical job training. However, the continued 
participation of open shop contractors, and the job opportunities for 
over 85 percent of the construction workforce they employ, in the 
booming green building market is threatened by the efforts of many in 
Washington, D.C. to exclude non-union companies and training providers 
from participating in new government funded green jobs training 
programs.
    The Green Jobs Act, enacted as part of the ``Energy Independence 
and Security Act of 2007'' which was signed into law in December 2007, 
establishes National Energy Training Partnership Grants to fund 
training programs targeted at creating an efficient energy and 
renewable energy skilled workforce. Specifically, the Green Jobs Act 
would require any entity applying for these grants to partner with 
organized labor. The reality is that this language would bar the 
numerous open shop training programs from receiving this grant funding.
    Organized labor makes up just 14.5 percent of the private 
construction workforce and likely represents a similar amount of work 
in the green building market. Given the desire to see a continued 
increase in the use of green building and green technology, it seems 
that limiting the ability to participate in green training to such a 
small percentage of the construction industry would make this growth 
difficult. If the green building market is going to continue to expand 
in the coming years as some groups predict, the participation of the 
open shop will be a crucial factor in ensuring there are enough skilled 
workers to meet the demand.
    To that end, ABC, along with many other construction and business 
groups, strongly supports the ``Green Jobs Improvement Act'' (H.R. 
2026) introduced in the U.S. House of Representatives by Congressman 
John Kline which would amend the Workforce Investment Act to allow both 
union and open shop training providers access to the federally funded 
energy efficiency and renewable energy worker training programs. This 
bill would give all workers the opportunity to train in the ever 
increasing field of green construction and would not block certain 
training providers access simply because they choose not to be 
affiliated with organized labor.
    The advances in the technology and skill involved in green 
building, and the benefits of their use, is indeed a welcome trend for 
contractors, skilled workers and the end user. It is our view that the 
most efficient path to encouraging this continued growth of this sector 
is by giving all training providers, regardless of union affiliation, 
access to federal training programs so that the greatest numbers of 
workers can be trained in green jobs. In today's tough economic times, 
especially in the construction industry, Members of Congress have a 
responsibility to provide all workers with training opportunities paid 
for by their tax dollars.
    ABC looks forward to your continued efforts to promote green 
building opportunities for all contractors.

Employee Free Choice Act
    Passage of the misnamed ``Employee Free Choice Act'' would 
effectively rob American workers of their right to a private ballot 
election overseen by the National Labor Relations Board (NLRB) when 
deciding whether or not to join a union. It would replace the secret 
ballot with a scheme called ``card check'' where workers are forced to 
vote in public--inviting coercion, intimidation and abuse in the 
workplace.
    Federal courts have repeatedly ruled that secret ballot elections 
are the preferred method of ascertaining union support from employees. 
In a brief to the Ninth Circuit Court of Appeals, the NLRB stated, 
``Congress and the Supreme Court regard a secret ballot election 
conducted under the Board's auspices as the preferred method for 
resolving representational disputes in the manner that best ensures 
employees free and informed choice.''
    The bill also contains an unconstitutional infringement on a 
private employer's right to contract. It provides that if an employer 
and a union engaged in their first collective bargaining agreement are 
unable to reach agreement within 90 days, then either party may refer 
the dispute to the federal government. The federal government would 
then have the authority to impose binding contract terms on the 
employer, the union and ultimately on the employees that would last two 
years, further denying the employees the right to vote to approve their 
contract. This two year binding contract sets economic terms such as 
wages, benefits, and work rules.
    The key provisions in this legislation represent egregious attempts 
to limit the rights of employees and employers and will severely 
diminish the ability of U.S. business to succeed in our globally 
competitive market. Particularly at a time of economic uncertainty, 
Congress should not enact measures that threaten our economic 
competitiveness. Furthermore, this legislation would have a 
particularly devastating impact on small employers who are the primary 
source for new jobs in our economy.
    The economic hardships facing our nation have acutely impacted the 
construction industry. Our industry has seen historic highs in job 
losses over the last year, with over 53,000 of the 85,000 jobs lost in 
December 2009 coming from our industry, and nearly 1 million jobs lost 
in 2009. The construction industry can not shoulder the additional 
burden this legislation would impose.
    A recent study by Dr. Anne Layne-Farrar, a highly regarded 
economist from the non-partisan firm LECG Consulting, titled ``An 
Empirical Assessment of the Employee Free Choice Act: The Economic 
Implications,'' finds that if this legislation were signed into law it 
would likely increase the unemployment rate and decrease job creation 
substantially. In fact, Dr. Layne-Farrar predicts that the ``Employee 
Free Choice Act'' being signed into law will cost the U.S. economy 
600,000 lost jobs the year after it is enacted. This is not what the 
construction industry needs in this time of massive layoffs and 
economic unrest.
    As the unemployment rate is climbing and construction jobs are 
disappearing, the ``Employee Free Act Choice Act'' will only further 
aggravate the economy and make these trying times worse. For all of 
these reasons, we urge Congress to oppose the misnamed ``Employee Free 
Choice Act'' in all forms.

Defunding of the Office of Labor-Management Standards (OLMS)
    Established in 1959 to protect the rights of American union 
workers, it has been placed on the chopping block, despite its 
successful oversight of organized labor, which has led to a crackdown 
on unscrupulous union leaders.
    OLMS statistics speak volumes about how frequent and widespread 
union corruption has been in recent years. Since 2001 the agency has 
obtained more than 900 convictions for union financial improprieties 
and recovered more than $91.5 million in restitution.
    Despite the agency's successes, in May 2009, Secretary of Labor 
Solis unveiled drastic cuts to the annual budget for OLMS. The 
Department's allocation for OLMS will total $40,557,000--a reduction of 
10 percent (down $4,381,000) from the 2009 level. The $40.5 million 
allocated for OLMS reduces the agency's budget to the lowest level in 
six years.
    At a time when the public and Congress are calling for greater 
transparency and accountability for all institutions, including 
corporations, lobbyists and members of Congress, cutting the budget of 
OLMS will only serve to benefit union bosses at the expense of hard-
working, dues-paying union members.
    Again, thank you for holding today's hearing and we hope that by 
raising these concerns your Committee will work to alleviate the issues 
outlined above so that the construction industry can continue building 
America.
                                 ______
                                 
    [Members' questions submitted and the responses follow:]

      Questions Submitted and Their Responses From Secretary Solis

Rep. Joe Sestak
    1. Madam Secretary, last October I introduced H.R. 3930 which 
extended COBRA Premium Subsidy from the Economic Stimulus bill to June 
of 2010. As you know, Congress followed by passing a two month 
extension of the COBRA Premium Subsidy. As your Department is 
responsible for dispersing the funds for that program, can you please 
update me on how disbursement is proceeding--especially for those 
Americans who temporarily saw their premium subsidy lapse in December? 
We have had serious difficulty locating raw data on the total number of 
beneficiaries from the extended program. Specifically, how many 
Americans have received premium assistance under the extended program 
that would not have received assistance if we had allowed the premium 
to expire at the end of December? Also, does your Department have 
projections on the anticipated number of beneficiaries that would 
receive premium assistance if extended COBRA premiums assistance was 
extended 6 months as my legislation proposes and the House Jobs bill 
proposes?

    Answer: The Department of Labor Employee Benefits Security 
Administration (EBSA) is proud of our role in implementing the ARRA 
COBRA premium subsidy program. Our specific responsibilities are 
discussed below. The COBRA subsidy itself is distributed through a tax 
credit, which is administered by the Department of Treasury/IRS. The 
only public information regarding the numbers of Americans taking 
advantage of the program is provided by the IRS. GAO published a report 
in early February 2010, which states that, ``as of December 26, 2009, 
IRS had received approximately 192,000 returns from employers claiming 
about $803 million in COBRA credits.'' (GAO-10-349: Recovery Act: IRS 
Quickly Implemented Tax Provisions, but Reporting and Enforcement 
Improvements Are Needed, Appendix IV, http://www.gao.gov/new.items/
d10349.pdf). As discussed in the report, these numbers are not final 
yet, and also the number of beneficiaries is not yet available.
    It should be noted that on June 3, 2010, the Secretary of the 
Treasury submitted to Congress an interim report detailing these 
numbers as required by ARRA section 3001(a)(11), which also requires a 
final report.
    The Department of Labor's responsibilities under the COBRA premium 
assistance program include providing an appeals procedure for workers 
whose claims for the subsidy have been denied by their former employer 
or who otherwise need assistance in obtaining the benefit, publishing 
model notices, publishing compliance guidance to assist employers, 
educating workers about the program, and conducting outreach 
activities. EBSA has:
    <bullet> Published model notices, publications, videos, fact 
sheets, posters and other guidance to educate employers and workers 
about the program, most of which are also available in Spanish.
    <bullet> Conducted compliance webcasts and seminars for plan 
sponsors and their service providers.
    <bullet> Launched a dedicated website that as of May 3, 2010 has 
hosted over 2.9 million visitors and has over 64,000 subscribers. This 
website contains educational materials for employers and participants 
(and their families) and provides participants the ability to submit 
their appeals electronically or print out a copy of the application.
    <bullet> As of May 3, 2010, closed over 18,000 appeals through the 
procedure it established for workers whose requests for the premium 
subsidy were denied. Over 99% of these determinations have been issued 
within 15 business days.
    <bullet> As of May 3, 2010, EBSA benefits advisors have responded 
to over 219,000 COBRA subsidy inquiries.
    <bullet> From February 2009 through March 31, 2010, EBSA has 
conducted 1,017 outreach events to educate individuals on the COBRA 
Premium Subsidy that reached 34,341 individuals.

    a. Following up on that question, Madam Secretary, would you 
support extending traditional COBRA coverage for involuntarily 
terminated workers from 18 to 24 months, which was a provision I 
included in my bills H.R. 694 the COBRA Coverage Extension Act of 2009, 
and H.R. 3930 the Extended COBRA Continuation Protection Act of 2009? 
Would you support extending COBRA coverage until the implementation of 
the health insurance exchange, as proposed in the House-passed health 
care reform legislation and championed by my colleague Rep. Susan 
Davis? Would you support extending COBRA for those approaching Medicare 
eligibility?

    Answer: COBRA makes it possible for millions of unemployed workers 
and their families to keep their health benefit coverage. The 
Administration is focused on its efforts to help participants in 
processing claims and supports the extension of the COBRA premium 
subsidy program through the end of this calendar year.
    The Administration has no position on the other proposals to extend 
COBRA eligibility that you have mentioned.

    2. Madam Secretary, as you know, Americans 55 and over now make up 
19 percent of our workforce, and in December 2009 the unemployment rate 
for men aged 55 and over hit an all time high. What efforts are the 
Department undertaking to help older Americans find work during our 
economic recovery?

    Answer: While the unemployment rate is not as high as for some 
other demographic groups, older workers tend to remain unemployed 
longer and have more difficulty in securing reemployment. The 
Department of Labor recognizes the need to address issues related to 
helping older Americans secure employment. Through a network of 
approximately 3,000 One-Stop Career Centers nationwide, Americans 55 
and older are served by One-Stop Career Center programs that provide 
employment, training, and other supportive services. While not all 
programs specifically target older workers, older workers may receive 
services through the Workforce Investment Act of 1998 (WIA) Adult and 
Dislocated Worker programs, Wagner-Peyser, Trade Adjustment Assistance 
Act, Unemployment Insurance and other partner programs.
    The Senior Community Service and Employment Program (SCSEP) 
specifically targets Americans 55 and older. This program was 
established to provide income and training services to low-income 
seniors through part-time, community-service paid training 
opportunities at non-profits or government agencies. Participants are 
paid the highest of the Federal, state, or local minimum wage. To be 
eligible for SCSEP participation, an individual must be unemployed, 55 
years of age or older, and have an income that is no more than 125 
percent of the Federal poverty level. Note that 125 percent of the 
poverty guidelines for a family of one is currently calculated at 
$13,538.
    Congress appropriated this program an additional $225 million in FY 
2010 to provide SCSEP services to thousands of additional unemployed 
low income seniors. The Department obligated this additional funding on 
January 29, 2010 to 40 states and 17 national grantees. This infusion 
of funds is in addition to $120 million in Recovery Act funding awarded 
in February, 2009 and annual Appropriations for this program. The 
Department projects these resources will serve approximately 100,000 
seniors in Program Year (PY) 2009 (July 1, 2009--June 30, 2010), and 
approximately 120,000 in PY 2010 (July 1, 2010--June 30, 2011).
    As part of the Trade Adjustment Assistance program, the 
Reemployment Trade Adjustment Assistance (RTAA) targets workers 50 and 
older. RTAA offers time-limited wage supplements equal to 50% of the 
difference between the current and prior wage rate, up to a $12,000 
maximum over the two-year eligibility period. This approach encourages 
workers who may have a higher reservation wage to return to work and 
serves as a buffer period to help workers adjust to lower wages in new 
industries/jobs. As the economy recovers, these workers' wage rates 
will likely increase.

    3. Madam Secretary, what adjustments will your Department pursue to 
make One-Stop Career Centers more responsive to older workers seeking 
services? Currently, these centers are evaluated based on their 
placement rate as well as the salary the newly placed worker receives 
as compared to their previous salary. As many older workers are looking 
for part-time work, which is likely to result in a lower salary, there 
is currently a disincentive for One-Stop Career Centers to help older 
Americans looking for work.

    Answer: The Department is committed to a public workforce system 
that is responsive to the needs of all job seekers, including older 
workers. Older workers workforce needs range considerably: many are 
employed in full-time jobs and many others prefer part-time employment. 
In 2004, the Department released a Protocol for Serving Older Workers 
that presented a set of action steps that key stakeholders continue to 
use in achieving the goal of connecting older workers to employment and 
trainings services. Since 2004, the number of older workers 
participating in the Workforce Investment Act (WIA) Adult program and 
in the WIA Dislocated Worker program has increased each year. In the 
most recent program year for which we have data (Program Year 2008), 
over 140,000 older workers were served by WIA Adult and Dislocated 
Worker programs, which is an increase from previous program years. As 
we move forward, we hope to further minimize the disincentives 
encountered by the workforce system in serving older workers and other 
hard to serve populations.
    One approach to minimizing disincentives is the use of regression-
based methodology as an alternative to annual incremental increases. 
This method provides a systematic, transparent, and objective method to 
set and administer WIA performance targets. By adjusting or controlling 
for the characteristics of participants served at the state and local 
levels, the regression-adjusted targets encourage workforce system 
providers to more extensively serve populations with significant 
barriers to employment. ETA issued Training and Employment Notice No. 
48-09 on June 14, 2010, entitled: Pilot and Implementation of a 
Regression-based Method for Performance Target Setting for the Public 
Workforce System, to inform the public workforce system about the pilot 
project to test a regression-based method for performance target 
setting at the national, state, and local Workforce Investment Board 
(WIBV) levels for WIA title I programs, which includes WIA Adult and 
Dislocated Worker programs.
Rep. Judy Chu
    1. As Chair of the California's State Board of Equalization, I led 
a task force against the underground economy and I plan on continuing 
the work here on the federal level. A recent report was released called 
``Wage Theft and Workplace Violations in Los Angeles: The Failure of 
Employment and Labor Law for Low-Wage Workers.'' It is a shocking 
report that lends credence to the work our task force was doing to help 
low-wage workers.
    Since you've come on board you've really put labor enforcement 
right on track by hiring over 250 new investigators after significant 
cuts during the Bush Administration. However, one of the public policy 
recommendations from the report suggests that the federal oversight 
move towards a proactive ``investigation-driven'' enforcement in low-
wage industries rather than reacting to complaints.
    Rather than highly-publicized immigration raids, I'd like to see 
strategic, repeated and highly-publicized workplace inspections that 
would discourage employers from abusing their employees.
    It would help people like Rosa, who worked for a hotel in the San 
Fernando Valley as a room cleaner. She was paid $8.00 an hour for a 
forty-hour week, with a company check. No violations were apparent on 
her check stub, but in fact she was required to work much more than 
forty hours a week. She had to come in half an hour before her shift 
officially began to prepare her supply cart, and completing her 
assignments typically required more than eight hours of work. In 
addition, Rosa was a regular victim of tip stealing.
    Rose didn't complain about the tip stealing, but she did ask her 
supervisor why she was not getting paid for all the hours she worked. 
First, they told her that she was not supposed to be paid for her meal 
breaks. But her unpaid time was much more than thirty minutes a day, so 
later she asked about it again. This time the supervisor told her, 
``Don't worry, you don't have to come in to work tomorrow.'' Later she 
figured out she had been fired for daring to complain.
    a. Can you tell me if this type of ``investigation-driven'' 
enforcement is in your 2011 agenda and if you have the resources to 
properly implement it?

    Answer: Over the last several years, as resources diminished, the 
Wage and Hour Division's (WHD) ability to conduct ``directed'' or 
``targeted'' investigations of employers also decreased. In 1992, over 
30 percent of the investigations that WHD conducted were self-
initiated, i.e., ``directed,'' by the agency. In 2008, that percentage 
had dropped to 24 percent as WHD offices struggled to deal with 
increasing complaint backlogs. ``Directed'' investigations are agency-
initiated investigations typically of employers in industries in which 
the data suggest employees are subject to minimum wage and overtime 
violations and are reluctant to complain when their rights are 
violated. The industries include many of those cited in the ``Wage 
Theft and Workplace Violations in Los Angeles: The Failure of 
Employment and Labor Law for Low-Wage Workers''--e.g., garment 
manufacturing, residential construction, janitorial, and the car wash 
industries. Industries with higher risk of violations will vary by 
region. Consequently, in addition to a national focus on the janitorial 
and construction industries, WHD regional and district offices will 
develop similar ``investigation-driven'' enforcement plans in 2011, as 
they did in 2010, to address such industries within their geographic 
jurisdictions.
    With the additional resources provided in the agency's FY 2009 and 
FY 2010 appropriations, WHD has increased its enforcement staff by over 
250 new investigators, bringing the agency back to levels comparable to 
those in the late 1990s. With these resources, WHD expects to conduct 
more ``directed'' investigations in FY 2011 while still maintaining the 
important function of responding to workers who seek our assistance in 
resolving their complaints of wage violations. These directed 
investigations will be full investigations of employers' compliance 
with all the applicable labor standards laws for which WHD has 
responsibility, so that we can both detect and deter violations while 
in the employers' workplaces.

    b. What type of professional development training can you give to 
your current investigators to move in this direction?

    Answer: New WHD investigators complete a Basic I Investigator 
Training, which is an intensive three-week training on the 
investigative process and the application of the Fair Labor Standards 
Act. Prior to this Basic I classroom training, these new investigators 
undergo a comprehensive 12-week pre-training curriculum and put in a 
minimum of three months of on-the-job training. Approximately one year 
after they complete Basic I training, new investigators undergo Basic 
II Investigator Training to develop their skills and knowledge base in 
some of the more complex wage and hour issues and statutes.
    As WHD undertakes initiatives in various low-wage industries, 
investigators will be retrained to identify and address the most common 
types of violations. WHD has already begun retraining its existing 
field staff in the compliance principles of certain statutory programs 
that were infrequently investigated during the last several years, 
including the Davis-Bacon and related Act, the Service Contract Act, 
and Section 14(c) of the Fair Labor Standards Act. WHD has also begun 
training investigators to enforce its newly delegated responsibility 
for the Immigration and Nationality Act's (INA) H-2B program. 
Investigators are also receiving training in the new regulatory 
provisions of the INA's H-2A program. With the wealth of independent 
research on the nature of violations that affect low-wage and 
vulnerable workers in certain industries, WHD investigators will be 
better trained than in the past to identify and remedy violations and 
to secure future compliance from employers found in violation.

    c. What efforts have you taken to target employers who operate in 
the ``underground economy''?

    Answer: In addition to a number of local enforcement initiatives in 
industries such as garment manufacturing and car washes, WHD has 
launched an unprecedented effort to ensure labor law compliance on 
Recovery Act funded projects. WHD is coupling these enforcement 
activities with a public outreach effort to directly reach workers in a 
wide range of occupations.
    In March 2010, the Department launched a national public awareness 
campaign entitled ``We Can Help'' to inform workers about their rights. 
The campaign, in multiple languages, targets worker populations and 
industries in which workers are reluctant to report violations, e.g., 
many of the workers in the ``underground economy.'' The goal of the 
campaign is to reduce the perceived risk of filing a complaint with 
WHD. WHD is using this comprehensive public awareness campaign to 
inform workers and the public at large that WHD is available to assist 
workers with workplace violations, that WHD enforces the applicable 
laws regardless of a worker's immigration status, and that complaints 
are kept confidential to the fullest extent allowable under the law. 
Components of the campaign include the use of television and radio 
Public Service Announcements (PSAs) in English and Spanish; print 
publications, such as posters, banners, displays, booklets and 
bookmarks, billboards; and a workers' rights video for continuous loop 
play in such places as consulate offices, day laborer drop-in centers, 
health clinics, English as a Second Language programs, and employment 
fairs.

    2. The Labor Budget highlights a new focus on individuals wrongly 
classified as independent contractors who are denied access to critical 
benefits and protections that they would be entitled to as a regular 
employee. It generates a substantial loss to the Treasury, Social 
Security, Medicare and Unemployment Insurance trust funds. To address 
this problem the FY 2011 Budget includes a joint Labor-Treasury 
initiative to strengthen and coordinate Federal and State efforts to 
enforce, identify and deter misclassification of employees as 
independent contractors.
    Example in report: In October 2008, a court-appointed official 
awarded more than 200 Federal Express drivers in California $14.4 
million in compensation for their illegal misclassification as 
``independent contractors.'' Prior to their success in court, their 
lack of employee status meant that they had received no benefits, had 
been denied the protection of most employment and labor laws, and had 
been forced to pay out of pocket for job-related expenses such as fuel, 
vehicle maintenance, uniforms, and insurance. Critics argue that the 
new budget initiative could stifle an economic recovery by denying job 
opportunities to millions of self-employed workers, from bicycle 
messengers to freelance journalists to computer technical support. The 
use of independent contractors is pervasive in industries such as 
construction and homebuilding as well as increasingly among high-tech 
firms.
    a. I would like to applaud your efforts in the FY2011 Budget to 
include resources for a joint Labor-Treasury initiative to strengthen 
enforcement, identification and hopefully deter misclassification of 
employees as independent contractors. Why is misclassification so 
important to federal revenue?

    Answer: Employees misclassified as independent contractors do not 
receive the benefits and protections to which they are entitled, and 
employers may evade taxes otherwise due to the Treasury. A number of 
recent studies conducted by the Employment Training Administration 
(ETA), various States, and worker protection organizations suggest that 
independent contractor misclassification--while occurring in many 
industries--is prevalent in several high-risk industries. In an August 
2009 report, the Government Accountability Office (GAO) noted that the 
precise extent of misclassification is unknown, but studies suggest 
that it may affect 10 to 30 percent of firms and result in significant 
tax avoidance.
    Moreover, classification of workers as either employees or 
independent contractors affects how various taxing authorities consider 
the worker's compensation for tax purposes. The impact to the Federal 
revenue stream is different for different tax programs--not every tax 
is affected equally.
    For example, when a worker is misclassified as an independent 
contractor, the net effect for Federal income tax results from that 
reliance on individual filing by independent contractors is less 
reliable than the tax withholding system. The independent contractor is 
required to pay income tax on his or her net income from the business, 
just as an employee pays income tax on his or her wages. Social 
Security and Medicare taxes are similarly impacted. Independent 
contractors are responsible for the entire Social Security tax, whereas 
employees have one-half of the tax withheld, with the employer paying 
the other one half.
    Misclassification has a significant impact on the Unemployment 
Insurance (UI) program. The revenues generated from Federal 
Unemployment Tax Act (FUTA) taxes and state unemployment taxes, both of 
which flow into the Federal Unemployment Trust Fund, are part of the 
Federal unified budget. When a worker is misclassified, both FUTA taxes 
and state unemployment taxes are not collected because the worker is 
considered self-employed and generally ineligible to receive 
unemployment insurance benefits.
    For workers earning at least $7,000 per year, each 
misclassification costs the Federal government $56.00 in lost FUTA 
taxes annually. The impact on state UI revenues is more difficult to 
determine because states do not have uniform tax structures. However, 
we estimate that approximately $225 per worker is lost from state 
unemployment tax revenues that flow into the Federal Unemployment Trust 
Fund accounts. Therefore, for every one million workers misclassified 
as independent contractors, the Federal Unemployment Trust Fund loses 
$56,000,000 in FUTA taxes and an estimated $225,000,000 in state 
unemployment taxes, for a total of $281,000,000.
    The most important loss to the federal revenue stream, for all 
taxes, is when the worker is not reported at all. Such workers are 
typically paid in cash, with the employer failing to report the 
compensation, either as wages or as a payment for services to an 
independent contractor. These workers are vulnerable to abusive and 
predatory employment practices and the federal government receives no 
revenue for income tax, Social Security/Medicare taxes, or FUTA.

    b. In California, more than 200 FedEx drivers were misclassified as 
independent contractors. What kinds of worker protections were the 
FedEx drivers and others misclassified workers deprived of?

    Answer: Misclassified workers in general lose out on essential 
worker protections that include unemployment insurance and the rights 
afforded to employees under the Fair Labor Standards Act (FLSA), such 
as receiving the minimum wage, overtime protections, and others. In 
addition, if the employer prevails in classifying their workers as 
independent contractors, the workers are no longer eligible to receive 
unemployment insurance benefits because their services are classified 
as self-employment, which is not covered under unemployment insurance 
laws.
    Beyond unemployment insurance and worker protections under FLSA, 
independent contractors are responsible for their own health insurance, 
retirement and workers' compensation, in addition to paying the full 
15.3% Federal Insurance Contributions Act (FICA) tax and paying their 
estimated withholding taxes. Although independent contractors may not 
technically ``lose'' health insurance or retirement benefits, as a 
practical matter they are less likely to be able to afford to pay for 
them, depriving them of access to adequate health insurance or 
retirement plans.

    3. There are 650,000 farm workers in California who face death and 
illness from toiling in stifling summer heat. One such worker, Asuncion 
Valdivia, had been picking grapes in 110 degree heat during a 10-hour 
shift, when he collapsed and lost consciousness. After Asuncion 
regained consciousness his boss canceled the ambulance, instead leaving 
his son to drive him to the hospital. On the way, the son had to watch 
his father die at the age of 53 from a preventable heat illness.
    During my time at the California State Assembly, I authored and saw 
the Governor sign into law, the first and only heat safety regulations 
for farm workers in the nation. Now, in California, farms are required 
to provide water, access to shade and training for their employees to 
learn how to prevent heat illness.
    Yet since the law was implemented, at least 11 farm workers have 
died from heat-related illness; and this is in a state with mandatory 
regulations. There are hundreds of thousands more around the country in 
other states, who get no protection from the heat and who risk serious 
illness and even death every day they go to work in the summer.
    a. What initiatives are you spearheading to better protect farm 
workers from heat illness and other health risks on the job?

    Answer: The agricultural industry is one of the most dangerous and 
difficult industries for workers--particularly those who harvest crops 
by hand. One of my key strategic priorities is to ensure that 
workplaces are safe and healthy, particularly in high-risk industries 
like agriculture. The most effective tool that we have to ensure that 
farmworkers are employed in safe and healthy environments is a targeted 
enforcement program and adequate regulatory protections.
    I am pleased that we successfully strengthened the protections for 
many farmworkers by finalizing new regulations that give the WHD more 
tools to enforce standards--not just on behalf of H-2A workers--but on 
behalf of U.S. workers who are employed in corresponding employment 
situations. These new rules:
    <bullet> Extend H-2A program benefits to workers in ``corresponding 
employment'' (i.e., other workers employed by an H-2A employer in any 
work included in the job order and any work performed by the H-2A 
workers) to ensure that similarly employed U.S. workers are not 
adversely impacted due to the use of foreign workers.
    <bullet> Reinstate the requirement that the State Workforce 
Agencies inspect and approve employer-provided housing before the 
Department issues an H-2A labor certification.
    <bullet> Require that all employer-provided transportation meet at 
a minimum, Federal standards for vehicle safety, vehicle insurance and 
driver licensure standards applied to other agricultural workers.
    Throughout 2010 and 2011, WHD will be conducting random 
investigations of H-2A certified employers to ensure that they are in 
compliance with these new rules, as well as with all other agricultural 
worker standards that may apply, including those standards related to 
housing, transportation, and requirements regarding the provision of 
potable drinking water, toilets, and hand-washing facilities (in States 
in which WHD has enforcement authority under the Occupational Safety 
and Health Act)--all of which directly affect the safety and health of 
farmworkers.
    With respect to heat-related illnesses in particular, WHD will 
continue to work with States and other community organizations to 
distribute its heat stroke information materials as one step towards 
preventing the incidence of heat stroke in the fields.
    Additionally, the Department's Occupational Safety and Health 
Administration (OSHA) is actively involved in protecting workers from 
work-related heat induced illnesses or injuries. While enforcement of 
the standards for field sanitation and labor camps, including drinking 
water and ventilation requirements, has been delegated to the Wage Hour 
Division, OSHA offers several guidance resources related to heat stress 
that farm workers can access.
    In particular, OSHA has developed heat stress quick cards available 
in Spanish and English (OSHA Publication 3154), Fact Sheets (DSTM 9-
2005), a publication titled, ``Protecting Yourself from the Sun,'' and 
additional outreach materials that can be found on OSHA's web page at 
http://www.osha.gov/SLTC/heatstress/index.html. OSHA has also focused 
on heat stress in its summer outreach to young workers who often work 
outdoors.
    OSHA also recently organized a conference on health and safety for 
Latino workers in Houston, TX. Over 1,000 workers, community 
organization representatives, labor union members, business leaders and 
OSHA staff attended the conference and learned about workers rights 
under OSHA, the hazards they face, training techniques and how to 
communicate with Latino workers.

    b. How can the federal government work more closely with farmers 
and states to ensure that no one else has to make the same sacrifice 
that Mr. Valdivia did just to bring home a paycheck?

    Answer: WHD has relationships with various agricultural 
associations, such as the Western Growers Association, through which 
the agency provides general compliance information. The agency also 
works closely with the State monitor advocates to promote compliance in 
the fields and address issues that affect farmworkers. These 
relationships and others, such as those with various Mexican 
Consulates, provide avenues for distributing safety-related compliance 
information. As WHD engages in stakeholder consultations on its 
strategic goals and priorities, it will seek recommendations for other 
ways in which the public's awareness of these important issues can be 
heightened.
Rep. Phil Hare
    1. Madam Secretary, I am grateful that the Obama Administration has 
prioritized ``job creation'' efforts for 2010. Outside of providing/
administering the critical safety nets of Unemployment Insurance and 
the COBRA benefit subsidy, what is your department doing specifically 
to spur job creation across this nation?
    a. Can you tell me what is being done throughout many of our hard-
hit rural areas?

    Answer: Creating jobs throughout the country is vital to our 
economic recovery, including jobs in rural areas. Although job training 
is not equivalent to job creation, it is a necessary component that 
helps ensure American workers have the skills and resources necessary 
to obtain new jobs in high growth and viable industries. This 
combination of job creation and job training promotes and sustains both 
immediate and long-term economic growth. To ensure sustainable job 
growth, the Department of Labor recognizes the importance of helping 
employers through the public workforce investment system access 
customized job training services and the Work Opportunity Tax Credit.
    As you know, February marked the one year anniversary of the 
passage of the American Recovery and Reinvestment (Recovery Act). The 
Department of Labor has used Recovery Act resources to assist workers 
and their families during these challenging economic times and to allow 
the One-Stop system to provide career counseling, training, and other 
work related services to a record number of individuals. Across the 
country, participation levels in WIA Adult and Youth programs were up 
approximately 40 percent (1,907,300) and the WIA Dislocated Worker 
participation levels were up over 80 percent (436,500) for the four-
quarter period ending March 2010, over the four-quarter period ending 
March 2009. Under these programs alone, the public workforce system has 
served nearly 2 million more individuals this year compared to last 
year with funding from the Recovery Act and regular WIA formula funds, 
resulting in a total over 7 million participants being served by these 
programs.
    The number of WIA Adult and Dislocated Worker participants 
receiving training services has increased significantly. Comparing the 
four-quarter period ending March 2010 to the four-quarter period en 
ding March 2009, the number of WIA Adult participants that received 
training services increased from 209,580 to 325,609. This represents an 
increase of 55 percent. Similarly, the number of WIA Dislocated Worker 
participants that received training services increased from 124,243 to 
241,596 during the same time period, an increase of 94 percent.
    Within the $400 million provided for Wagner-Peyser Employment 
Services, the Recovery Act also provided $250 million in new 
Reemployment Service grants to states, which are used to reconnect 
Unemployment Insurance (UI) recipients to workforce and training 
opportunities. Leveraging these funds, the Department was able to serve 
nearly four million additional individuals. The Recovery Act also 
provided $120 million in SCSEP funding for the Department to serve 
additional unemployed low-income seniors.
    The Department of Labor is keenly aware of the particular needs of 
rural communities during these challenging economic times. Both formula 
funds and competitive grant opportunities, such as the $750 million 
Recovery Act-funded initiative to support training, recruitment, 
retention and career pathways in clean energy jobs, health care and 
other emerging industries training, are available to rural communities. 
Examples of how these funds are supporting rural areas can be found in 
the Department's experiences with the Recovery Act-funded summer youth 
work experience program.
    The Department of Labor invested Recovery Act funds to provide 
subsidized work opportunities to nearly 320,000 low-income youth during 
the summer of 2009. These examples of innovative summer work 
experiences for youth in occupations such as forestry, weatherization, 
carpentry, health care, and water conservation in rural areas include:
    <bullet> Dunkirk, New York: Last summer 90 youth from rural Western 
New York were enrolled in Chautauqua County Area summer employment 
opportunities, which included two projects, focused on 
intergenerational learning opportunities. The Youth Adult Advancement 
Initiative Adult Day Care program provided youth the opportunity to 
work one-on-one with senior citizens and The Youth Adult Advancement 
Initiative East Side YMCA program allowed summer youth participants to 
be in charge, under the supervision of an adult supervisor, of 4-6 
children up to the age of 13, participating in community center 
programs.
    <bullet> Merced County, California: The County provided green job 
opportunities for youth working with the County's Water and Water 
Treatment Authority. Youth were involved in installation of water 
metering devices in rural residential areas and educated local 
residents on the importance of water conservation. Youth also gained 
work experience related to digging and installing meters as well as 
with computer systems related to water treatment processes.
    <bullet> Odessa, Texas: This rural area placed a total of 436 youth 
in project areas such as Youth Entrepreneurship, Medical and Allied 
Health Careers, Certified Nursing Assistant (CNA), building green and 
sustainable communities, in a ``Youth Tutoring Youth'' program, and 
leadership training.
    <bullet> Southeastern, Oklahoma: The Southeast Oklahoma Summer 
Employment Opportunities had 225 youth working 40 hours per week. The 
local area piloted two programs that resulted in certificates in either 
CNA/HHA or Carpentry/Weatherization.
    Additionally, the Department has awarded National Emergency Grants 
(NEG) to regions that include dislocated workers in rural areas. A 
couple of examples include:
    <bullet> Illinois--A NEG was awarded to provide assistance to 
workers affected by permanent closures and mass layoffs that impacted 
18 of the State's 26 local workforce investment areas. The project 
serves dislocated workers from 31 companies including workers in rural 
Southern Illinois.
    <bullet> Kansas--A NEG was awarded to serve workers affected by 
layoffs from multiple companies in south central Kansas. This NEG is 
providing services to former employees of four aviation manufacturers; 
Boeing, Bombardier Aerospace, Cessna, and Hawker Beechcraft 
Corporation. Participants are from urban, suburban, and rural areas.

    2. I am of the understanding that the Obama Administration and the 
Department of Labor are in favor of seeing the Employee Free Choice Act 
become the law of the land. As you know, the House passed this bill in 
its current form in the 110th Congress and has the support to do it 
again. Can you tell me what you and DOL are doing to push our friends 
in the Senate to pass EFCA?

    Answer: As I stated in my testimony before the Committee, the Obama 
Administration and I continue to strongly support the Employee Free 
Choice Act. I am committed to working with the rest of the 
Administration to build support for it. Strong unions are a key to a 
strong economy. Union membership is the surest path to a secure middle 
class job.
    I know from personal experience that union jobs are good jobs, pay 
higher wages, and provide flexibility and benefits like paid leave, 
child care, education assistance, and retirement security. The Employee 
Free Choice Act would ensure that workers have a free and fair choice 
to have union representation if they want it, toughen penalties against 
employers that break the law and violate workers' rights, and help 
workers and employers reach a first contract in a reasonable period of 
time and bring an end to costly and contentious delays. I look forward 
to working with the Committee and our colleagues in the Senate to pass 
this important legislation.

    3. As the ``new Sheriff in town'' what new powers and tools are you 
giving your deputies in OSHA and Wage & Hour Division to ramp up their 
enforcement efforts to deal with the widespread lawlessness practiced 
by some shameless employers?

    Answer: The vision of the Department of Labor is ``Good Jobs for 
Everyone.'' I am committed to refocusing the Department's worker 
protection agencies, like the Wage and Hour Division and the 
Occupational Safety and Health Administration on stronger enforcement 
of our nation's labor laws.
    With the additional resources provided in the agency's FY 2009 and 
FY 2010 appropriations, WHD has increased its enforcement staff by over 
250 new investigators, bringing the agency back to levels comparable to 
those in the late 1990s. The FY 2011 Presidents Budget request will 
allow the agency to hire 90 additional enforcement staff. This increase 
in WHD enforcement personnel will, in itself, provide the WHD with the 
ability to target for investigation those industries in which 
violations are most likely to occur. Directed investigations in low-
wage industries--where the most vulnerable workers are employed--enable 
WHD to detect, to remedy, and to deter violations.
    The Department has also launched a national public awareness 
campaign entitled ``We Can Help'' to inform workers about their rights. 
The campaign, in multiple languages, targets worker populations and 
industries in which workers are reluctant to report violations. The 
goal of the campaign is to reduce the perceived risk of filing a 
complaint with WHD.
    WHD will also begin evaluating compliance levels in industries and 
program areas by conducting baseline investigation-based compliance 
surveys. These surveys, in addition to providing measures of 
compliance, inform WHD on the likely causes of violations and point to 
strategies for addressing high violations rates on an industry-wide 
scale.
    Finally, new statutory and regulatory authority for imposing 
penalties, such as increased penalties for child labor violations that 
cause the death or serious injury of a child and WHD's new independent 
debarment authority in the final H-2A regulations, will enable WHD to 
promote future compliance. While these and other new initiatives, 
tools, and authorities are important, the key to ensuring future 
compliance and deterring violations is the effective use of existing 
penalty and enforcement authorities.
    During FY 2010, OSHA will be hiring over 100 new inspectors, adding 
staff to our whistleblower and standard development programs, and 
adding 20 FTE for standard setting. Our FY 2011 budget proposal builds 
upon these increases.
    Another tool that I have asked OSHA to look at is what can be done 
administratively to force employers to take the safety and health of 
their employees more seriously. For example, OSHA recently announced an 
initiative to implement long-overdue administrative modifications to 
its penalty formulas, which have not been adjusted for over two 
decades. These modifications will have the effect of raising OSHA 
penalties while maintaining the policy of reducing penalties for small 
employers and those acting in good faith. For too long, some 
unscrupulous employers have viewed paying OSHA's low penalties as the 
cost of doing business and have done nothing to make their workplaces 
safer.
    Coupled with penalty restructuring, OSHA also plans to work with 
the Department of Justice to increase the effectiveness of the OSH 
Act's criminal provisions. Currently we are cross-training agency 
personnel and looking closely at all cases that meet the criminal 
enforcement criteria. OSHA is exploring expanding these efforts.
    The Agency can only do so much within the constraints of the 
current Occupational Safety and Health Act (OSH Act). Therefore, the 
Department strongly supports the Protecting America's Workers Act 
(PAWA), which would provide OSHA with the authority and tools to more 
aggressively protect workers. These statutory changes combined with 
OSHA's administrative efforts will go a long way in dealing with the 
indifference to safety and health demonstrated by some employers.

    4. Outside of the new additional staff that you have taken on in an 
effort to ramp up the much needed enforcement powers of your agency--
what new tools do you have at your disposal to overcome the lack of 
effective deterrence in the minds of so many employers who take their 
chances on either not getting caught or worse, simply paying little or 
no penalty if they are caught?

    Answer: There are several strategies by which WHD can affect 
compliance in industries and among employers. While these strategies 
may not necessarily be ``new tools,'' many have not been utilized to 
their greatest potential. For example, WHD is developing data on the 
prevalence of violations within industries and will use that data to 
heighten public awareness of those industries with high rates of 
violations and particularly egregious violation. I believe that kind of 
attention will help deter violations much as the attention to the 
garment industry in the 1990s helped regulators and other enforcement 
authorities address the compliance problems in that industry. Working 
with advocacy organizations and community groups will help WHD raise 
public awareness of violations that may be occurring within local 
communities.
    With additional enforcement resources, WHD will also be better able 
to pursue an enforcement strategy against employers and corporations 
that fail to take responsibility for compliance. The increased 
potential of litigation will add heft to the imposition of civil money 
penalties.
    Other underutilized tools at the agency's disposal include the use 
of the ``hot goods'' provisions of the Fair Labor Standards Act, the 
use of compliance agreements that establish specific steps for ensuring 
compliance, and the imposition of back wage liabilities to joint 
employers that may have avoided such responsibilities in the past. 
Finally, as WHD examines its regulatory agenda, it will have an 
opportunity to determine if additional authorities, similar to the 
recently added debarment authority in the H-2A program, will promote 
future compliance.
    The Administration supports the Protecting America's Workers Act 
(PAWA), which would make meaningful and substantial statutory changes 
to OSHA's penalty structure and enforcement program, providing the 
Agency with better tools to more aggressively go after recalcitrant 
employers. Additionally, in April, OSHA announced a new initiative to 
implement administrative modifications to the Agency's penalty 
formulas, which will have the effect of raising OSHA penalties to 
ensure that employers view penalties as a greater deterrent against 
violating occupational safety and health standards and regulations. 
Revisions to OSHA's penalty calculation system will serve to impose 
penalties that are more consistent with the seriousness of the 
violation and that also act as effective deterrents to the penalized 
employer and others.
    Also in April, OSHA announced the new Severe Violators Enforcement 
Program (SVEP), another critical tool that will help the Agency improve 
its ability to deter safety and health violations. The SVEP, which 
replaces OSHA's existing Enhanced Enforcement Program (EEP), is 
intended to focus increased enforcement attention and resources on 
employers who have demonstrated indifference to their obligations under 
the Occupational Safety and Health (OSH) Act. In particular, the SVEP 
targets the most egregious and persistent violators who have willful, 
repeated, or failure-to-abate violations in one or more of the 
following circumstances: (1) a fatality or catastrophe situation; (2) 
in industry operations or processes that expose employees to the most 
severe occupational hazards and those identified as ``High-Emphasis 
Hazards''; (3) exposing employees to hazards related to the potential 
release of a highly hazardous chemical; or (4) all egregious 
enforcement actions.
    Under OSHA's definition, employers that behave in a way that 
indicates they may be indifferent to their legal obligations and 
thereby endanger their workers would become an SVEP case. The SVEP 
actions, consisting of more inspections, public notification, and other 
measures, are intended to increase attention on the correction of the 
hazards or recordkeeping deficiencies found in these workplaces and, 
where appropriate, in other worksites of the same employer where 
similar hazards and deficiencies are present.

    5. Some of these abusive employers are huge corporations, not small 
businesses. What extra efforts can you take to deal with these 
irresponsible and negligent labor law violators--especially when, in 
some cases, they are also the recipients of millions or billions of tax 
dollars as government contractors?

    Answer: Companies should not be allowed to enrich themselves 
through the government's procurement practices when they regularly and 
consistently violate the most basic labor standards provisions. As part 
of its Recovery Act program, WHD is actively engaged in conducting 
investigations of employers performing government construction and 
service contracts. The agency will pursue debarment action against 
government contractors that meet the statutory and regulatory criteria 
for debarment.
    In addition, EBSA is actively investigating employers performing 
government construction and service contracts who fail to pay fringe 
benefits such as retirement and health benefits to employees, as 
required by law under the Davis Bacon and Service Contract Acts.
    OSHA continues to do everything within its statutory authority to 
deal with irresponsible employers. For example, OSHA is increasing the 
use of Corporate-Wide Settlement Agreements (CSAs), which address 
safety and/or health hazards that exist at more than one location of a 
given employer. The Directive implementing the use of CSAs is currently 
being revised. In revising its CSA Directive, OSHA will expand the use 
of this enforcement tool by proactively encouraging these settlements 
with smaller multi-site employers, and in lower penalty cases. Under 
existing policy, only an employer can propose establishing a settlement 
agreement on a corporate-wide basis; under the new policy, OSHA will be 
permitted to initiate the use of these agreements.
    Additionally, the Protecting America's Workers Act (PAWA), combined 
with OSHA's administrative actions to adjust its penalty formulas would 
allow the issuance of higher penalties against these abusive employers, 
which we believe will have a greater deterrent effect.
    OFCCP has embarked on an initiative to return to 2001 staffing 
levels, which will allow OFCCP to broaden its enforcement efforts, 
focus on identifying and resolving both individual and systemic 
discrimination, and conduct ARRA-related compliance evaluations on 
federal contractors. OFCCP will focus its attention on a broad range of 
issues that arise in individual cases, including harassment, 
retaliation, termination, and failure to promote. Since federal 
contractors are obligated to self-audit and correct identified 
problems, OFCCP will step up monitoring of this element of contractor 
compliance. As part of OFCCP's enforcement of Executive Order 11246, 
Equal Employment Opportunity, a renewed emphasis on conducting 
construction reviews is planned.
    In addition to increasing staff levels, OFCCP has an aggressive 
regulatory agenda that proposes to strengthen enforcement under 
Executive Order 11246; Section 503 of the Rehabilitation Act of 1973, 
as amended; and the Vietnam Era Veterans' Readjustment Assistance Act 
of 1974, as amended. These authorities prohibit Federal contractors and 
subcontractors from discriminating on the basis of race, color, 
religion, sex, national origin, disability, and protected veteran 
status. They also require Federal contractors and subcontractors to 
take affirmative action to ensure equal employment opportunity in their 
employment processes.
Rep. John Kline
    1. Last month, you called for passage of H.R. 1409, the so-called 
``Employee Free Choice Act,'' in response to data released by the 
Bureau of Labor Statistics showing that for the first time in history, 
more union members work for the federal, state, and local governments 
than in the private section. A detailed study by economist Dr. Anne 
Layne-Farrar concludes that were this bill to become law, every three 
percentage points gained in union membership through card check would 
result in a one percentage point rise in the unemployment rate the 
following year. The study further concludes that the unionization of 
1.5 million existing jobs under EFCA in its first year would lead to 
the loss of 600,000 jobs by the following year.
    Given these facts, how can the Obama Administration be supportive 
of a bill that has been shown to be a job-killer, and how can the 
Administration favor increasing unionization where that is shown to 
result in job loss?

    Answer: I do not agree with Dr. Layne-Farrar's conclusion that 
passage of the Employee Free Choice Act would result in higher 
unemployment rates. Dr. Layne-Farrar's analysis ignores the fact that 
during the 1950's when our country experienced very high union density, 
we also experienced low unemployment. Well-respected economists, such 
as Lawrence Mishel, president of the Economic Policy Institute, have 
questioned the validity of Dr. Layne-Farrar's methodology and 
conclusions.
    The economic crisis is threatening the continued existence of the 
middle class in the American economy. Our national economy will fully 
recover only when the middle class is stable and strong. Strong unions 
are a key to a strong economy. Union membership is the surest path to a 
secure middle class job. Union jobs are good jobs. They pay higher 
wages and provide flexibility and benefits like paid leave, childcare, 
education assistance, and pension security. That's why the Obama 
Administration and I support the Employee Free Choice Act.

    2. The Administration's health care reform bill contains numerous 
provisions impacting the Employee Retirement and Income Security Act 
(ERISA), which provides the foundation for employer-sponsored health 
benefits covering more than 160 million people. Has the Department done 
any analysis of how the new mandates on ERISA-based plans contained in 
this legislation would affect existing ERISA-governed plans?

    Answer: While the Department has not conducted this analysis, 
according to the Congressional Budget Office, individuals who are 
covered by employer-sponsored health plans will likely see lower 
premiums under health reform. Reform will lower premiums by reducing 
administrative costs, increasing competition between insurance 
companies and creating a larger pool of insured Americans. The new 
protections and benefits provided by the market reforms included in 
health reform will strengthen coverage for participants. For example, 
information explaining plan benefits will be required to be simple and 
clear, and participants will not be subject to lifetime limits.
    On May 10, the Department of Labor, HHS and the Treasury issued the 
first set of regulations as a result of the health care bill's 
enactment. These regulations implement the requirement that group 
health plans providing dependent coverage of children make such 
coverage available until age 26. This requirement applies to existing 
plans. In connection with these regulations, the Departments conducted 
an analysis of the economic impact of this requirement. As the 
Departments issue regulations on other provisions of the Affordable 
Care Act, they will include economic impact analyses.
    Has the Department done any analysis as to the number of 
individuals currently receiving health coverage under an ERISA-governed 
plan who may lose their existing coverage?

    Answer: The Affordable Care Act (ACA) will make available more high 
quality, affordable insurance options. We believe that more small 
employers in particular will be able to offer high quality insurance 
than would be the case absent reform. It also is possible that some 
employers and employees will choose to move from their current 
insurance arrangements to new arrangements that deliver better value. 
ACA will strengthen the entire system, including employment based 
insurance.

    3. There is little dispute that ERISA has helped tens of millions 
of employees and their families secure high quality, affordable 
coverage from employer-sponsored group health plans. The 
Administration's health care reform proposal jeopardizes the viability 
of this structure by imposing new mandated benefits, administrative 
requirements, and taxes on these plans. Some have commented that under 
the Administration's proposal, ERISA would be sufficiently weakened to 
permit state and local governments to enact their own health care 
reform plans, which could entail new taxes and mandates on ERISA-
governed group health plans.
    In light of these facts, what is the Department's position on 
proposals that would weaken ERISA preemption? If ERISA group health 
plans were required to comply with multiple state and local laws, would 
that not make coverage more expensive for beneficiaries and ultimately 
increase the number of uninsured workers?

    Answer: The Affordable Care Act (ACA) does not weaken ERISA. Under 
ACA employers can continue to offer insurance under nationally uniform 
rules. ACA will dramatically reduce the number of uninsured Americans.

    4. The City of San Francisco adopted a law that taxes local 
businesses to help pay for its ``Health Access Program'' for uninsured 
residents. This law was challenged by the Golden Gate Restaurant 
Association on the basis that ERISA preempted the law. Although the 
District Court ruled that ERISA preempted the local law, the Ninth 
Circuit Court of Appeals reversed, and the case is currently on appeal 
before the U.S. Supreme Court. The Department of Justice previously 
filed a brief in support of the Restaurant Association and supportive 
of ERISA preemption.
    Will the Department of Labor take a similar position and support 
the position of the Department of Justice in court, so as to protect 
the ERISA structure and provide certainty to those who provide and 
receive benefits under that structure?

    Answer: The Supreme Court requested the views of the United States 
on the issues presented by this case. On May 28, 2010, the government 
filed an amicus brief suggesting that, in light of the enactment of the 
Affordable Care Act, the Court should not grant certiorari. In the 
brief, the government takes the view that there is little reason to 
believe that additional state and local governments will seek to create 
programs like San Francisco's.

    5. Mental health parity legislation was enacted in October 2008 and 
in most cases, the law became effective on January 1, 2010. However, 
regulations for this important change in the law were only published 
this month in the Federal Register (14 months after the legislation was 
enacted), so most employers and health plan sponsors had to put their 
2010 health plans in place without knowing how the provisions were 
going to be interpreted by the three federal agencies which have 
jurisdiction over these requirements.
    The preamble to new rules states that you will consider ``good 
faith'' efforts by employers and health plans to comply with the change 
in the law in the absence of your regulations. That is a helpful 
statement, but it will not prevent employers or health plans from being 
subject to litigation if a plan participant decides to bring an action 
against a plan alleging it has not complied with the new law.
    What steps is the Department taking to ensure that future 
regulations or guidance are provided much sooner than the effective 
date set by Congress?

    Answer: The Department shares your concerns regarding this very 
important issue and works very diligently to try to issue timely 
regulations and other interpretive guidance. In the health care field, 
the Department is looking to improve our effectiveness and that is why 
we have included in our budget request a modest but necessary increase 
in funding to support our Health Plan Standards Office in providing 
more timely regulations and guidance. The Department would greatly 
appreciate your support in this regard.

    6. The Genetic Information Nondiscrimination Act (GINA) was enacted 
in May 2008 and it directed the agencies of jurisdiction ((Department 
of Labor, Department of Health and Human Services and the Department of 
Treasury) to issue regulations by May 21, 2009. The agencies missed 
this deadline by five months. As a result, employers and insurers had 
to make decisions about their plan design without guidance interpreting 
the new statutory regime. When the agencies did issue interim final 
regulations, many plans' plan year was already underway or they were 
in, or entering, fall annual open enrollment periods for their 2010 
plan years.
    Given this timing, what are you views regarding providing a ``good 
faith'' enforcement policy for GINA compliance, similar to that 
included in the MHP regulations?

    Answer: This is another very important issue, and the Department 
appreciates your interest. As you know, the GINA regulations were 
issued jointly by the Departments of Labor, HHS, and the Treasury. Any 
enforcement policy guidance would need to be similarly coordinated 
among the three Departments. The Labor Department is aware of the 
compliance concerns you raise and will work with HHS and Treasury to 
explore possibilities on this issue.

    7. In early 2009, DOL announced it would add 250 new investigators 
to ``refocus the agency on [wage and hour] enforcement 
responsibilities.''
    Are those investigators in place now? What effects have those 
additional investigators have had on the Wage and Hour Division's 
enforcement statistics for 2009? According to your written testimony, 
the Wage and Hour Division has recovered more than $172.6 million in 
back wages for approximately 220,000 workers. How does that compare to 
the 2008 figure?

    Answer: The Wage and Hour Division began FY 2009 (in October 2009) 
with the lowest number of investigators since FY 1973. The authority to 
hire new investigators came with passage of the FY 2009 appropriation 
in March 2009--six months into the fiscal year. In April, WHD undertook 
an ambitious and aggressive hiring plan to recruit and bring on-board 
250 new investigators. By October 2009, most of the new investigators 
were on-board and reported to their respective offices.
    These new investigators must complete a comprehensive 12-week pre-
training curriculum and put in a minimum of three months of on-the-job 
training prior to formal classroom training. On February 11, 2010, 107 
new Wage and Hour investigators completed their Basic I Investigator 
Training. The graduates completed an intensive three-week training on 
the investigative process and application of the Fair Labor Standards 
Act. Approximately a year after they complete their Basic I training, 
these new investigators undergo Basic II Investigator Training to 
develop their skills and knowledge base in some of the more complex 
wage and hour issues and statutes. These new investigators will not 
become fully productive until about their third year on the job. WHD's 
next Basic I class of over 100 investigators began the last week of 
February 2010.
    As one can readily determine, the newly hired investigators could 
not have contributed to WHD's FY 2009 statistics. In fact, new 
investigators spend their first several months on the job shadowing 
senior investigators so that they can learn techniques for interviewing 
employers and employees, reviewing records and otherwise investigating 
compliance. This on-the-job training, while critical to new 
investigators, has the effect of reducing the normal productivity of 
the agency's senior investigative staff. As a result, WHD would expect 
a decline in its productivity measures as it saw in FY 2009. During FY 
2009, WHD collected over $172.6 million in back wages compared to FY 
2008 during which the agency collected $185 million in back wages. In 
FY 2009, WHD collected back wages for approximately 220,000 workers 
compared to approximately 229,000 workers in FY 2008. As of mid-year 
2010, WHD had collected $76,727,203 on behalf of 91,347 workers.

    8. The President's budget calls for the establishment of a $50 
million State Paid Leave Fund within DOL to provide competitive grants 
to states that choose to launch paid-leave programs.
    Under what legislative authority would this State Paid Leave Fund 
be created and where would the $50 million come from to create such a 
fund? More importantly, how does assisting states potentially impose 
new taxes help in creating more jobs? Won't this make it more expensive 
to for employers to hire more employees?

    Answer: The authority necessary to create the new program is 
contained in the language proposed in the President's FY 2011 Budget. 
The $50 million requested is new discretionary funding and represents a 
small investment to ensure that workers are able to balance their work 
and family responsibilities without fear of losing their jobs. The 
language provides:
    For grants to assist in the start-up of new paid leave programs in 
the States, $50,000,000, of which the Secretary may reserve not more 
than 1 percent for administration related to such grants.
    This is not a new Federal mandate or employer tax. The State Paid 
Leave Fund will simply make it a little easier for those States that 
want to design and establish paid leave programs to do so. States like 
California and New Jersey that have already established paid leave 
systems have shown that these benefits can be provided at no cost to 
employers and with very modest contributions from employees. States 
will need to weigh the pros and cons of such a program for their own 
constituencies as California and New Jersey did and will have the 
opportunity to debate the merits through their own legislative process.

    9. On September 2, 2009 DOL announced its intention to create a 
``chief evaluation office'' tasked with improving program 
accountability, eliminating waste within the department, and 
concentrating DOL's enforcement resources.
    Has the chief evaluation office begun its operation? If so, what is 
the focus of the office and its enforcement role, particularly as it 
relates to other enforcement divisions within DOL?

    Answer: The Chief Evaluation Office is part of the Office of the 
Assistant Secretary for Policy and coordinates closely with the Office 
of the Chief Economist.
    The Office is headed by a Chief Evaluation Officer who is 
responsible for developing and managing a comprehensive DOL evaluation 
program. The program will be designed by the Chief Evaluation Officer 
in coordination with the Assistant Secretary for Policy, the Chief 
Economist, the Office of the Deputy Secretary and relevant agency 
heads. Departmental evaluation funding will be allocated to agencies 
according to the program.
    The Chief Evaluation Officer assists agencies in preparing their 
annual research and evaluation plans; provides technical assistance in 
project design and analysis; ensures a consistent and high standard of 
rigor in the Department's evaluations; and is responsible for ensuring 
that research and evaluation are aligned with and responsive to the 
Administration's overarching performance goals and the Department's 
strategic vision. Enforcement agencies do not have their own dedicated 
source of evaluation funding and thus request evaluation funds from 
departmental management. In the past this funding has been awarded by 
the Center for Program Policy and Results. In FY2009 the Deputy 
Secretary's Office and the Chief Economist's Office participated in the 
decision making process. FY2010 funds are allocated jointly by the 
Offices of the Deputy Secretary, Chief Economist, and Assistant 
Secretary for Policy. In future fiscal years, the coordination of this 
work will be done by the Chief Evaluation Office. Through this 
function, the Chief Evaluation Office will work with agencies to 
determine what the desired outcomes of their enforcement programs are 
and how to evaluate their effectiveness in reaching those outcomes. The 
Chief Evaluation Officer will also make sure that the programs being 
evaluated are aligned with the Department's enforcement priorities 
including targeting of the most egregious and persistent violators, 
corporate-wide enforcement, and leveraging resources to bring about 
broad-based compliance.
    Dr. Jean Grossman has been selected as the Chief Evaluation Officer 
and formally joined the Department on June 1, 2010. It is expected that 
additional staff will be hired to work in the Office of the Assistant 
Secretary for Policy and the Chief Evaluation Office on these matters.

    10. The Department has reissued a previously-withdrawn 
recordkeeping regulation targeting so-called musculoskeletal disorders 
(MSDs), and requiring that MSDs be recorded on workplace safety logs. 
In 2001, the Department settled a lawsuit by agreeing to remove the 
requirement that MSDs be recorded.
    Can you explain how the Department has the legal authority to 
reimpose this rule, thereby reneging on its settlement agreement in 
this case?

    Answer: The settlement agreement that OSHA entered into in 2001 did 
not remove the requirement to record work-related MSDs. Employers are 
and always have been required to record work-related MSDs that meet the 
general recording criteria for all injuries and illnesses in the OSHA 
Recordkeeping regulation.
    In 2002, after notice and comment, OSHA removed the separate MSD 
column on the OSHA Form 300. This decision was not part of or required 
by the settlement agreement, nor did it eliminate the requirement that 
employers must report work-related MSDs.
    The proposed rule would merely change where employers record MSDs 
on the OSHA Form 300; it would not establish new or special criteria 
for recording injuries already required under current law. Employers 
will continue to use the recording criteria for MSDs as they are 
required to use for any other injury or illness.
    The separate column would improve the accuracy of the data 
collected on MSDs, providing OSHA, workers and employers better 
information to help identify and reduce hazards and patterns of 
injuries in the workplace.

    11. Last September, DOL issued a solicitation for construction of a 
Job Corps Center in New Hampshire that the Department declared was 
``urgently needed.'' Without explanation, the Department attempted to 
impose a Project Labor Agreement (PLA) on the project, which would have 
required all successful bidders to force their employees to work under 
a union contract even though more than 90 percent of the workers in New 
Hampshire are non-union. After a local small business filed a protest 
against the PLA, the Department cancelled the solicitation, again 
without sufficient explanation.
    Please explain why the Department attempted to impose a PLA on this 
project that was well under the $25 million threshold prescribed in the 
executive order. Please explain further why the Department canceled the 
entire solicitation of an ``urgently needed'' project in the face of 
the bid protest instead of simply removing the PLA. Finally, please 
explain why has the Department not reissued the solicitation for this 
urgently needed Job Corps Center without any PLA requirement.

    Answer: Executive Order 13502, 74 Fed. Reg. 6985 encourages 
agencies to consider using Project Labor Agreements on large-scale 
construction projects over $25 million. The projected cost of the New 
Hampshire Job Corps Center will exceed this threshold. The Department 
of Labor remains fully committed to building and opening the Manchester 
Job Corps Center. Cancelling the solicitation provides the Department 
with additional time to study the proper implementation of Project 
Labor Agreements. The Department expects to reissue the solicitation 
for the New Hampshire Job Corps Center as soon as is prudent.
Rep. Tom Price
    1. The Obama Administration has given unprecedented access at the 
White House to organized labor officials. Partial records for 2009 
indicate that President of the SEIU Andy Stern has made 27 visits to 
the White House, and Secretary-Treasurer of the SEIU Anna Berger has 
made 31 visits. AFL-CIO President Richard Trumka has visited nine 
times, and United Steelworkers President Leo Gerard made another eight 
visits.
    a. To date, how many visits/meetings have you taken with organized 
labor officials? How many of those visits/meetings have taken place at 
the Frances Perkins Building in Washington, DC? Please categorize these 
visits/meetings if necessary.

    Answer: I do my best to accommodate most meeting requests, as my 
schedule permits, whether from labor officials, business leaders or 
other constituency groups. Each of the labor leaders you list has asked 
for and received a meeting with me. I also get many requests to speak 
at conferences of labor, business and constituency groups, and I attend 
those as my schedule permits. When I travel I look for opportunities to 
meet with local labor, business and constituency groups.
    Some meetings are organized for particular purposes. For example I 
am responsible for co-hosting with Trade Ambassador Ron Kirk, a 
quarterly meeting of labor leaders, the Labor Advisory Committee, to 
hear their perspectives on trade policy. In preparing for hosting the 
G20 Labor ministers, my staff organized special consultations of both 
labor and business leaders to incorporate their perspectives into our 
preparation for that meeting.

    b. Does the Department of Labor consider Mr. Stern, Ms. Berger, Mr. 
Trumka, and Mr. Gerard to be lobbyists? How does the Department 
classify them for purposes of visits/meetings?

    Answer: The Department is not aware of any circumstances during 
this time period when it needed to ascertain whether the individuals 
listed above were lobbyists.

    c. Does the Department of Labor have any special task forces or 
conduits established to stay in regular contact or gather input from 
organized labor officials?

    Answer: Yes, I have two staff members in the Office of the 
Secretary whose responsibilities include contact with Department 
stakeholders, including organized labor.

    2. You and President Obama have been leading proponents of ``green 
jobs.'' What is a ``green job?'' How does the Department classify a 
``green job?''

    Answer: Currently, there is no one standard definition of green 
jobs across agencies and industries. The Bureau of Labor Statistics 
(BLS) has started a process of soliciting comments on the definition 
BLS will use in measuring green jobs. According to BLS, green jobs, 
broadly defined, are jobs related to economic activity that helps 
protect or restore the environment or conserve natural resources. These 
economic activities generally fall into the following categories:
    <bullet> Renewable energy
    <bullet> Energy efficiency
    <bullet> Greenhouse gas reduction
    <bullet> Pollution reduction and cleanup
    <bullet> Recycling and waste reduction
    <bullet> Agricultural and naturals resources conservation
    <bullet> Education, compliance, public awareness, and training for 
protecting the environment or conserving natural resources
    For the American Recovery and Reinvestment Act (Recovery Act) 
Solicitations for Grant Awards, ETA utilized the Green Jobs Act of 2007 
which identified seven energy efficiency and renewable energy 
industries including: 1) energy-efficient building, construction, and 
retrofit industries; 2) renewable electric power industries; 3) energy 
efficient and advanced drive train vehicle industries; 4) biofuels 
industries; 5) deconstruction and materials use industries; 6) energy 
efficiency assessment industries serving residential, commercial, or 
industrial sectors; and 7) manufacturers that produce sustainable 
products using environmentally sustainable processes and materials. 
Applicants were also encouraged to propose strategies that would train 
for green occupations in transportation; green construction; 
environmental protection; sustainable agriculture, including healthy 
food production; forestry; and recycling and waste reduction 
industries. Additionally, states, private and non-profit organizations, 
and local governments are working to address emerging green needs in 
their own jurisdictions. Therefore, ETA allowed flexibility for grant 
applicants to describe their training and job placement activities as 
green within the parameters laid out by the Occupational Information 
Network (O*NET) study described shortly.
    Before discussing the O*Net Study, it is important to note that a 
portion of the Recovery Act investments fund state labor market 
information research on green occupations; these investments are being 
used by grantees to collect, analyze, and disseminate labor market 
information, and to enhance the labor exchange infrastructure for 
careers within the energy efficiency and renewable energy industries. 
Grantees are including strategies for posting job openings to online 
job banks that will be highlighted for easy recognition as green jobs 
by job seekers, in an effort to ensure that workers trained for green 
jobs will be able to find employment in energy efficiency and renewable 
energy sectors after they finish training.
    As mentioned, the Department of Labor-sponsored O*NET project has 
produced a report on the impact of investments and technological 
developments related to energy efficiency, renewable energy, and 
environmental sustainability. In the report titled, Greening the World 
of Work: Implications for O*NET-SOC and New and Emerging Occupations, 
research identified 218 occupations impacted across three distinct 
categories:
    1. Green Increased Demand--These are existing occupations that are 
expected to experience increased employment demand. In this category 
are 69 O*NET-Standard Occupation Classification (SOC) occupations, such 
as Forest and Conservation Workers, and Electricians.
    2. Green Enhanced Skills--These are existing occupations that will 
experience changes in tasks, skills, and credential requirements (and 
may or may not increase in demand). In this category are 59 O*NET-SOC 
occupations, such as Architects, and Plumbers.
    3. Green New and Emerging--These are more specialized occupations 
that are sufficiently different in tasks and skill requirements from 
currently existing O*NET-SOC occupations, such that they merit separate 
identification and data collection on O*NET occupational requirement 
variables, such as occupation specific skills and tools and technology. 
Forty-five occupations in this category are identified in prior 
research, with 45 additional new and emerging occupations arising out 
of this specific study of green economic investments.
    3. At the end of January 2010, the Department of Labor published a 
proposal to revise its regulation on Recording Occupational Injuries 
and Illnesses in order to add a column on the OSHA Form 300. The 
addition is to capture information on work-related musculoskeletal 
disorders.
    As succinctly as possible, please describe the rationale for 
capturing such information.

    Answer: Under current law, employers are already required to report 
work-related musculoskeletal injuries and disorders (MSDs). Putting the 
MSD column back on the OSHA Form 300 would improve the accuracy of the 
nation's data on work-related MSDs. In turn, OSHA, workers, and 
employers would have better, easier-to-use information to help identify 
and reduce hazards on this important group of occupational injuries and 
illnesses.

    4. Although the Congress passed legislation in 2001 to overturn a 
Clinton-era ergonomics regulation, is the Department of Labor moving 
forth with the implementation of a similar regulation?

    Answer: Although musculoskeletal injuries and disorders (MSDs) 
continue to be a major problem for American workers, at this time the 
Department has no plans to issue a standard in this area.
Rep. Cathy McMorris Rodgers
    1. The Obama Administration has talked about helping workers 
improve the work-family balance, something that is a stated goal of the 
White House Task Force on Working Families. First Lady Michelle Obama 
has embraced that goal as well, as part of her commitment to ``ensure 
that there are policies in place that help women and men balance their 
work and family obligations without putting their jobs or their 
economic stability at risk.''
    In fact, workplace flexibility could very well provide one of the 
solutions to help employers navigate these tough economic times. Many 
employers have been forced to reinvent work: as part of an effort to 
improve efficiency, adjust to shifts and demands in the economy, and to 
respond to employee desires for greater accommodation in the ``when, 
where, and how'' they do their work. The advantages and benefits of 
increased flexibility in the workplace accrue to both employers and 
employees alike, and have been well-documented over the years.
    Private sector employers and employees are denied the use of so-
called ``comp'' time programs, which would very simply provide a large 
measure of workplace flexibility, while most public sector employees--
including Federal workers--have the ability to choose comp time off in 
lieu of overtime pay.
    What is your view on this type of work arrangement in terms of 
helping workers better balance work and family obligations, and would 
you support extending a comp time option to workers in the private 
sector?

    Answer: The Administration and I strongly believe that workplace 
flexibility is a necessity to meet the growing demands of our workplace 
and families. Significant demographic changes in the workforce mean 
that more working individuals must juggle the responsibilities of 
taking care of children and helping older parents and to pursue 
education to enhance skills to keep pace with the demands of the 
workplace. Employers also directly benefit from flexibility for 
workers; the White House Council of Economic Advisers released a report 
in March 2010 that found that flexible work arrangements can lead to 
lower turnover and absenteeism and higher productivity.
    The Administration and I strongly support increasing flexibility in 
the workplace. I recently participated in the Workplace Flexibility 
Forum at the White House, and we are committed to increasing 
flexibility in the workplace. Over the next year, the Department of 
Labor will be hosting regional forums to continue the dialogue started 
at the White House event and to highlight best practices of employers 
who are already deploying flexible options in their workplaces to help 
others learn from their experiences. In addition, a wide variety of 
agencies at the Department of Labor are working together to examine our 
programs, policies, data collection, and regulations that impact 
workplace flexibility to see how we can better meet the needs of the 
modern workforce. Similarly, the Office of Personnel Management has 
announced a pilot program that would evaluate workers on their 
performance and would allow workers to choose where and when they work. 
The Department of Labor is very interested in exploring innovative 
programs and policies that would allow flexibility for workers, 
especially low-wage workers who often have little or no control over 
their work schedules, while preserving the fundamental safeguards in 
current law.

    2. The Fair Labor Standards Act was enacted more than 70 years ago. 
We know that over the years, there have been a number of amendments 
made to the law in order to address changing workforce conditions, such 
as when, where and how work is conducted today. At the same time, there 
are many aspects of the law that have not been updated or modernized in 
decades, nor have there been changes to address the advent of new 
technologies--such as Blackberries, smart phones and even the 
Internet--and how these technologies affect how, where and when work is 
conducted today.
    These outdated and unclear provisions restrict the ability of 
companies to provide certain workers with work place and work time 
flexibility, along with access to technology outside the workplace. 
And, this results in more difficult work-life balance decisions--and 
limited work/life balance options--for workers. It also negatively 
impacts job creation opportunities at a time when job creation should 
be our primary focus.
    Today's worker responsibilities, lifestyle choices, and changing 
work methods necessitate that specific aspects of our primary labor law 
be reviewed, modernized and clarified in order to provide workers and 
their employers with both the flexibility and certainty that are 
lacking today. I would bring to your attention three specific issues 
which greatly need to be updated and clarified:
    <bullet> First, the lack of a statutory definition of `De Minimis 
Use of Technology' and the lack of clarification of what types of 
activities trigger the start of the work day;
    <bullet> Second, the unequal treatment of inside salespeople 
compared to their peers who are doing the same work from a different 
physical location; and
    <bullet> Third, the outdated definition of what constitutes a 
``computer professional.''
    What is the Department's view with respect to about taking a fresh 
and necessary review of these three issues?

    Answer: I agree that there are aspects of Fair Labor Standards Act 
that should be updated to provide greater protections to workers 
employed in work environments different from those that existed when 
the law was first enacted. The Administration would be pleased to 
review and provide its views on any legislation affecting today's 
workforce.
                                 ______
                                 
    [Whereupon, at 11:50 a.m., the committee was adjourned.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
